<html>
<title> - COUNTRY REPORTS ON HUMAN RIGHTS PRACTICES FOR 1999</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



           COUNTRY REPORTS ON HUMAN RIGHTS PRACTICES FOR 1999

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
               INTERNATIONAL OPERATIONS AND HUMAN RIGHTS

                                 OF THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                        WEDNESDAY, MARCH 8, 2000

                               __________

                           Serial No. 106-124

                               __________

    Printed for the use of the Committee on International Relations


 Available via the World Wide Web: http://www.house.gov/international 
                               relations


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
65-719                     WASHINGTON : 2000

                                 ______

                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE P. RADANOVICH, California     JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                                 ------                                

       Subcommittee on International Operations and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
WILLIAM F. GOODLING, Pennsylvania    CYNTHIA A. MCKINNEY, Georgia
HENRY J. HYDE, Illinois              ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
CASS BALLENGER, North Carolina       EARL F. HILLIARD, Alabama
PETER T. KING, New York              BRAD SHERMAN, California
MATT SALMON, Arizona                 WILLIAM D. DELAHUNT, Massachusetts
THOMAS G. TANCREDO, Colorado         GREGORY W. MEEKS, New York
            Grover Joseph Rees, Subcommittee Staff Director
                      Douglas C. Anderson, Counsel
                Peter Hickey, Democratic Staff Director
                  Nicolle A. Sestric, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Harold Hongju Koh, Assistant Secretary, Bureau of 
  Democracy, Human Rights and Labor, U.S. Department of State....     9
Ms. Elisa Massimino, Director of Washington, DC Office, Lawyers 
  Committee for Human Rights.....................................    52
Carlos Salinas, Advocacy Director for Latin America, Amnesty 
  International USA..............................................    60
Nina Shea, Director, Center for Religious Freedom, Freedom House.    67
Alison DesForges, Consultant, Human Rights Watch/Africa..........    72

                                APPENDIX

Prepared statements:

Hon. Christopher H. Smith, a U.S. Representative in Congress from 
  the State of New Jersey, Chairman, Subcommittee on 
  International Operations and Human Rights......................    82
Hon. Harold Hongju Koh...........................................    86
Ms. Elisa Massimino..............................................    96
Mr. Carlos M. Salinas............................................   109
Ms. Nina Shea....................................................   127
Dr. Alison DesForges.............................................   135

Additional material submitted for the record:

Prepared statement of the Hon. George Radanovich, a U.S. 
  Representative in Congress from the State of California........   140
Insert from Amnesty International USA............................   141

 
           COUNTRY REPORTS ON HUMAN RIGHTS PRACTICES FOR 1999

                              ----------                              


                        WEDNESDAY, MARCH 8, 2000

             U.S. HOUSE OF REPRESENTATIVES,
Subcommittee on International, Operations and Human 
                                             Rights
                      Committee on International Relations,
                                                  Washington, D.C.,
    The Subcommittee met, pursuant to notice, at 10:07 a.m., in 
room 2360, Rayburn House Office Building, Hon. Christopher H. 
Smith, (Chairman of the Subcommittee) presiding. Mr. Smith. The 
Subcommittee will come to order. Good morning.
    I am very pleased to convene this hearing of the 
Subcommittee on International Operations and Human Rights for 
the purpose of reviewing the country reports on human rights 
practices for 1999.
    Our distinguished witnesses this year include Assistant 
Secretary for Democracy, Human Rights and Labor, Harold Koh, 
and the representatives of four leading human rights 
organizations.
    Secretary Koh, I am particularly pleased to welcome you 
back to the Subcommittee, now that we have been successful in 
our effort to enact legislation requiring the State Department 
to spend at least $12 million per year more on the Bureau of 
Democracy, Human Rights and Labor.
    As you know, this almost doubles the Bureau's budget, but 
it is still less than one-half of 1 percent of the Department's 
salaries and expenses and just a little more than what the 
Department spends on its Public Relations Bureau. I know that 
as a State Department official, you strongly disapprove of such 
Congressional micro management, but I believe Congress 
occasionally needs to help the executive branch get its 
priorities right.
    One such occasion is when Congress finds out that the State 
Department is spending more on PR than on human rights. So this 
reordering of priorities was a long overdue step and we believe 
a necessary step, although certainly not a sufficient one, 
toward giving the protection of human rights the leading role 
it deserves in the foreign policy of the United States.
    This year's country reports have already been the subject 
of well deserved praise. Last year's reports were quite strong 
and this year's contain even more information and pull even 
fewer punches. I know this takes not only hard work, but also 
courage on the part of the people who work on the reports, 
especially when an honest and unvarnished statement of the 
facts might create difficulty for the Department or the 
Administration.
    For instance, the China report does not attempt to conceal 
the deterioration of the human rights situation in that 
country. More arrests of political and religious dissenters, 
more bad news for the people of Tibet and East Turkestan, more 
evidence of forced labor and complicity of government officials 
in sex trafficking, more forced abortions and forced 
sterilizations. All this cannot help but lend support to those 
of us who believe that 6 years of the Administration's 
constructive engagement policy have harmed rather than helped 
the long-suffering people of China.
    This pattern of honest reporting extended even to some of 
our strongest allies. For instance, the treatment of Northern 
Ireland is fair and even-handed, even when the approach 
requires scrutiny of our friend and ally, the British 
Government.
    In addition to describing acts of violence by the 
republican and loyalist paramilitary groups, the report also 
asserts that, ``members of the Royal Ulster Constabulary police 
force committed human rights abuses'' during this year. 
Similarly, when discussing the case of murdered defense 
attorney Rosemary Nelson, the text reports ``doubts about the 
RUC's impartiality'' in the investigation of Ms. Nelson's 
original harassment charges against the police.
    Unfortunately, there are still a few holdovers from the 
pattern of a few years ago, in which the country reports often 
appeared to be the product of guerrilla warfare between human 
rights advocates within the State Department and their 
colleagues whose primary interest was to avoid ``damaging the 
relationship'' between the U.S. and some horrible dictatorship. 
This old pattern is still strongly evident in this year's 
reports on Cambodia, Laos, and Vietnam. Although a careful 
reading of the Cambodia report makes clear that the 
government's human rights violations during 1999 were numerous 
and severe, the first few paragraphs of the report contain a 
number of positive statements about the government, most of 
them having little or nothing to do with human rights, which 
tend to deflect the reader's attention from the government's 
egregious human rights record.
    For instance, the report begins by saying that the new 
government headed by serial murderer Hun Sen has brought 
political stability to the country. Hun Sen and others like him 
around the world will be encouraged by the implication that 
there is an internationally recognized human right to political 
stability, but the object of the country reports on human 
rights practices should not be to encourage the likes of Hun 
Sen.
    The report then goes on to take the controversial position 
that despite numerous electoral irregularities and systematic 
harassment of opposition parties, up to and including murder, 
the formation of the new government reflected the will of the 
electorate, the report says.
    Finally, we are still in the first three paragraphs of the 
report. It states that Cambodia is an impoverished country and 
that the stagnant economy began to improve following the 
formation of the coalition government.
    Why does this statement about the government's economic 
accomplishments belong in a human rights report? Surely, the 
Human Rights Bureau does not intend it to excuse or perhaps 
mitigate the government's human rights record. At best it is 
distracting and irrelevant, and at worst it suggests that while 
the government of Cambodia may be breaking some eggs, it may 
also be making some tasty omelets.
    The Laos report is noteworthy not for what it says, but for 
what it omits. Among the most disturbing events in that 
troubled country during 1999 was the disappearance of two 
United States citizens, both members of the Hmong ethnic 
minority, near the border between Thailand and Laos. An 
eyewitness reported that he saw the two men cross into Laos in 
the company of a Lao government official, and there was another 
report that the Lao government had captured both men and 
executed one of them.
    Yet, the country report states only that there were 
conflicting accounts of the incident, without providing any 
further detail.
    Assistant Secretary Koh, I know you will agree that 
whenever a tyrannical government captures or kills an innocent 
person, it is absolutely predictable that there will be 
conflicting accounts of what has happened, because such 
governments tend to lie. Yet a human rights report issued by 
the U.S. cannot simply take the word of the alleged killers at 
face value and close the books with the case permanently 
unsolved.
    At the very least, the report should have given the details 
of the eyewitness accounts, along with the denial by the 
government of Laos.
    This year's Vietnam report reads a lot like the China 
report used to read back in the bad old days. It honestly 
states the facts about a wide range of human rights violations, 
but it follows each terrible fact with a gratuitous and 
exculpatory editorial comment, such as ``there have been 
improvements in some areas.'' If you slice your areas thin 
enough and have an optimistic outlook on life, you can always 
find improvement in some areas.
    The report also pays the government of Vietnam backhanded 
compliments such as that it exhibited greater freedom for 
different views on nonpolitical subjects than for political 
ones. Unfortunately, the Vietnam report also puts a spin on 
issues in which the Department or the Administration has a 
strong interest. For instance, as in prior years, this year's 
Vietnam country report repeats the conclusion of the UNHCR 
monitors that none of the thousands of people returned to 
Vietnam from refugee camps under the comprehensive plan of 
action were persecuted upon their return.
    In reaching this conclusion, UNHCR monitors had to decide 
what to do among thousands of returnees who were subjected to 
extensive interrogation by security police about their anti-
Communist activities before and after leaving Vietnam, who were 
threatened with severe retribution if they engaged in similar 
activities after their return, and who were denied the 
household registration which we all know is necessary to 
receive basic necessities of life.
    Some of these people were imprisoned on return, allegedly 
for crimes they committed before they left, and at least one 
was executed. In every single case, the monitors decided either 
that such ill treatment did not constitute persecution or that 
it was inflicted for some nonpolitical reason.
    The State Department has been given information on a number 
of these cases, both by human rights organizations and by 
Members of Congress. Rather than uncritically repeating the 
UNHCR conclusions in future reports, I strongly urge the bureau 
to investigate these cases and decide whether these people are 
telling the truth about suffering serious harm upon return to 
Vietnam.
    In another particularly unfortunate mischaracterization, 
the report cites the creation by the Vietnamese government of a 
committee to govern the Hoa Hao Buddhist Church, as evidence of 
the improvement in religious freedom, although the report also 
notes that some Hoa Hao do not accept the committee as 
legitimate.
    I met with members of this denomination on a recent trip to 
Vietnam and I am informed that nearly all of the Hoa Hao 
believers reject the new committee. Its leader is a prominent 
communist cadre and its first acts were to prohibit various Hoa 
Hao ceremonies.
    If the U.S. Government were to organize an 11-member 
committee to govern the Catholic Church or the Methodist Church 
or any Buddhist Church, nobody would claim this enhanced 
freedom of religion for Catholics or for Methodists or for 
Buddhists. We should not make the same mistake in the case of 
the Hoa Hao.
    Vietnam, Laos and Cambodia are small countries in which 
U.S. diplomats are keen to build a better relationship with an 
egregious government. Because the United States business 
interests do not have the same economic stake in these 
countries as they do in China, severe and well publicized human 
rights violations may present a serious obstacle to the U.S. 
trade concessions, foreign assistance and other diplomatic 
building blocks.
    The argument that has worked in the case of China that the 
government consists largely of thugs, but that they will 
eventually stop being thugs if we only trade with them and 
trade some more, does not work for these countries and it 
doesn't work for China.
    We should send the same message day in and day out to every 
human rights violator in the world. If you abide by certain 
minimum standards of decency, then you will be welcomed by the 
United States as an equal member of the community of free and 
civilized nations, and good things will flow to you from the 
U.S. If you do not abide by these minimum standards, you will 
not receive these benefits.
    I have often quoted the remarks of a witness who 
represented Amnesty International at our first hearing of this 
Subcommittee under my chairmanship. He stated, ``Human rights 
is a island off the mainland of U.S. foreign policy,'' 
unconnected to anything else.
    Unfortunately, we still have a long way to go in order to 
integrate human rights into the mainstream of our foreign 
policy. We should start by denying Permanent Most Favored 
Nation status to China or to any other government that 
systematically brutalizes its own people.
    I'd like to yield to my good friend and colleague from 
Georgia, the Ranking Member of our Subcommittee, Cynthia 
McKinney.
    [The statement of Mr. Smith appears in the appendix.]
    Ms. McKinney. Thank you, Mr. Chairman. I would like to 
thank you for convening this panel, as well as your strong 
leadership on the issue of human rights, particularly human 
rights practices in China.
    I am very pleased to welcome back our Assistant Secretary 
Harold Koh and I look forward to your presentation of this 
year's State Department Country Reports on Human Rights 
Practices.
    I also look forward to hearing from the representatives of 
the distinguished human rights organizations from whom we will 
also be hearing.
    I'd like to express my appreciation to those people not 
here today who contributed to the production of this report. In 
Secretary Koh's February 25th statement regarding the release 
of the 1999 country reports on human rights practices, he 
correctly points out that the simple act of human rights 
reporting is difficult and sometimes even dangerous work.
    Last year, this Subcommittee, under the leadership of 
Chairman Smith, reported out the Embassy Security Enhancement 
Act of 1999. I want to assure you that, working with the 
Chairman, we will continue to do our part to provide a safe and 
effective environment for your colleagues who are working on 
our behalf in embassies and consulates around the world.
    The issues with which the country reports deal are among 
the most important that our government faces in the conduct of 
its foreign policy. We have come to realize that governments 
that mistreat their own people are not likely to treat 
foreigners much better and, therefore, that it's both easier 
and safer to work with governments that respect human rights.
    We have also discovered that countries that respect labor 
rights tend to have effective, satisfied and productive 
workers. Observance of human rights has thus become not merely 
a lofty ideal for us to urge on others, but a very practical 
consideration in the way we do business.
    I want to begin my discussion of the particular reports by 
first drawing attention to the record on China and the report 
with respect to an issue that's before Congress, national 
normal trade relations status. I have seen administration after 
administration use the tired old excuse of constructive 
engagement for rewarding brutal and repressive regimes with 
everything from diplomatic recognition, taxpayer finance 
largess, arms sales, or as is now the case, Most Favored Nation 
trading status, based on the false promise of social change 
through engagement.
    Not once from the old apartheid regime of South Africa to 
the killing fields of Guatemala and El Salvador, to the burned 
ruins of East Timor, not once has engagement ever been 
constructive in bringing about anything other than more 
repression, a more entrenched oligarchy, more death, and more 
despair.
    Social change comes from the dedicated, persistent and 
often dangerous work of activists, working for social change, 
many of whom are in this room--never once from arms dealers and 
bankers who tout engagement as a sale for the public conscience 
over doing business with butchers.
    In addition, I would like to turn to the situation in Iraq 
and recognize two activists who have worked and sacrificed in 
the face of overwhelming odds for the lives and dignity of 
others. They are Hans von Sponik, the former humanitarian 
coordinator in Iraq, and Juta Burkhardt, the former Chief of 
the U.N.'s World Food Programme in Baghdad.
    Both resigned in protest over the continued sanctions on 
Iraq. Von Sponik's resignation follows his predecessor, Dennis 
Halladay, who also resigned in protest and has become one of 
the outspoken critics of the sanctions regime.
    To put the issue in perspective, the total number of 
Americans killed in war during the last century is less than 
the number of Iraqis that have died due to the sanctions 
regime. The sanctions themselves have become a weapon of mass 
destruction. I applaud and honor Mr. Von Sponik and Ms. 
Burkhardt for their courage, their conviction, and their 
humanity.
    It is time to bring an end to this dreadful episode in 
American foreign policy. I am also deeply disappointed by the 
situation in the Great Lakes Region. The territorial integrity 
of the Democratic Republic of Congo must be protected. The U.S. 
must become an honest broker in this war and should begin by 
severing any covert military relationships with the armed 
groups and factions that are committing crimes against 
humanity.
    The United States and its allies must be examples of 
transparency, democracy, respect for human rights, and 
sustainable development. Instead, Rwanda and Uganda continue to 
raid the Democratic Republic of Congo, occupying large amounts 
of that country's territory and stealing its resources.
    Has the United States condemned these actions? Will you 
condemn these actions today? Will you call for an immediate 
withdrawal of Uganda and Rwanda from the DRC?
    If not, then we are doing nothing more than hiding behind a 
policy that condones the partition of the Democratic Republic 
of Congo by African allies of the United States.
    In her opening statement to the U.N. Security Council, 
Secretary of State Albright cited an incident of 12 women who 
were buried alive in the eastern Democratic Republic of Congo. 
The U.S. Special Rapporteur on Human Rights in the DRC reported 
that these massacres perpetrated by Rwandan Rebels in 1998 and 
1999, where more than 800 were killed, are the cruelest and 
most violent incidents of the war.
    These sorts of massacres are taking place in rebel-held 
areas of the DRC, as the U.S. lamely asserts that it doesn't 
support the rebels.
    In Rwanda, we know the Clinton Administration actively 
worked to prevent anyone from responding to pleas from the U.N. 
forces on the ground attempting to prevent or contain the 1994 
Rwandan genocide. Both France and Belgium have taken an 
introspective look at what went wrong and why and the United 
States needs to do the same.
    This summer, Ugandans will vote on whether to establish 
democracy or continue the present arrangement, which your own 
human rights report in 1997 called a one-party state.
    The position of the Administration has been that it will 
support any result if the election process is fair. Human 
Rights Watch strongly argued that the one-party system violates 
basic human rights, such as freedom of expression and political 
association, principles to which the U.S. is rhetorically 
committed.
    However, Human Rights Watch made very clear that since mid 
1997, the U.S. has been nearly silent on the issue. Shouldn't 
we care if Ugandans get to practice democratic freedoms and is 
it not true that the security problems of Uganda, Burundi and 
Rwanda won't be solved until they develop democratic 
institutions?
    In addition, I want to call particular attention to the 
close collaboration of the Colombian military with paramilitary 
groups that are responsible for massacres and widespread human 
rights violations against the civilian population.
    I question the Administration's plan to put more guns into 
the hands of known killers. Based on the State Department 
report on Colombia, it is clear that a massive influx of 
weapons will do nothing to quell the Colombian government's 
thirst for violence.
    I emphatically agree with the new universal sentiment of 
the NGO community on the generally high quality of the Bureau 
of Democracy, Human Rights, and Labor's work. Although the 
Department has increased DRL's resources over the last few 
years, it is still inadequately funded.
    The budget should reflect the importance of the issues with 
which it deals, and I will continue to work with the Chairman 
until it does.
    Finally, Mr. Chairman, an aside. We all treasure the role 
and importance of the United Nations in the international 
community. It was created to rid the world of suffering, to 
prevent armed conflict, and, most important of all, to 
guarantee that never again would the world permit rogue states 
and mass murderers to commit genocide and crimes against 
humanity.
    But unfortunately, I regret to say that in the last 6 
years, the United Nations has repeatedly failed the world. In 
April 1994, the U.N. turned a blind eye to genocide in Rwanda 
and allowed an estimated one million men, women and children to 
be exterminated in 100 days. Just 1 year later, in July 1995, 
the U.N. surrendered its own U.N. declared safe haven of 
Srebrenica to the Serbian Army and in the following week, an 
estimated 7,400 men and young boys perished.
    Then last year, in August-September 1999, the U.N. 
completely was ill-prepared to deal with violence in East Timor 
and the destruction of Dehli.
    With respect to each of these tragedies and only after 
considerable complaint from concerned people, the U.N. 
apologized for its abject failure. But weakly worded statements 
of regret are not enough for these grave injustices and 
violations of fundamental human rights.
    Just last December, in 1999, I facilitated a meeting 
between two Rwandan families in the U.N.'s independent inquiry 
into its handling of the 1994 Rwandan genocide. At that 
meeting, I heard the most extraordinary accounts from two 
families, for the first time in history, that U.N. troops 
themselves were accused of complicity and genocide.
    In one instance, U.N. troops remained at one of the houses 
and drank stolen beer while Rwandan Presidential Guard troops 
tortured a woman and her children. In each of these instances 
in Rwanda, Srebrenica and East Timor, the victims of the U.N. 
have been left to piece their lives back together again. 
Certainly, little that we discuss today will rival the colossal 
failures experienced in Rwanda, Srebrenica and East Timor.
    Just as we listen today about human rights conditions 
around the world, we should know that some of the greatest 
international crimes of the century are not to be found within 
these U.S. human rights documents. We still have a long way to 
go.
    Once again, I would like to express my thanks to Mr. Koh, 
to his staff and DRL, and to all the embassy officers whose 
consistent attention to human rights issues has made these 
reports possible. We are the only government that does this 
thing and in so doing, we make a strong statement about what we 
as a country are about.
    Thank you, Mr. Chairman.
    Mr. Smith. Thank you for your statement. Before I yield to 
Mr. Tancredo, I want to associate myself with your remarks, 
because we have examined those issues in this Subcommittee over 
the last several years, and you have been right there in every 
one of those hearings and fact-finding trips and efforts to 
make a difference, whether it be in the former Yugoslavia or in 
Rwanda.
    As we all know, there was an early warning heads-up that 
the killing fields were about to erupt in Rwanda. Regrettably, 
the General who was in charge of peace keeping faxed Kofi Annan 
and his admonitions that action be taken were unheeded, and we 
held a hearing, heard from people, actually had the fax in 
front of us and read it, and it was another black mark in 
opportunity missed and, as a result, as you pointed out so 
well, the killing fields ensued.
    So I want to thank you for your very, very strong 
statement.
    Mr. Tancredo.
    Mr. Tancredo. I have no opening.
    Mr. Smith. Mr. Delahunt.
    Mr. Delahunt. Thank you, Mr. Chairman. I welcome Mr. Koh 
here today. Your appearance here is timely, particularly given 
the context that this body will shortly be considering a rather 
large package of assistance to Colombia.
    There's been a lot of discussion during the course of the 
past several weeks about the package and recently there was an 
article that appeared in the Washington Post, written by Karen 
DeYoung, and I'm going to quote from that article, because my 
line of questioning would pursue the concerns that have been 
articulated by the human rights community regarding the 
package. It's quoting a Miguel Vivanco, who is Executive 
Director of the Latin American Division of Human Rights Watch.
    He is quoted as saying that ``Human Rights Watch is not 
calling for Congressional rejection of the $1.6 billion 2-year 
Colombian aid package.'' Rather, the report urges that strict 
new conditions be placed on all U.S. security assistance to 
Colombia, including the civilian prosecution of all military 
personnel implicated in human rights abuses and restrictions, 
and restrictions on intelligence sharing with Colombia Army 
units.
    My first question, and I would give you an opportunity to 
reflect on this, is your department, your division's, your 
bureau's involvement in the development of the package put 
forth by the Administration. I will ask you a series of 
questions regarding amendments that myself and other Members 
intend to offer during the course of the process as this 
package comes forward.
    I would also just ask one other question, and it was 
brought to my attention just recently by a member of my staff, 
who noted that while the FARC, the major guerrilla group within 
Colombia and the second major guerrilla group in surgency was 
in Colombia, the ELN, are both listed on the foreign terrorist 
organization list.
    The AUC, which is an umbrella group for paramilitary units 
within Colombia, headed by one Carlos Castanyo, is not listed 
and I would be interested in hearing why Mr. Castanyo and the 
AUC has failed to be listed on the foreign terrorist 
organization list.
    It would appear to me, upon reading the statute, that this 
particular organization meets all of the criteria.
    I yield back, Mr. Chairman.
    Mr. Smith. Thank you, Mr. Delahunt. Mr. Ballenger.
    Mr. Ballenger. I have no opening statement.
    Mr. Smith. Thank you. I would like to now present to the 
Subcommittee Harold Koh, who serves as Assistant Secretary of 
State for Democracy, Human Rights and Labor.
    Before his appointment, Mr. Koh served both as Professor of 
International Law and the Director of the Center for 
International Human Rights at Yale Law School. Assistant 
Secretary Koh, who earned both his BA and law degrees from 
Harvard University, has authored numerous articles on 
international law and human rights, and he is most welcome 
before the Committee.
    Please proceed as you wish.

    STATEMENT OF THE HONORABLE HAROLD HONGJU KOH, ASSISTANT 
 SECRETARY, BUREAU OF DEMOCRACY, HUMAN RIGHTS AND LABOR, U.S. 
                      DEPARTMENT OF STATE

    Mr. Koh. Thank you, Chairman Smith and Members of the 
Subcommittee, for holding this valuable hearing regarding the 
1999 country reports on human rights practices.
    I have a written statement, which I offer for the record, 
which I would like to summarize.
    Mr. Smith. Without objection, your full statement will be 
made a part of the record.
    Mr. Koh. Thank you. Mr. Chair, over the course of my 15 
month tenure as Assistant Secretary for Democracy, Human Rights 
and Labor, I have traveled to some 35 countries, some of them 
several times. I have testified before you regarding numerous 
human rights issues and I have developed a great respect for 
this Committee's bipartisan support for human rights.
    I hope that in the months ahead, we can continue to work 
together to promote freedom and human rights, wherever they are 
at risk.
    Simply put, the goal of these annual reports remains 
unchanged to tell the truth about human rights conditions 
around the world. We believe that these reports create a 
comprehensive, permanent and accurate record of human rights 
conditions worldwide in calendar year 1999. I recognize that 
these reports have been read very carefully, but we continue to 
believe that they are the most comprehensive, permanent, and 
accurate record of human rights conditions around the world, 
obtainable from any single source.
    These reports represent a massive official monitoring 
effort that involves hundreds of individuals, including human 
rights officers from each of our embassies, country desk 
officers from our regional and functional bureaus, officials 
from other U.S. Government agencies, and a wide range of 
foreign sources, including foreign government officials, 
opposition figures, journalists, nongovernmental organizations, 
dissidents, religious groups, and labor leaders.
    Let me pay special tribute to Secretary Albright, under 
whose leadership the coverage of the reports has greatly 
expanded, to include broader coverage of such key issues as 
religious freedom, trafficking in persons, women's rights, 
worker rights, violence against gays and lesbians, and the 
rights of the disabled.
    You have said that human rights are not in the mainstream 
of our foreign policy. I would question that and point directly 
to the personal commitments of Secretary Albright, who I think 
stands in everything she does and in every statement she makes 
with the centrality of democracy, human rights and labor as her 
core commitments. Let me also give very special thanks to the 
dedicated and splendid country reports team in my own bureau, a 
number of whom are here in the audience to back me up, and 
especially to thank the talented and committed director of that 
bureau, Mark Susser, and his deputy director, Jeanette DuBrow, 
for bringing this year's report to fruition with such care and 
integrity.
    Mr. Chair, you and the other Members of the Committee have 
highlighted some of the grim news in the report, but the news 
is not all grim. Because 1999 saw no defining human rights 
moment, like the fall of the Berlin Wall, few analysts noticed 
that 1999 saw as profound positive trend toward freedom as in 
1989.
    Thanks to democratic elections in two of the world's most 
populous states, Indonesia and Nigeria, more people came under 
democratic rule in 1999 than in any other recent year.
    In addition, the NATO intervention in Kosovo and 
international intervention in East Timor demonstrated that the 
international community has the will and the capacity to act 
against the most profound violations of human rights.
    Yet, these significant gains in democracy and human rights 
cannot overshadow a number of profound challenges to human 
rights that arose last year. Serbia's expulsion of 850,000-plus 
Albanians, the Indonesian military's complicity in the military 
rampage through East Timor, and the horrors perpetuated by 
rebels in Sierra Leone all show the world still has a long way 
to go before it fully adheres to the precepts of the Universal 
Declaration of Human Rights.
    Too many authoritarian governments continue to deny basic 
human rights to their citizens, including the all important 
right to democracy. Throughout these reports, we continue to 
resist requests to rank order countries, but because time is 
short, let me touch on a handful of the country reports in 
which Committee Members have expressed special interest.
    In China, authorities broadened and intensified their 
efforts to suppress those perceived to threaten governmental 
power or national stability. Citizens who sought to express 
openly dissenting political and religious views faced 
widespread repression. In the weeks leading up to both the 
tenth anniversary of Tienanman Square massacre and the 50th 
anniversary of the founding of the People's Republic, the 
government moved against political dissidents across the 
country, detaining and formally arresting scores of activists 
nationwide. Beginning in May, dozens of members of the China 
democratic party were arrested in a crack down and both leaders 
and followers of the Falun Gong movement faced harassment, 
beatings, arrest, detention and sentences to prison terms for 
protesting the government's decision to outlaw their practice.
    China continued to restrict freedom of religion and 
intensified controls on some unregistered churches, and for 
that reason, Mr. Chairman, last October, Secretary Albright 
designated China as one of five countries of particular concern 
under the new International Religious Freedom Act.
    Unapproved religious groups, including Protestant and 
Catholic groups, continue to experience varying degrees of 
official interference, repression and persecution. Some 
minority groups, particularly Tibetan Buddhists and Muslim 
Uighurs, were subjected to increased restriction of fundamental 
freedoms. Other segments of Chinese society also faced abuse. 
Coercive family planning practices sometimes included forced 
abortion and forced sterilization.
    Many women contended with domestic violence. The government 
continued to restrict tightly worker rights, and forced labor, 
particularly in penal institutions, remained a serious problem.
    Our report also sites instances of extra judicial killings, 
torture, forced confessions, arbitrary detention, lengthy 
incommunicado detention, and denial of due process.
    In many cases, particularly in political cases, the 
judicial system denied criminal defendants basic legal 
safeguards and due process.
    For these and other reasons, the Administration announced 
in January, earlier than ever before, it's intention later this 
month to pursue a resolution against China before the U.N. 
Human Rights Commission in Geneva.
    Similarly, Cuba's human rights record also deteriorated 
sharply over the past year. The Castro regime continued to 
suppress opposition and criticism and denied citizens freedom 
of speech, press, assembly and association. Cuban authorities 
routinely harassed, threatened, arbitrarily arrested and 
imprisoned human rights advocates.
    The government denied political dissidents due process and 
subjected them to unfair trials. Many remained imprisoned and 
after our report was released last week, one prominent 
dissident, Oscar Bissette, was sentenced to an unjust sentence 
of 3 years.
    Independent journalists faced internal travel bans, brief 
detentions, acts of repudiation, harassment, seizures of office 
equipment and repeated threats of prolonged imprisonment. As 
you know, Mr. Chair, in Russia, the seizure by armed insurgent 
groups from Chechnya of villages in the neighboring Republic of 
Dagestan escalated by years and into a full-fledged attack by 
Russian forces on Chechen separatists, including the Chechen 
Capitol of Groznyy. The Russian attack included air strikes and 
the indiscriminate shelling of cities predominantly inhabited 
by civilians.
    These attacks, which, in turn, led to house to house 
fighting, led to the death of numerous civilians and the 
displacement of hundreds of thousands more. There are credible 
reports of Russian military forces carrying out summary 
executions of civilians in Alkhan-Yurt, and in the course of 
the Groznyy offensive. Credible reports persist that Russian 
forces are rounding up Chechen men of military age and sending 
them to so-called filtration camps, where they are allegedly 
tortured.
    Chechen separatists also reportedly committed abuses, 
including the killing of civilians. We acknowledge that the 
Russian government has a duty to protect its citizens from 
terrorist attacks, but at the same time, the Russian Federation 
must comply with its international commitments and obligations 
to protect civilians and must not engage in extra judicial 
killing, the blocking of borders to prevent civilians from 
fleeing, and other violations in the name of internal security.
    As Congresswoman McKinney also pointed out, defenders and 
dissidents in Africa also faced severe challenges. In Sudan, 
the government continues to restrict most civil liberties, 
including freedom of assembly, association, religion and 
movement.
    Government security forces regularly tortured, murdered, 
disappeared, harassed, arbitrarily arrested and detained 
deponents or suspected government opponents.
    In the Democratic Republic of Congo, government forces lost 
control of more than half of the country's territory to rebels 
supported by troops from Rwanda and Uganda.
    Government security forces increasingly used arbitrary 
arrest and detention throughout the year and were responsible 
for numerous extra judicial killings, disappearances, torture, 
beatings, rapes and other abuses.
    Anti-government forces also committed serious abuses, 
including murder, robbery, harassment of human rights workers 
and journalists, and the recruitment of child soldiers.
    Mr. Chair, let me also discuss the human rights record of 
two allies that have received significant media attention these 
last few weeks. In Colombia, despite the Pastrana 
administration's efforts to negotiate and end hostilities, 
widespread internal armed conflict and the rampant political 
and criminal violence persisted. Government security forces, 
paramilitary groups, guerrillas and narcotics traffickers all 
continued to commit numerous serious abuses, including extra 
judicial killings and torture.
    Although overall human rights conditions remain poor, the 
government took important steps toward ending collaboration by 
some security force members with the paramilitaries. President 
Andre Pastrana and Vice President Gustavo Bell, who I met with 
twice in the last 2 months and again yesterday, have assured me 
that they will not tolerate active or passive collaboration by 
members of the security force or paramilitary groups.
    Last year, the President removed from service four generals 
and numerous mid level officers and noncommissioned officers 
for collaboration, for failing to confront paramilitaries 
aggressively, or for failing to protect the local population.
    In Turkey, which has an active and growing civil society 
movement, the government still continued to limit freedom of 
assembly and association and the police harassed, beat, abused 
and detained large numbers of demonstrators.
    In general, the government continued to intimidate, indict, 
and imprison individuals for ideas they had expressed in public 
forums. The Ecevit government did adopt a series of initiatives 
during the year designed to improve human rights conditions, 
including removing military judges from state security courts, 
increasing maximum sentences for torture or for falsifying 
medical records to hide torture, and passing legislation making 
it more difficult to close political parties.
    But only 2 weeks ago, a new cause for concern arose when 
three Kurdish mayors were arrested, charged and briefly removed 
from office, although they have recently been reinstated 
pending trial.
    These are only a few of the country situations of concern 
to the human rights community. I would be happy to answer any 
specific questions you might have about these and other country 
situations.
    But, Mr. Chairman, I cannot conclude without noting two 
points. First, today, March 8, is International Women's Day. 
While we honor the past and recognize the progress that's been 
made, we must also look toward the future and acknowledge how 
much needs to be done.
    In Afghanistan, for example, women continue to face the 
most serious women's human rights crisis in the world. 
Elsewhere, women daily face violence, abuse, rape and other 
forms of degradation. Female genital mutilation continues to be 
practiced in much of sub-Saharan Africa and to varying degrees 
in some countries in the Middle East.
    In Kuwait and elsewhere, women continue to be denied the 
right to vote and to seek election to the legislative bodies.
    Today, let me also reaffirm, Mr. Chairman, the 
Administration's unequivocal support for ratification of CEDAW, 
the Convention for the Elimination of All Forms of 
Discrimination Against Women. Ratification of CEDAW is central 
to maintaining our position as a leading advocate for human 
rights. It would strengthen our global efforts to advance the 
status of women and we have proposed a number of reservations 
and declarations to ensure that the ratification complies with 
all U.S. Constitutional requirements.
    One hundred sixty-five countries have now ratified or 
acceded to the convention and the United States is the only 
country in this hemisphere, the world's only democracy and the 
only NATO nation that has not ratified the convention.
    Mr. Chair, it is now 5 years sine the Beijing Women's 
Conference. For the Senate to hold hearings on ratification and 
move swiftly to advise and consent to the ratification of CEDAW 
would be no more than simple justice.
    Second, International Women's Day reminds us of the deeply 
related problem of trafficking and persons. Trafficking, as 
Secretary Albright recently said, is a growing, ``global 
problem that each year robs millions of their rights, their 
loved ones, and often their very lives.''
    It affects people from all walks of life, of every age, 
religion and culture, and nearly every country in the world is 
either a source, transit or destination country. As I have 
testified before this Committee, trafficking represents the 
anthesisis of universal declaration of human rights, where, by 
treating its victims as objects, it denies their very humanity.
    To highlight the U.S. Government's intensified focus on 
this problem, this year, for the first, the State Department 
established a separate section in each of the 194 country 
reports to highlight this pressing issue and to bring about 
efforts for reform.
    Mr. Chairman, let me close by saying that as the 
introduction to our report explains, the global right for human 
rights is a team effort in which the U.S. Government is only 
one player. The struggle requires creative partnerships that 
cross partisan religious, ethnic and public/private lines. I 
know that you and other Members of the Subcommittee share this 
Administration's deep commitment to promoting democracy, human 
rights, labor, and religious freedom worldwide.
    In the months that remain in my tenure, I pledge again to 
give my all to work with you and your Committee to continue 
strengthening these vitally important human rights 
partnerships.
    Thank you. I now am ready to answer any questions you might 
have. Mr. Smith. Thank you very much, Mr. Secretary, for your 
fine testimony and for the good work that you do and your 
staff. There's a great deal of respect for that on this 
Subcommittee on both sides of the aisle.
    I would like to raise a couple of questions on very 
specific countries, beginning with the People's Republic of 
China. In reading this voluminous report, which continually 
uses the word ``intensifies'' and words like that to indicate 
that the bad is actually getting worse in China, and it leads 
some of us who are concerned about the upcoming battle to make 
MFN permanent, which would take away all economic leverage that 
we might have, that the trend line is seriously going in the 
wrong direction, whether it be the issue of religious 
persecution, which is on the rise, as you pointed out. Falun 
Gong have been rounded up, they've been beaten, their noses 
have been broken, their legs have been kicked out, and they've 
actually killed a few of their practitioners. We know that 
there has been a roundup of Catholic believers, including 
Bishops and Priests and the Evangelical Church continues under 
siege. Tibetans, Buddhists, the iron fist continues to hurt 
them in a very, very serious way. Of course, the Uighurs, we 
had a hearing on this just a few days ago, spoke of the rising 
tide of repression against the Muslim Uighurs.
    In looking at the report, there was one thing that--a 
reference that I had not seen before, perhaps it was in 
another, talking about the high female suicide rate and points 
out that it's a serious problem.
    According to the World Bank, Harvard University and the 
World Health Organization, some 56 percent of the world's 
female suicides occur in China, about 500 per day, 500 Chinese 
women die from suicide a day, according to the country reports 
on human rights practices.
    That's outrageous, that's astonishing. The World Bank 
estimated the suicide rate in the country to be three times the 
global average among women and it's estimated to be nearly five 
times the global average overall.
    Research indicates that the low status of women, the rapid 
shift to a market economy, and the availability of highly toxic 
pesticides in rural areas are among the leading causes.
    Frankly, Mr. Secretary, what's missing from this, which I 
find to be a crass omission, is what many of us believe to be 
the real reason--or at least a major contributing reason--and 
that is the one child per couple policy in the People's 
Republic of China.
    I'd like to read you something that was in the New York 
Times on April 25, 1993. It was by Nicholas Kristoff. He 
states, ``She should be taking her 2-month-old baby out around 
the village now proudly nursing him and teaching him about 
life. Instead, her baby is buried under a mound of dirt and Li 
spends her time lying in bed, emotionally crushed and 
physically crippled. The baby died because under China's 
complex quota system for births, local family planning 
officials wanted Ms. Li to give birth in 1992 rather than in 
1993, so then on December 30, when she was 7 months pregnant, 
they took her to an unsanitary first aid station and ordered 
the doctor to do the abortion.''
    There at least ten million abortions per year, some say the 
number is even higher, 90 percent of which are coerced in some 
way, not unlike that woman who has been hurt by the government.
    The article goes on to say, ``Ms. Li's family pleaded, the 
doctor protested, but the family planning workers insisted. The 
result, the baby died, and the 23-year-old Ms. Li is 
incapacitated,'' and it talks about how emotionally she is 
totally distraught.
    I've had hearings at my Subcommittee, Mr. Secretary, where 
we have heard from women who were forcibly aborted, some of 
whom had the great fortune of making their way to the U.S., 
only to be incarcerated in Bakersfield because they came in on 
the Golden Venture or came in in some other way. They finally 
did get out, thankfully, but they told of the emotional trauma, 
the absolutely debilitating emotional trauma, and yet in the 
country reports, it notes ``highly toxic pesticides.'' And you 
would think that if it affects women, it would also affect men, 
and you would see a great increase in men killing themselves 
from pesticides.
    ``A rapid shift to a market economy.'' We're being told, 
especially with the upcoming Most Favored Nation status debate, 
that this is the greatest thing since sliced bread, that 
somehow China is going to matriculate into a market-oriented 
economy and that everybody will benefit, and yet that's being 
cited as a reason for the suicide rate.
    Then ``the low status of women.'' In China, as we all know, 
women have had an incredibly low status for a millennium, for 
several millennia. This is nothing new. Bound feet and all of 
the other terrible things that have been done against women 
over the years.
    Now we have something new. Ever since 1979, with the full 
complicity of the population and family planning community, 
including the United Nations Population Fund, you're only 
allowed one child, and women are fined, they have children on 
the run, there is a gross disparity between the births of boys 
versus girls, as we know, and that's pointed out in this 
document as well, and yet we see this alarming rise of female 
suicides.
    Obviously, there is a great emotional pain being felt by 
the women of China. Why was that left out? I would respectfully 
submit that there needs to be more research done on the real 
reasons, since one witness after another that we've had--and, 
again, let me just go back to that Nicholas Kristoff article. I 
raised that in 1994 with the head of the family planning 
program in Beijing and that family planning group with whom I 
met to run the program said Kristoff had made it all up, the 
New York Times was simply lying. Yet the evidence that we have 
gotten from one person after another--we had a woman who used 
to run a family planning program in Fujian Province, you might 
recall, Bill and Tom, last year, who testified she ran the 
program in Fujian, in one of their areas, for a dozen years. 
She self-described herself as a mother by night, a monster by 
the day, and talked about the emotional pain and suffering, not 
to mention this theft of children and the killing of children 
by way of forced abortion, but she talked about the emotional 
pain.
    I suggest that what's missing here is the fact that women 
are crying out, so much so that they're taking their lives, and 
this is glossed over in the report, it's glossed over by the 
population control community, who want to ascribe it to 
pesticides or some other situation like that.
    If you could respond to that, I'd appreciate it.
    Mr. Koh. Mr. Chairman, I think you've accurately painted 
the overall picture. As we said, the human rights situation 
deteriorated markedly throughout the year, and we highlighted 
in the report many of the points that you made, the increasing 
crack down on political dissent, the China democratic party, 
some 35,000 incidents against the Falun Gong, restrictions on 
religious freedom, not just with regard to Tibetan Buddhists, 
Muslim Uighurs, also Christians and, as you pointed out, the 
well publicized case involving the investiture of Catholic 
Bishops.
    We also pointed to forced and prison labor situations, 
arbitrary detention and internet restrictions.
    The issue of the status of women and the devaluation of 
women in Chinese society is something that we've reported on 
consistently over the years and the very issue that you 
mentioned, which is the coercive family policy, is one on which 
we have reported with great detail and indeed in which we've 
engaged the Chinese directly in our human rights dialogue
    Let me just read to you from pages 33 through 37 of the 
report, which address it. We say the government continued to 
implement comprehensive and often intrusive family planning 
policies--jumping ahead to page 34--these population control 
policies rely on education propaganda, economic incentives, as 
well as on more coercive measures, including psychological 
pressure and economic penalties.
    On the next page, we describe the policies in a number of 
the different provinces and then say intense pressure to meet 
family planning targets set by the government has resulted in 
documented instances in which family planning officials have 
used coercion, including forced abortion and sterilization, to 
meet government goals, and we go on and discuss this matter at 
considerable length in the remainder of the report.
    As you know, Congressman, when Gao Shoa Dwan, who has been 
testifying before this Committee about these practices and how 
they function, we have ourselves, in our bureau, taken a 
special interest in trying to reunite Gao with family members 
and to bring about a reunification of this issue.
    So this has not been something on which we believe there to 
be an omission in the report.
    The specific point that you raise, which is with regard to 
suicide rates, let me point out that we tried to put this in 
the context of a range of different factors which have created 
pressure and problems for women in Chinese society.
    I should also point out that the suicide rate among men has 
been very high this year, disturbingly high, but that in 
particular, challenges from economic restructuring have 
contributed to this problem and have created a situation in 
which the low status of women has been translated into them 
being particular victims of societal dislocation as the society 
starts to change.
    So my point would be that I have read the Kristoff article, 
that we understand the concerns that you raise. These are ones 
that we report on in considerable detail in our report.
    We believe that your overall statement of the human rights 
record rings true and indeed the statements you made both at 
the recent testimony on Tibet and your other recent hearing in 
the past few weeks on the relationship between human rights 
issues and other issues are ones which we think accurately 
reflect our report.
    But we would disagree that we have made some omission here. 
I think we have tried to put the grievous status of women 5 
years after the Beijing women's conference into the context of 
a range of factors that have caused this, and those are 
outlined in considerable detail in the report.
    Mr. Smith. Let me ask you, again, Mr. Secretary, 500 women 
per day commit suicide in China, an absolutely staggering 
number, if these figures are accurate. Even if it's half of 
that, even if it's a third of that, it's a staggering number of 
lost lives due to incredibly emotional stress that has to be 
coming from somewhere.
    Forced abortion is absolutely pervasive in China--I've been 
fighting this for 20 years. I've been in Congress for 20 years, 
found about it in the first couple of years of my tenure in 
office, and I have been sickened by the international 
community's pooh-poohing of the issue, glossing it over, saying 
that that was yesterday, not today.
    There's always light at the end of the tunnel, even though 
the internal documents that we keep copies of, and the evidence 
that we see in the field shows that women are being dealt with 
so cruelly.
    A woman wants to protect her own baby. We also have heard 
from men who testified about the agony of seeing their sons or 
daughters killed by the family planning cadres and they 
couldn't do anything to stop it. When you can't protect your 
own family members that might lead one to commit suicide or to 
take some other drastic action.
    I think it is a serious omission when the only things that 
are mentioned are toxic pesticides, low status, and a shift to 
a market economy. That's missing the mark by a mile, it would 
seem to me.
    I've had close to 15 hearings, maybe even more, on the 
issue, focused exclusively or in part on the forced abortion 
issue. I think it's an outrage to women that they are so 
mistreated. That's why I argued against the Beijing venue for 
the Beijing women's conference. It could have been held 
somewhere else. Because I saw what happened there. They were 
touted in their own press as being somehow enlightened with 
regard to women. That is like having a civil rights conclave in 
South Africa during the height of Apartheid, and somehow 
suggesting that they were the beacon of hope for racial 
harmony.
    The same thing goes for China with regard to women and 
forced abortion and forced sterilization, breaking up families 
the way they do. To not look into this as a factor contributing 
to the suicide rate is a serious oversight. We've had so many 
people recount the terrible, deleterious, emotional 
consequences of this forced abortion policy and its impact on 
women. Its nowhere to be found.
    I would hope and I ask you, plead with you, to go back and 
check this. If the people that do the investigating are part of 
the population control community, forget it, you'll get a 
tainted report. They have been whitewashing the crimes against 
China for so long, I've lost count. I go back and I look at the 
hearings and--the floor statements--I do have a long memory 
when it come to this and whether it be Dr. Sadik of the UNFPA 
who said the Chinese Program is totally voluntary, or someone 
else. Wei Jingsheng, when he testified before us immediately 
after his release, said he was outraged when he saw the U.N. 
workers were working side by side with the family planning 
cadres in going after their families and forcibly aborting 
these women.
    Children are precious. Abortion is violence against 
children and it's also violence against women and when it's 
forced abortion, the emotional consequences are devastating.
    Please, this has to be fixed. Fixed with the facts, I would 
respectfully submit, because this doesn't tell the story of why 
those suicides occur. These women are the walking wounded and 
we need to at least accurately tell the world why they're 
wounded and there's ample evidence out there and we can put you 
contact with sources--and I'm sure you have your own.
    There is also something in the report dealing with----
    Mr. Koh. If I can respond.
    Mr. Smith. Yes.
    Mr. Koh. Mr. Chairman, we admire your passion and 
commitment on this issue, which I think has done an important 
job in highlighting this issue and it's one on which we have 
devoted a lot of energy in our own bureau and in the department 
to investigating.
    I think the facts, as you say, are depressing. This is a 
very, very large country in which there is a very, very high 
suicide rate on the part of both men and women and we've tried 
to identify a number of the facts throughout the report. As we 
said, all of the population of China is living under a markedly 
deteriorating human rights condition.
    But I do think that when the question comes as to why 500 
women commit suicide in an average day in the largest country 
in the world, as a lawyer and as someone who has to be very 
careful with the facts, I have to take care to make sure that I 
fully understand the causes before I assign causation to it.
    China is a closed society. We do not have as much 
information as we would like and I----
    Mr. Smith. With all due respect, you have assigned causes 
here such as the low status of women in China. There has been a 
low status for women, like I said, for thousands of years, as 
women in other nations around the world have suffered from low 
status, which did not lead to mega suicides like we're seeing 
in China today.
    There is a reason to be found if an honest investigation is 
instigated, I believe, based on tons of anecdotal evidence that 
we have, including from victims. We had a woman testify who was 
being held, regrettably, by the administration in Bakersfield, 
we had to subpoena her to come and speak. She was a passenger 
on the Golden Venture, who said she found a baby girl who had 
been abandoned and that she was told by the family planning 
cadres that her time was up, that now she would be forcibly 
aborted and sterilized, because she had her one child.
    She broke down crying. She couldn't even finish her 
testimony, she was in such agony. Yet this goes unreported. You 
have ascribed reasons and I believe that they have missed the 
mark by a mile.
    We had a hearing just a few days on China, again, one in a 
long series. One of our witnesses took issue with the 
assertion. In direct answer to a question right out of the 
country reports that I quoted, that ethnic minorities, such as 
the Muslim Uighurs and the Tibetans, are subject to less 
stringent population controls. Those who testified, both on 
behalf of the Tibetans and the Muslim Uighurs, said that was 
absolutely false. What is the evidence to back that up?
    Mr. Koh. That's based on the best evidence we have. If it's 
something which is subject to challenge by your witnesses, we'd 
welcome more information.
    I would point out that the factors that you noted are ones 
that we said were among the leading causes and we obviously 
have to be careful, in my case, lawyerly, about what we assign 
as causes.
    I take your point, Congressman. We will endeavor to 
investigate the issue further and if we think that we can make 
an objective statement about both of these issues, the issue 
with regard to the Uighurs and the one that you have raised, 
then we will do so and correct it for the future report.
    Mr. Smith. Before I move on to another question, let 
meask--as a lawyer, do you find it obvious or somehow proven 
that, ``pesticides, toxic pesticides'' are more likely to cause 
suicide than forced abortion?
    Mr. Koh. The statement says research indicates that the low 
status of women, the rapid shift to a market economy and the 
availability of highly toxic pesticides are among the leading 
causes. I think that can mean that there are other causes as 
well, but that's what we have encountered as the leading 
examples and that's what we relied upon.
    Mr. Smith. But, again, who are the researchers? This is why 
we need an absolutely unbiased group of researchers to 
interview these women, and there are several in our own 
country. We've had many at our hearings, although that's 
anecdotal, but it's certainly very suggestive.
    Over the years, I've been in contact with many women who 
have had forced abortions. They break down and say that it's an 
agony that is almost unbearable when the state says the baby 
you're carrying must be destroyed because it doesn't fit into 
the quota system.
    The weakness, the sense of vulnerability that they couldn't 
even protect their own child and the state has stolen and 
killed their child is a major contributing cause to this, I 
believe, based on 20 years of dealing with the issue.
    Mr. Koh. I understand your point and with the help of the 
Committee and with the sources that you have, we'll try to move 
toward as full accuracy as we can obtain in these reports.
    Mr. Smith. My Chief Counsel makes a good point. We'd like 
to see the studies that led to that and see what was omitted 
and part of coming to that conclusion.
    I have, and you have it, as well, I'm sure, volumes of 
evidence to show the forced abortion policy is central policy. 
They say one thing to the public, for the crowd, so to speak, 
and for the international community, but the internal documents 
clearly say you have your one child, sometimes two, and that's 
it.
    Let me ask you another question, and then I'll yield to my 
colleagues and go to a second round. On Chechnya, in Russia, 
we've had some hearings in the Helsinki Commission, which I 
Chair. You are a distinguished commissioner on that, as well.
    Obviously, to many of us, it seems like dejavu all over 
again, as Yogi Berra said. Here it goes again. The United 
States has at least spoken out this time. We didn't do it last 
time with any real conviction. As a matter of fact, Al Gore, at 
a crucial time--and we actually convened a hearing on this--
said that it was an internal affair during that first Chechen 
war. Many people, including Elena Bonner, wife of Sakharov, 
Nobel Peace Prize winner, said at one of our Helsinki 
Commission hearings that that gave the green light to the 
Russians to commit the terrible crimes which led to about 
80,000 people dead in Chechnya.
    There are many people in Russia, and this came out in our 
most recent hearings, who see a moral equivalence to what we 
did in Kosovo or in Serbia and actually don't feel they need to 
listen to the U.S., that our moral standing or stature has been 
at least tainted by the fact that when we bomb, it's OK, when 
they bomb, it's not.
    But right now, as you know, the atrocities the number of 
people killed, the number of displaced people are sickening.
    My question, bottom line, is do you think there needs to be 
a war crimes tribunal investigation to hold the Russians and 
the Chechens, anyone who has committed atrocities in that war, 
accountable?
    Mr. Koh. We think that there needs to be a full transparent 
and objective investigation leading to the punishment to those 
individuals who are responsible. Secretary Albright, today, in 
the Washington Post, on page A-31, says ``we have called for a 
full and transparent investigation with international observers 
and punishment for those responsible'' and has recounted her 
own discussions about this issue with acting President Putan 
and an issue that she raised directly with Foreign Minister 
Igor Ivinov in Lisbon last Friday. It has been the subject of 
intense discussion within our own bureau and, again, with the 
goal of trying to get to the bottom of these reports, 
particularly the reports of summary executions, indiscriminate 
shelling of civilians, massacres that have been recounted in 
Alkhan-Yurt.
    Last week, as you know, there was a videotape, whose 
authenticity is still under discussion, which purported to show 
mass grave sites and then, of course, the conditions in the 
filtration camps.
    The point, I think, is will the Russians themselves open up 
the situation and permit a full, transparent and fair 
investigation to go on. Acting President Putan has pointed 
Vladimir Kolomonov as his human rights ombudsman. He has 
invited Council of Europe observers, including the new Council 
of Europe Human Rights Commissioner Mr. Alvaro Hill Robles.
    I met with Mr. Hill Robles last Friday and we discussed 
this issue. They have now invited Mary Robinson, the U.N. High 
Commissioner for Human Rights, and also OSCE representatives to 
come to visit the region. Human Rights Watch Executive Director 
Ken Roth is on his way and I spoke to him last night.
    So my own view is that what is gradually happening is a 
shift in the Russian policy from a total exclusion of 
international observation and a statement that's only an 
internal affair, to a recognition that they do need to get to 
the bottom of the question.
    We have said repeatedly that we believe that this raises 
very fundamental questions of international humanitarian law 
and we believe that those investigations need to get to get to 
the bottom of those questions.
    Once those investigations get underway, only then will we 
have a sense of whether what has been unearthed is an example 
of a war crime or a crime against humanity. As you know, those 
are legal terms of art and we have to see where the evidence 
leads.
    Mr. Smith. I'd like to yield--thank you, Secretary Koh--to 
Cynthia McKinney.
    Ms. McKinney. Thank you, Mr. Chairman. Assistant Secretary 
Koh, you lucked out, because my voice is giving out on me. I 
will be very brief. I'm just concerned about balance in the 
reporting.
    For instance, I have perused the Democratic Republic of 
Congo report and unfortunately, the situation in Eastern Congo 
I don't believe is given enough attention, where most recently 
Robert Geraton has actually used the words ``crimes against 
humanity'' as having been committed there.
    I understand that the United States has allied with Uganda 
and Rwanda, but it seems to me that in these reports, at least, 
we ought to be calling a spade a spade.
    In the Uganda report, you mention concerns about regional 
security causing the country's intervention in DROC. Why did 
you use the word ``intervention'' and not ``invasion?''
    Mr. Koh. Let me say, Congresswoman McKinney, that we have 
struggled in all these reports to do exactly what you say, to 
call a human rights abuse a human rights abuse. I think we have 
made it clear in our own report on the Democratic Republic of 
Congo that rebel forces and their Rwandan backers have 
committed extra judicial killings, disappearances, torture, 
rape, and illegal detention, the point that I made in my 
opening statement.
    We've also pointed out that in rebel areas, observance of 
civil rights are often nonexistent. As I know you know from 
briefings that members of my office and bureau have given to 
your office, we have pressed on these with great detail, 
particularly in the case of the Moinga burials, the women who 
were buried alive, and also in relation to issues with regard 
to the Hema and Lindu fighting.
    The U.S. Government in this situation is committed, as you 
know, to trying to bring peace to what is really a genuinely 
volatile situation. In January, as you know, numerous Members 
of Congress were present when Ambassador Holbrooke held, in his 
Month of Africa, the Month of the U.S. Security Council 
leadership, an entire week that was devoted to discussion of 
issues in the DROC. President Kabila came and participated in 
those meetings and the question was how to move to enhance the 
Lusaka process to bring about real peace in this extremely 
troubled region.
    Now, I think we have made the point repeatedly that we will 
not tolerate human rights abuses by any side. We have publicly 
and privately denounced abuses. The situation on the ground is 
extremely difficult to determine because, as you know, many 
parts of the country are in open warfare. We've called for 
investigation of massacres, accountabilities for abuses in 
security and access for both humanitarian workers and for human 
rights monitors, where they occur. We work closely with human 
right NGO's, particularly Silomon Baldo of Human Rights Watch 
Africa, and Alison DesForges who will be appearing here later.
    I think our goal is not to make statements with regard to 
political actions, but simply to call human rights abuses human 
rights abuses, and that that is what we do in all of the 
reports, the DROC report, the Uganda report and the Rwanda 
report. I don't think we let anybody off the hook.
    Ms. McKinney. Have we called for an investigation of the 
plane crash in 1994 that set off the Rwandan genocide?
    Mr. Koh. I think that has been the subject of extensive 
examination and inquiry and still a lot of answers that have 
yet to be obtained.
    But I do think with regard to the DROC situation----
    Ms. McKinney. Has it been the subject of substantive 
inquiry in the United States?
    Mr. Koh. I'm the human rights officer and this is a little 
bit out of my rubric. It was both before the time I came and it 
regards a situation in which I have not personally been 
engaged, but I do want to say that with regard to the Great 
Lakes Region and the entire set of human rights issues, we have 
been extraordinarily energetic on the question.
    I know that in your opening statement, Congresswoman, you 
said that our statements with regard to Rwanda were--I forget 
how you put it--but I remember quite a strenuous criticism of 
what we have done.
    But I do think that in this region, we recognize how 
volatile that situation is and we have devoted extraordinary 
energies in my time in office to what we have called atrocities 
prevention. Indeed, that was the entire purpose of the Month of 
Africa and the focus that was given by Ambassador Holbrooke on 
this issue with regard to Angola, Burundi, Sudan, Sierra Leone, 
and the Democratic Republic of the Congo.
    There was an effort to bring together those key political 
players to try to head off these disputes and prevent them from 
erupting into another genocide.
    I think particularly the case of Burundi, in which Nelson 
Mandela made an extraordinary appearance before the Security 
Council, where, in the URUSHA process, President Mandela has 
brought his huge moral authority to bear, where President 
Clinton participated by video link in an effort to try to bring 
the parties to the table and head off another round of 
killings.
    This is an area in which we are really trying to put our 
resources to prevent atrocities from breaking out. I went to 
Africa with Secretary Albright in November and the entire 
discussion was on these two issues. First, how to build 
democracy in the region, in countries such as Nigeria, support 
democracy in Mali, to hold peace together in fragile countries 
such as Sierra Leone, at the same time, how to prevent there 
from being future outbreaks of violence of this nature.
    Sometimes it's hard to prove an atrocity that's been 
averted, but I will say that this Administration has really 
given Africa, I think, unprecedented attention in an effort to 
really try to make Rwanda and similar kinds of events not 
happen again.
    Ms. McKinney. There have been recent revelations from a 
Canadian newspaper, Steven Edwards, of the National Post, about 
the goings on of the U.N. Rwanda tribunal. One of the things 
that was mentioned was the fact that there is currently an 
investigation underway to investigate the leaders, the current 
leadership of the government of Rwanda for having committed 
human rights abuses in the past, that there also is an 
investigation of the plane crash as well. Now, in the area of 
atrocities prevention, we know that Vice President Kagame was 
trained in the United States and we also understand that 
current members of the Rwandan military are receiving training 
in the United States.
    Do we know the extent to which they have subscribed to 
atrocities prevention curricula and whether or not our students 
have been involved in human rights abuses in Democratic 
Republic of Congo or in Rwanda?
    Mr. Koh. Congresswoman, I am a professor and have been a 
professor for the last 15 years. Many of my students have gone 
on to do things that I don't approve of and, frankly, I don't 
take the blame for all of that. I think I teach them well, and 
then they go off and do what they're going to do with the 
training we give them.
    Ms. McKinney. But, now, the question was are we making an 
effort to understand just exactly what it is that our students 
and former students are doing in Rwanda or Uganda, and for that 
matter, the Democratic Republic of Congo?
    Mr. Koh. We not only make it a point to know. We consider 
it to be a critical part of our legal duties in this regard. I 
know Congressman Delahunt has already signaled to me some of 
his questions with regard to all of our security assistance. We 
work as hard as we can on the question to try to make sure that 
human rights training is done, that those people who train in 
the United States have rigorous human rights training and 
understand those issues.
    What they go off to do, that is sometimes beyond our 
control. I understand the concerns that you have about the 
Rwanda tribunal. It has not functioned perfectly and on 
numerous occasions, we have pointed out the difficulties both 
in setting up the operation and for it to move into an 
effective tribunal for investigations and prosecutions.
    We're happy to get back to you on the specifics of the 
questions that you asked, but I will say that on this issue, we 
acknowledge the concerns that you have about the tribunal 
itself. We simply point to the fact that there is no 
alternative to a well functioning Rwanda tribunal, and we have 
to move as hard as we can to try to beef it up.
    There's a new prosecutor there, Carla Del Ponte, who has 
committed herself to make new commitments on the issues. There 
are new judges on the tribunal, including a new Sri Lankan 
judge, Justice Osaka Gunarwahduna, who is a person of 
considerable reputation. Our hope is that the Rwanda tribunal 
can move forward and start to deliver real justice in important 
cases.
    Ms. McKinney. It's my understanding that there are some 
people who are very fearful for their personal security as they 
conduct these investigations of events surrounding the plane 
crash and what happened in 1996 in Democratic Republic of 
Congo.
    What are we doing to make--to assure the protection of 
those investigators as they go about the important business of 
letting us know, letting the world know just exactly what 
indeed did happen there?
    Also, I have a question about the Gersoni report and I 
would like to know if you've read the Gersoni report and if you 
have, would you please make sure that I could get a copy of it?
    Mr. Koh. In fact, I do think the Gersoni report was 
something that we provided to your office through our 
legislative----
    Ms. McKinney. I requested it, but we have not yet received 
it.
    Mr. Koh. I'm sorry. After the meeting that we had in your 
office with the members of my bureau, they were not able to get 
a copy of it because it has not yet been published. We will 
continue our effort to try to get that report and make it 
available to you.
    Ms. McKinney. And what is it that we're doing to protect 
those people who are conducting these investigations of very 
sensitive issues concerning the events in 1994 and 1996?
    Mr. Koh. I don't have the current information, so let me 
get back to you on that one.
    Ms. McKinney. I guess I'm done, Mr. Chairman.
    Mr. Smith. Thank you very much, Ms. McKinney. Mr. Delahunt.
    Mr. Delahunt. Yes. Mr. Secretary, my first question is, in 
terms of the assistance package that will be shortly considered 
by Congress relative to Colombia, could you describe your 
involvement? Not necessarily your personal involvement, but the 
engagement of your bureau in terms of the development of the 
package?
    Mr. Koh. Yes. It's consumed a very large part of my 
personal time and also the time of many members of my bureau. I 
think this is illustrated by the fact that yesterday, when we 
got together with Vice President Gustavo Bell, who is the point 
person for the Colombian human rights program. We probably had 
15 members of my bureau in the room, each of whom had worked on 
some aspect of this.
    Let me go back. As you know, Congressman, I went to 
Colombia last April and spoke at a conference in Medellin, in 
which we outlined the five human rights concerns that the 
Administration has; first, the need to bring about peace; 
second, the need to end impunity, which I know has been a great 
concern of yours; third, the need to reestablish the rule of 
law; next, to protect human rights defenders; and then, 
critically important, to end paramilitary/military ties. At 
that conference, which was in April 1998, I called for the 
arrest of Carlos Castanyo, which, given that he was in 
Medellin, I don't think made me very popular and made the ride 
to the airport a very enjoyable one.
    Since then, the government of Colombia has come forward 
with Plan Colombia and it is a Colombian plan, but it is one on 
which they sought input from both the U.S. Government and from 
other foreign donors.
    As you know from hearings that Under Secretary Pickering 
has given up here, it's a massive plan. It's some seven billion 
plus of which the Colombian contribution is four billion and 
the U.S. contribution, depending how it would be measured and 
which is before this body on the aid packages, between 1.3 and 
1.6 billion.
    Now, early on, identified was the need for both social and 
economic development to be part of this plan, which means 
nationwide; namely, building human rights institutions and the 
rule of law. The Fiscalea, the prosecutor's office, the 
Procuradorea, the creation of houses of justice, so-called 
cases judicias, and it was our bureau, particularly our office 
of democracy promotion, working together with the Agency for 
International Development, that developed what could be called 
the nationwide elements of the human rights, building of the 
human rights rule of law infrastructure and discussing this and 
relating it to the Plan Colombia Program.
    Mr. Delahunt. Now, let me interrupt, because there are 
aspects of the plan clearly that I think are very positive in 
nature, and your reference to them, the funding for alternative 
crop substitution, or I think a better way to describe it is 
economic development in rural areas, infrastructure needs, the 
funding for judicial reform, support for the attorney general's 
office, as well as the chief prosecutor.
    These are all very favorable. From my perspective and my 
opinion, they are very attractive.
    Mr. Koh. Right.
    Mr. Delahunt. And I think it's important to understand, 
too, that they, in many cases, are new to Colombia, because 
historically Colombian governments have not invested in the 
more rural areas. Only recently has the concept of alternative 
crop substitution been embraced by the government and that's 
under the leadership of President Pastrana. It has not existed. 
So we find these very attractive.
    But you are clearly aware of many of the concerns that have 
been articulated by the human rights community regarding the 
military, the security assistance package, and that's what I 
want you to address.
    I'm sure you're as familiar with those reports as I am.
    Mr. Koh. I may even be more familiar with them than you 
are, Congressman.
    Mr. Delahunt. I'm sure you are.
    Mr. Koh. Let me say this. The separate issue that you raise 
is the extent to which support for an increased counter-
narcotics effort in the south part of Colombia, particularly 
the Putumayo and the Kakaita regions, will itself create or 
enhance human rights problems because of concerns that we have 
about the human rights record of the Colombian government, and 
that has been a primary concern for me, because, Congressman, 
I'm not going to be in this job for the rest of my life and for 
me, I am not going to participate in anything which I think 
makes the human rights situation in the country worse.
    Now, I think----
    Mr. Delahunt. But don't we have--let me interrupt you 
again, Mr. Secretary, because I would suggest that if we 
strengthen, if you will, the conditions or we amend--if we 
subject the military, the security assistant to certain 
conditions, in fact, there is the potential to improve the 
record of the Colombian military.
    I have a variety of amendments that myself and other 
colleagues will be proposing, but I think there is an 
opportunity here to do something in terms of the military as an 
institution within the society, to strengthen it in terms of 
its record on human rights, which, until recently, has been 
poor, and that very well might be an overstatmenet.
    Some would describe it, I think appropriately, as abysmal. 
While I'm speaking here, I think it's important to know that 
really it has been the government of President Pastrana, as 
well as the leadership of General Tapias and General Mora and 
other certain selected members of the military that have made 
an effort, and I think it would be remiss of us not to know 
that they--that some progress has been made.
    But I think and I believe that we have an opportunity here, 
in fact, to move that agenda, the agenda of the respect for 
human rights by the military further if we strengthen, by a 
series of conditions, the proposal when it comes to security 
assistance.
    Mr. Koh. The first part of your statement, which is that we 
ought to work with the Pastrana government to try to promote 
their structural efforts to improve what we acknowledge is a 
poor human rights record, I couldn't agree with more.
    The question is whether the imposition of human rights 
conditions on aid is the best way to achieve that, and then 
there I think we may have differences.
    Let me go back, because, Congressman, I went with Secretary 
Albright to Carahania in January. I went with Under Secretary 
Pickering to Bogatah in February, just a few days before you 
got there. I met with the Plan Colombia team and the human 
rights elements of it, both when they came up here in mid 
February and I met again with Vice President Bell yesterday to 
go over a range of issues.
    I think the key is the extent to which the civilian 
leadership in Colombia, which has a demonstrated commitment to 
trying to address what they recognize is a problem, which is 
the persistent ties between the paramilitary and the military, 
and how they can move forward with a credible, practical 
program for severing those ties.
    Now, on February 25, Vice President Bell announced the 
creation of an interagency coordinating commission that would 
try to receive inputs about pending paramilitary activities and 
to try to head them off. Defense Minister Ramirez announced 
that there would be an effort to give to General Tapias, who I 
think we all agree is a man of great credibility in this 
effort, authority to clean house that would be parallel to that 
given to General Serrano, the head of the national police.
    Mr. Delahunt. May I interrupt? Because that happens to be 
exactly one of the amendments that I intend to offer in terms 
of this particular package is that the authority that was 
conferred upon General Serrano, which I suggest and submit has 
had a very positive impact as far as the Colombian national 
police, also be conferred on General Tapias.
    Mr. Koh. Congressman----
    Mr. Delahunt. And I think that's an important condition 
prior to the delivery of any security assistance, Mr. 
Secretary.
    Mr. Koh. The question is, does that need to be an external 
condition, when I believe that that is an internal condition 
that will be imposed by Colombian law. The Colombian government 
has passed a military justice reform act and is moving to the 
passage of implementing legislation and decree authority has 
already been given, and I think the critical----
    Mr. Delahunt. Again, I think you and I are on the same 
page, Mr. Secretary, but that hasn't been passed by the 
Congress. It's still pending and it has been pending for some 
time.
    Mr. Koh. I agree.
    Mr. Delahunt. And I, for one, am not ready to support a 
military assistance until that occurs, until that is done.
    Mr. Koh. You are----
    Mr. Delahunt. You call it an external condition. These are 
American taxpayers' dollars and we need reassurance.
    Mr. Koh. I think the key condition is the one which is 
already there, which is the Leahy amendment, and which I think 
is designed to make sure that U.S. security assistance does not 
flow to forces that have not taken effective measures to 
prevent human rights abuse. I think that's been a salutary 
condition, it's been one that my office is devoted to 
monitoring and it's one that we continue to think is hugely 
important.
    My own view is that you don't have to sugar-coat the human 
rights record of the government, because our report does not do 
that. We call a human rights abuse a human rights abuse.
    But I think you can still conclude that the current 
conditionality regime, which is the Leahy amendment, coupled 
with the government's own stated commitments and efforts to 
modify and change domestic Colombian law, which include we are 
pressing them very strongly on the enactment of law enforced 
disappearances, implementing legislation to the code of 
military justice, we then create the internal conditions that 
make the imposition of these external conditions unnecessary.
    I think President Pastrana put it well when he said that 
the key condition is the condition within his own government, 
namely, his own no tolerance policy for human rights abuses, 
and my view is you can recognize that he has only gotten a 
certain amount of traction on these issues in his time in 
office and still say that our best hope of bringing real human 
rights change to Colombia is to support the Pastrana 
administration in bringing about a genuine human rights action 
plan to address these issues, and that's where I stand on the 
question.
    Mr. Delahunt. Again, I would just note for the record that 
in Colombia, we have an administration that merely has a little 
more than 2 years at this point in terms of its existence.
    What I'm concerned about, not so much as what the Pastrana 
government may do or not do, but after the Pastrana 
administration is concluded and legislation that cannot be 
changed by decree, I would suggest and submit to you, is 
absolutely essential.
    Mr. Koh. I happen to believe, Congressman, that most change 
of human rights has to come from within the country, driven by 
the domestic democratic process, and a commitment to this which 
is then embodied in the constitution and laws of that 
government.
    That's the way human rights change comes about here and 
that means both strengthening internal structures--namely, 
structures of internal military discipline--and external 
structures--namely, structures of prosecution and judicial 
independence and also rule of law questions, and I think that's 
where our resources need to go.
    My own view is that that will be the key. The point I think 
that you made very well, Congressman, is there is a problem 
with democracy in Colombia and it's not elections. They have 
elections regularly. It's that they simply do not have the kind 
of legal infrastructure and institutional infrastructure that 
we see in countries that have more well developed systems of 
checks and balances, judicial independence, the rule of law, 
and that's what they need to build.
    I think it's a very daunting challenge for the Pastrana 
government. I think they have a credible action plan as part of 
Plan Colombia to deal with it, both on a nationwide level and 
in regard to the particular concerns in the Putumayo and 
Kakaita and I think we ought to support them in that effort.
    I think that the conditionality of the Leahy amendment, 
coupled with the internal conditions that they are imposing on 
themselves through law, are, in our judgment, sufficient to 
meet the concerns that you and I share.
    Mr. Delahunt. I'm sure we'll be talking, and I'll yield 
back.
    Mr. Smith. Thank you very much. Mr. Tancredo.
    Mr. Tancredo. Thank you, Mr. Chairman. My concerns go back 
to, I think, some comments or reflect the kind of comments that 
have been made earlier in terms of not a concern about what is 
in the reports, the country report, but in this case, 
specifically Sudan, what is not there.
    I think that there is an absolutely egregious lack of 
information, an egregious fault here that has been 
characterized by a lack of attention to some of the most 
pressing, most incredible human rights violations that the 
world has ever seen. I know that that's a fairly dramatic 
statement and some might even call it bombastic, but the fact 
is that we are reaching proportions now with two million dead, 
over four million dispossessed people, and I think you can 
characterize the situation in Sudan in the kinds of terms that 
I have used.
    Certainly you could characterize the situation in Sudan in 
terms far more severe than were used in your country report.
    For instance, there is no mention of genocide. That term is 
often thrown around far too loosely, I believe, and in using it 
incorrectly, it tends to actually demean its real effect. In 
reality, this can be absolutely and accurately applied to what 
has been happening in Sudan, yet it does not appear in your 
report.
    Nothing in your report reflects the government, the 
Khartoum government attempt and successful attempts at blocking 
food aid. The fact is that this is perhaps one of the most 
significant parts of the problem there, causing more deaths 
than many other things in Sudan at the present time. Yet there 
is no mention of it, at least certainly not enough to actually 
bring it to the attention necessary, I think, for our Committee 
to reflect on it. There is no mention of the effect of the oil 
money that is now falling to Khartoum as a result of the 
pipeline that has been opened and the scorched earth policy 
that has been implemented by Khartoum around the pipeline. They 
are attempting, of course, to prevent attacks on the pipeline, 
but the money that is now coming into Khartoum, we see the 
effects of that.
    We have observed an increase in the number of incidents and 
in their severity. Not that bombings are new, but some of the 
characteristics here of the bombings in Sudan would indicate 
that there is a greater level of severity and a greater level 
of technological application here that could only come about as 
a result of the money that the Khartoum government is obtaining 
as a result of the pipeline. There is no condemnation of the 
companies running the pipeline, no condemnation of Talisman, no 
condemnation of the China National Petroleum Corporation for 
what they are doing there and what is happening as a result of 
the money that's flowing in to Khartoum.
    There is no mention, to the extent that I was able to 
review here, no mention of Joseph Coney and his Lord's 
Resistance Army, which has been responsible for large-scale 
abductions of children. The Khartoum regime has been harboring 
and supporting Mr. Coney. Children are forced to serve in his, 
``army'' either as child soldiers, laborers or sex slaves.
    In the past, Coney has promised mass release of children, 
which never materialized.
    Is there anything that the United States can do to help 
secure the release of those children or help slow the pace of 
these awful kidnappings?
    I'm not surprised that this certainly wasn't mentioned in 
the report, but am I to gather that because you have chosen not 
to emphasize these things, not to accurately reflect the 
situation in Sudan, not to reflect the egregious outrages being 
perpetrated by Khartoum on the south, this is a reflection of 
Madeleine Albright's statement of September 15, 1999, where she 
said ``the human rights situation in Sudan is not marketable to 
the American people.''
    Now, if that is the case, if that's the reason, then I 
would suggest to you that it is not proper and it is a flagrant 
admission of this Administration's policy of heating polls 
rather than facts.
    I would suggest to you that whether or not the human rights 
situation in Sudan is marketable to the American public should 
not be a criteria for the State Department, in terms of the way 
it addresses the situation there. It should address the 
situation in Sudan on the basis of the fact that we know 
genocide is actually going on and all of the other things that 
I have mentioned.
    So I am very, very concerned, of course, about first, the 
lack of emphasis that I think should have been placed on the 
situation there, and also maybe the reason for that lack of 
emphasis. I'd like you to comment.
    Mr. Koh. Congressman Tancreda, we share your deep concern 
about the human rights situation in Sudan. Secretary Albright 
and I have talked about it on many occasions and spent a 
particular amount of time in November, when we traveled to 
Nairobi, Kenya, met with members of Sudanese civil society, 
also met with members of the EGAD process, which is an effort 
to try to bring about this issue.
    Your former colleague, Congressman Harry Johnston, who I 
think we would all agree is a man of tremendous integrity and 
as the former chair of the Africa Subcommittee, extraordinarily 
knowledgeable about this, has come back to try to bring about 
peace in Sudan to end this 16-year civil war, which we 
acknowledge is one of the world's greatest humanitarian 
tragedies. It's claimed the lives, as you said, of some two 
million Sudanese civilians and internally displaced four 
million others.
    Where I would differ with you, Congressman, is about the 
statements that you say that we have not made. Blocking of food 
aid is something that we have discussed at tremendous length, 
as mentioned in Section 1G of our report. The scorched earth 
policy is discussed in Sections 1A, 1C and 1G of the report. 
Bombing of innocent civilians in Part 1A, 1C, 1G and 2C of the 
report.
    Joseph Coney and the Lord's Resistance Army, that whole 
situation came to light because of a Human Rights Watch report 
which was authored by the person who is now my special 
assistant. It's covered not only in Section 5, 6C, 6F, 6D and 
1G of the report, but also at great length in the Uganda 
report, where we point out that the Lord's Resistance Army 
operates in the north from bases in southern Sudan, viciously 
abusing human rights, continuing to kill, torture, maim and 
rape, et cetera.
    Secretary Albright has herself--I think the context in 
which she made the statement, it is not marketable, was 
followed by the statement, but nevertheless, she will continue 
to mention it every turn.
    On February 16, after her meeting with Bishop Max Gossis, 
who I think many of you up here have met, who is the 
charismatic and courageous Bishop from the Nuba Mountains, we 
issued a statement in which the Secretary expressed her outrage 
at the Khartoum government's bombing of a school on February 8 
and called on them to cease the aerial bombardment of civilian 
targets, pointing out that 14 young children and one teacher 
had been killed, and again committing ourselves to reenergize 
the EGAD process and to carry on the work of Harry Johnston.
    On these issues, the particular issues, slavery, religious 
persecution, blocking of humanitarian life lines, 
indiscriminate bombing of civilians, we have mentioned this at 
every turn.
    Now, the two points that you mentioned, the effect of oil 
money. We have read the Harker report from Canada, which just 
came out in February, and, therefore, is not discussed in our 
report for the simple reason that our report ends in December. 
It will be discussed in next year's report.
    It's also the subject of discussion by the special 
Rapporteur. We are very concerned about the extent to which 
U.N.--I'm sorry--that oil money will continue to fuel the 
conflict and it's something on which we have engaged with the 
Canadians already with regard to the Talisman energy issue.
    When we were in Cartahana, Secretary Albright met Foreign 
Minister Axworthy and discussed this issue with him. Foreign 
Minister Axworthy was here last week and she discussed it with 
him again.
    Obviously, the Chinese have not been as responsive to us on 
this question as they have on other human rights concerns, but 
it's nevertheless an issue that we raise with them.
    I think in the end, the one point on which you point is the 
question of genocide. Should we use the term genocide? And I 
think you yourself made the good point that it's a term that 
has both a legal and a political connotation. The legal 
connotation flows from the 1949 genocide convention, which the 
Senate ratified. As a Justice Department attorney, I worked on 
the ratification process.
    It's a standard which is met by any number of situations 
around the world. It's the intent to destroy, in whole or in 
part, a race or ethnic group.
    But I think what we also understand is that the political 
understanding of the term genocide is something that we reserve 
for extremely grave and egregious situations and the question 
is what does this mean, how should we respond, if we're going 
to use a term like genocide. I think that's something that we 
have been extremely concerned about.
    I think the question in the State Department is are we 
taking a hard tough look at our Sudan strategy and try to make 
it work better, recognizing the difficulties we have had up 
until now in having a real impact on the situation.
    I would say that I have been in meeting after meeting on 
the Sudan policy, some of them have been extremely difficult, 
but I think that Secretary Albright has made it clear that this 
is really one of her top human rights priorities and not 
because of welcome political and public attention to the 
question, not because it's marketable, but because it's 
something on which we as an Administration would really like to 
get some traction before the end of our time in office.
    Mr. Tancredo. Thank you, Mr. Secretary. Mr. Secretary, you 
mentioned you would like to get some traction on it and, of 
course, the Congress gave you an option in that regard. It gave 
you an opportunity, which you chose not to use, in terms of the 
ability to use food aid to support the south.
    I assume that you still believe that that is a correct path 
to follow, but I guess I wonder under what conditions do you 
consider. Would you consider that a change in your policy vis-
a-vis the food aid to the south should be considered?
    Mr. Koh. As you said, this was an opportunity that was 
given to us that we are still contemplating how to act on and 
that I do think the question of how food aid can or should be 
used in an ongoing conflict is a subject of very extensive 
disagreement.
    I think that if you call humanitarian NGO's here and ask 
them about the impact of this and whether it would potentially 
have an impact on Operation Life Line in Sudan, they might give 
you questions that would raise concern for you as to whether 
this is the best way to go. I think in the end, our focus is on 
revitalizing the EGAD process and trying to bring the relevant 
parties to the table, trying to use special envoy Harry 
Johnston, who is a person of tremendous integrity, to try to 
deal with all sides of the issue, to try to call the SPLA on 
human rights abuses when they occur, and we've just had an 
incident with regard to John Gurang, where Secretary Albright 
called him last weekend to encourage him to relent from the 
signing of a memorandum of understanding which led a number of 
leading humanitarian organizations, including CARE and World 
Vision, to withdraw from the process, and to keep the public 
focus on the very issues that you've mentioned, slavery, 
religious persecution, interference with humanitarian aid, and 
the indiscriminate shelling of civilians.
    This is something that we're trying to do at the U.N. Human 
Rights Commission in Geneva, we're trying to do in all of our 
bilateral discussions, and it's an issue that we will not let 
drop.
    Mr. Smith. Thank you, Mr. Tancredo. I just have a few 
followup questions and my colleagues may want to pose a few 
more, and we do thank you for your generosity of time, Mr. 
Secretary.
    Last year, as you may know, the House of Representatives 
passed my resolution H. Res. 128, which condemned the murder of 
human rights lawyer Rosemary Nelson and specifically called on 
the British Government to launch an independent investigation 
into her murder, as well as a public judicial inquiry into the 
possibility of state collusion in the murder of defense 
attorney Patrick Finucane in 1989.
    Similarly, in Section 405 of our bill H.R. 3427, which the 
President signed, the State Department authorization bill, the 
full Congress expressed its concern about the violence or 
threat of violence against defense attorneys in Northern 
Ireland and, again, highlighted the murders of Rosemary Nelson 
and Patrick Finucane. Rosemary Nelson herself testified, as you 
know, before our Subcommittee in September 1998 and asked the 
U.S. Government to do more on behalf of attorneys like herself 
who continued to receive death threats for discharging their 
duties on behalf of those clients charged with political 
offenses.
    She said, and I remember she said this very clearly on the 
record, ``No lawyer can forget what happened to Patrick 
Finucane,'' and explained further that allegations of official 
collusion in his murder, which U.N. Special Rapporteur Param 
Cumaraswamy found credible, are particularly disturbing.
    Rosemary Nelson asked us to communicate to the British 
Government how important a public inquiry into the Finucane 
case would be to the peace process and for the rule of law in 
Northern Ireland.
    In response, several members joined me in writing Tony 
Blair, urging an independent public inquiry. We passed 
legislation calling on the British to do more for defense 
attorneys in the north and mandated a reform FBI/RUC police 
training exchange program, a vetting process.
    I see in the report much discussion about the Nelson and 
Finucane cases, especially the new developments in the Finucane 
case, which seem to substantiate the charges of RUC collusion 
in this murder.
    My question is, is the Administration now prepared to join 
the House and, in fact, the Irish Prime Minister Bertie Ahern 
who just 2 weeks ago called for an independent judicial inquiry 
into the murder of Patrick Finucane and, I would add, as well, 
Rosemary Nelson.
    Mr. Koh. Congressman, as you know, this has been something 
of great concern to me. We discussed it last time I was here 
for the country reports. This past week, and I was in Dublin at 
a gathering of human rights lawyers, in which this was very 
much the subject of discussion, I discussed it with Mr. Martin 
O'Brien, a leading human rights attorney there, Jane Winter of 
the Irish Human Rights Center has been here and has raised this 
issue with both of us.
    The Finucane and Rosemary Nelson killings were, in our 
view, a savage assault on the independence of lawyers and it 
was very clear that the Rosemary Nelson murder following 10 
years on the death of Mr. Finucane, a still unsolved case, has 
only made the point again.
    I understand next week, Mr. Chairman, you're holding a 
hearing at the Helsinki Commission to hear from Mr. Finucane's 
widow on the range of issues that are raised by this.
    I think we believe that there must be an objective and 
independent investigation to the question. I think we have 
called on--we have identified in the human rights report our 
concerns about the independence of these issues in the past.
    Obviously, the peace process continues to be a prime 
concern. Jim Steinberg, the Deputy National Security Advisor, 
and Mr. Norland, are there now in Ireland on this question and 
as you know, Bertie Ahern and the other leading players in the 
peace process will be coming here on St. Patrick's Day for a 
major meeting at the White House.
    In our view, the range of issues to be implemented have to 
be folded into the peace process. You had a hearing before this 
Committee in which Chris Patton, who is now the Foreign 
Relations Commissioner of the European Union, appeared and he 
was discussing the results of his own report on policing. I 
know you will be hearing later this afternoon from Elisa 
Massimino from the Lawyers Committee on Human Rights, which has 
played a leading role on the question.
    I think our belief is in this process, we have to move 
toward getting to the bottom of these two cases, which are not 
only egregious cases in themselves, but have a broader 
significance, and to use the peace process in a way to energize 
the human rights process in Northern Ireland that will prevent 
such cases from happening again.
    Mr. Smith. Thank you very much for that and, hopefully, as 
a Commissioner, you will join us at that hearing.
    As I think we have had five hearings on human rights in the 
north of Ireland. We had, as you pointed out, Patten himself. 
Frankly, while he's a very clever and articulate diplomat, 
having read the report twice and made a number of notations in 
reading it, and then, more importantly, having asked him a 
number of questions, I was very, very disappointed in the fact 
that there will be no vetting whatsoever of those who may have 
committed atrocities, may have been a part of the collusion.
    Just for the record, our hearing will be held on Tuesday, 
March 14th. The Committee on the Administration of Justice, 
Martin O'Brien's group, will be part of that, Geraldine 
Finucane, as you pointed out, Rosemary's brother will also be 
here.
    So it should hopefully bring additional focus and we hope 
that the Administration will be very bold, as it has been on 
other Irish issues, in asking for that independent inquiry.
    There seems to be a cover-up, an unseemly cover-up, if you 
will, and the suggestion of that, we don't know for sure, came 
out during our hearing with Patten. Just why not, why not go 
wherever the evidence takes us on these cases. To think that 
people who may be very high in the RUC may have been complicity 
in these crimes and other crimes makes for justice denied, as 
well a perhaps other acts which could be committed in the 
future.
    Let me just turn our attention briefly to Peru. Although it 
doesn't reach a firm conclusion, the country report for Peru 
lays out the strong case for the unconstitutionality of 
President Fujimori's effort to win a third term.
    A recent report by the highly respected ombudsman, Jorge 
Santistevan, also suggests evidence of massive fraud and 
manipulation by the government officials on behalf of the 
Fujimori candidacy.
    In light of the Administration's frequently stated 
commitment to democracy in the western hemisphere, and it's a 
commitment we all share, what specifically is the U.S. 
Government doing to ensure free and fair elections, with the 
media being very heavily put upon?
    We know that the government controlled news media has 
attacked the ombudsman. There have been attacks on El 
Commercio, the newspaper that broke the story on the election 
fraud, and I know there are probably some people who think the 
opposition party shouldn't even participate rather than 
participate in a fraudulent election.
    What are we doing to ensure that this does not happen? We 
know that there was a Fuji coup before. Now, in daylight, we 
may be seeing something that is parallel to that by rigging the 
process.
    Mr. Koh. One of the themes of our introduction to our human 
rights report is about threats to Latin democracy that occurred 
in 1999 and efforts to deal with those. In Ecuador, in 
Paraguay, concerns that we have in Venezuela, and, of course, 
the issue of Peru.
    I think that we have said in our report that we're in a 
situation in which the separation of powers has been 
dramatically undermined. The executive branch dominates the 
legislature in the judiciary. Congress removed three judges so 
that the constitutional tribunal there is unable to function, 
and questions remain about openness and fairness of electoral 
process and about due process, the well known Lori Berenson 
case.
    We have also seen inhibitions of media freedom, continuing 
impunity, torture and poor prison conditions, and issues of 
arbitrary arrest and detention.
    In November, I went to Costa Rica for the 30th anniversary 
of the Inter-American Court of Human Rights, and there we 
engaged with the Vice Foreign Minister of Peru about the 
questions of the relationship between Peru and the Inter-
American human rights system. As you might know, they have 
withdrawn from the Inter-American Court of Human Rights and we 
believe that this is an extremely negative trend.
    Recently I met with both the Vice Minister and the Foreign 
Minister--I'm sorry--the Justice Minister and the Foreign 
Minister, Mr. Bustamonte, and raised again our concern about 
these issues, and he actually commented about the meeting later 
in criticizing our human rights report.
    Now, we have been trying to deal with this by funding 
programs for electoral and democracy building in Peru and 
particularly we've funded pre-electoral observation missions 
that are run by the National Democratic Institute and the 
Carter Center and the funding of local observation and voter 
NGO education programs through approving NGO called 
Transparencia.
    We've also tried to build approving civil society 
organizations by funding them to promote voter education and 
turnout, especially in the rural areas, to build political 
participation among women and young people and promote greater 
debate about the issue of democratic reforms.
    U.S. programs have also been used to strengthen the program 
of the human rights ombudsman and to support the work of human 
rights NGO's.
    I think it's fair to say that Latin democracy, in many 
cases, is a fragile institution, as we've seen. Many times, the 
people prefer the strong leader to the strong democratic 
institutions, and it's a long-term struggle on which I think we 
need to unite hands and work on a bipartisan basis over the 
years to come.
    Mr. Smith. Thank you very much, Mr. Secretary. Hopefully, 
those organizations that you mentioned, the Transparencia and 
the Carter group and the Democratic Institute, will be very 
proactive, because it's not just--as we all know--the day of 
election. We've seen a growing theft, the growing evidence at 
least that there may be a theft of the presidency by President 
Fujimori.
    So hopefully more can be done. It's only a month away or 
so. April 8th, I believe is the date for the election. So that 
there is a real honest to goodness lead-up to and then actual 
casting of ballots.
    Mr. Koh. One of our most skilled Ambassadors, John 
Hamilton, a former Deputy Assistant Secretary for Western 
Hemisphere Affairs, has been posted to Lima and has been 
working these issues extremely aggressively.
    I spoke to him about this, about 2 weeks ago, and the 
embassy is deeply committed to pressing and working on the 
issue, as is everybody in the department.
    Mr. Smith. I appreciate that, and thank you for your 
statement. Let me ask, again, with regard to Peru, the country 
reports noted that there were serious charges of involuntary 
sterilizations in the Peruvian government's family planning 
program in 1997 and 1998, but it lists only cases involving 
offers of food or other benefits or which people were 
sterilized without being fully informed of the nature of the 
operation.
    Why does the report fail to mention even more serious 
charges, such as sterilization of women after caesarian 
sections without any attempt at all to get the woman's consent?
    You might recall, we had a hearing, at which time we heard 
from two women who had been sterilized against their will and 
at great risk to themselves, flew up here and spoke out, and 
also a doctor who was a whistleblower, who also made very 
strong statements with regard to Fujimori's war on poverty, 
which was to sterilize the poor, using denial of benefits and 
other--and then more coercive means of doing so.
    The report notes that the ombudsman has received numerous 
complaints of instances that are said to have occurred after 
March 1998, when the government stated that it was changing its 
policies to eliminate coercion. The country report notes that 
the ombudsman has continued to investigate these complaints. In 
light of the substantial U.S. cooperation with and support of 
the Peruvian government program, have we conducted our own 
investigation of these complaints? What have we concluded? What 
changes will result in our policy of cooperation with the 
Peruvian government if we discover that coercive practices are 
continuing in the program?
    Mr. Koh. Congressman, these were of concern to me at the 
time of my confirmation. You and I discussed this in your 
office when I first came up to meet you and it's something on 
which we've asked for special examination.
    On the specifics of this particular question, I prefer to 
take the question and give you a written answer.
    Mr. Smith. I would appreciate that. Let me ask you with 
regard to Mexico, again, and just staying with this issue of 
forced sterilization, which in our hemisphere, the southern 
hemisphere, in such close proximity.
    The report says, building on the reports of last year, that 
the largest number of complaints against health care 
institutions involved forced sterilization. This year's Mexico 
report states that there continue to be credible allegations of 
forced sterilization in the country.
    Has the United States taken any independent steps to 
investigate the extent of the forced sterilization problem in 
Mexico? On one fact-finding trip that I took, I asked the human 
rights groups, and, frankly, all of the human rights groups, 
while my words are being translated into Spanish, as they were 
being translated, were shaking their heads ``yes'' and then one 
right after another spoke of it.
    Yet our person from AID dismissed the whole thing and said, 
``no, that's not a problem.'' I have raised that before with 
you. Last year's report did note that several NGO's monitored 
the family planning practices, and yet that's absent this year.
    Who are the groups that are monitoring? Are they the family 
planning groups themselves who always seem to deny that there 
is any coercion, or was it an independent, nonbiased, 
nongovernmental organization, like one of the human rights 
groups? And in light of this, especially since Mexico was a 
major recipient of U.S. Government population control money, 
what are we doing as a major donor to see that these practices 
end completely and no woman is sterilized against her will?
    Mr. Koh. Again, on the specifics and which groups are doing 
the monitoring, I would prefer to submit an answer, along with 
the Peruvian answer.
    I will say that we have an extremely robust bilateral human 
rights dialogue with the government of Mexico. It's been 
conducted over the last couple of years by my principal Deputy 
Assistant Secretary Leslie Gerson, who, unlike myself, is a 
Spanish speaker. It happens at the Deputy Assistant Secretary 
level, it happened last year in Washington. She went then to 
Mexico for a period of about 5 days, including trips to Chiapas 
and dealing with her opposite numbers there.
    I had discussions with Foreign Minister Rosario Green when 
I was in Costa Rica and saw her again at the Guatemalan 
Presidential inauguration in February and Secretary Albright 
met with Rosario Green and raised human rights issues, among 
others, in Wauhauka, in early January.
    Our Ambassador in Mexico, Jeff Davidow, is a former 
Assistant Secretary for Western Hemisphere Affairs and has made 
sure that these bilateral dialogues at the high departmental, 
inter-departmental level are carried forward on a day to day 
basis.
    Mr. Smith. I appreciate that. Let me ask you with regard to 
Cuba: There have been reports that there has been a crack down, 
especially with Elian's case being so high profile, on 
dissidents, using the cover of Castro's professed concern about 
family reunification, which would be very novel. But there's 
this crack down that we've had some evidence of.
    If you could speak to that, what do we know about that, of 
dissidents being rounded up? And, second, the Cuban report 
notes that under the terms of the May 2, 1995 U.S.-Cuba 
migration accord, the government agreed not to prosecute or 
retaliate against migrants returned from international or U.S. 
waters or from the U.S. Naval base as a consequence of their 
attempt to immigrate illegally.
    However, it does not say whether the Castro regime did, in 
fact, prosecute or retaliate against any of those returnees.
    Specifically, has there been any retaliation? I've seen 
reports that there has been. What is your finding? How many 
people did the U.S. return to Cuba during 1999 under that 
agreement? How many of the total number of returnees since 1995 
are now in prison and how do we go about monitoring their 
treatment or mistreatment if they are indeed in prison?
    Mr. Koh. We'll be happy to supply you with the specific 
numbers. I think as you and your senior counsel know, I had 
represented Cuban refugees in litigation as a private attorney 
and this is an issue on which I feel very concerned because of 
the human rights conditions to which they are being returned.
    On the Ilion Gonzalez case, because of my responsibilities 
as the asylum--in our asylum office and dealing with asylum 
questions, there is a possibility that that case may come 
before me in a form in which I'm going to have to provide a 
legal opinion, and, therefore, I would prefer not to address 
it. I do think that the broader issue of Cuban human rights 
abuses is one that we discuss in great detail in the report, 
the continuing crack down on political dissent, the continuing 
detention of the four dissidents, of the dissident working 
group, including Marta Beatrice Roques, who is now very ill, 
Vladimir Roka, who is the son of the famous Mr. Roka, the 
leader of the--the original leader of the communist party and 
as I mentioned in my own original testimony, the sentencing of 
Oscar Bissette.
    There was a hope that the Ibero-American summit might give 
an opportunity for the Castro regime to let up and indeed 
during that summit, which was held in Havana, some nine 
delegations met with dissidents, including three heads of 
state, and I think it's telling that in the aftermath of that, 
the Cuban government, as opposed to letting up, has, in fact, 
continued its crack down, bans on journalists, as I recounted 
in my oral statement, new restrictions, harassment efforts, and 
that it is for that reason that we supported the Czech and 
Polish government in their introduction last year of a 
resolution on the human rights conditions in Cuba that passed 
and we believe that there will be another resolution this year.
    U.S. interest section personnel do visit returnees to 
monitor their condition. Vicky Huddleston, who is the principal 
officer in that interest section, is someone with whom I've 
worked closely. She has a deep commitment on these issues, as 
well as the head of our Cuba desk, Mr. Charles Shapiro. So we 
will be happy to get back to you on specific numbers.
    Mr. Smith. In that answer, could you say why the report 
doesn't say whether any harm has come to those returnees? Is it 
because there hasn't been any harm? Unless I missed something 
in the report, I didn't see any mention of that.
    Mr. Koh. We'll clarify that in our answer.
    Mr. Smith. Appreciate that. You mentioned Dr. Biscet. There 
was an Associated Press article on February 25, just a few days 
ago, talking about his recent arrest. The AP points out that he 
became an activist after protesting late term abortions at a 
government hospital where he worked and that he was eventually 
fired.
    There was a staff delegation that went down from the Senate 
and House about a year ago and one of their bottom line 
findings was that Cuban doctors say that the regime employs a 
policy of coercive abortion to eliminate social risk 
pregnancies and that some of the criteria include hypertension 
and even diabetes, and that accounts, according to the staff 
delegation report, why they seem to have a low rate of death 
among newborns, because they kill children who manifest any of 
these problems, like diabetes or the mother might have diabetes 
or some other problem.
    What can you tell us about the issue of coercive abortion 
and sterilization in Cuba? Because it has not gotten much 
attention in the past and yet there are people like Dr. Biscet, 
who is well known, very credible, who is very much of an 
activist against the policies of his Cuban government because 
of that very thing.
    Mr. Koh. I'm restricted in the sense that I cannot visit 
Cuba. That's something that we do not do at the Assistant 
Secretary level. I've been, of course, to Guantonamo Bay in my 
refugee capacity on numerous occasions, but I have not been to 
Havana.
    However, the head of our Office of Country Reports, in 
fact, the master editor of the entire volume, Mr. Mark Susser, 
and Susan Kovalich, who one of the officers in our country 
reports section, did visit Havana and have been looking into 
these issues and discussing the whole set of issues.
    Now, I know that they have the--I think--I'm not sure that 
they went down until after the staff delegation report was 
produced and so I'm not sure they have a chance to actually 
test and check the particular information that you have 
provided, but let me check with them and ask them to give me 
some information so I can give you an answer to that specific 
question.
    Mr. Smith. Let me ask briefly, and then I'll yield to my 
distinguished friend from Georgia, with regard to Burma. A 
recent editorial by Fred Hyatt in the Washington Post 
summarized this year's country reports on Burma as follows; 
``Soldiers kill and rape, forced child labor, trafficking women 
and girls from China for prostitution, 1,300 political 
prisoners, universities closed since 1996,'' and it goes on and 
on and on and the report goes on and on as well in chronicling 
those abuses.
    Although we don't supply direct assistance, we do so, as we 
all know, through NGO's and through organizations like the 
UNDP, and we are concerned that there may be a new program that 
UNDP would like to undertake that would build roads, bridges, 
other kinds of infrastructure which would probably be of very 
great benefit to the military.
    Now, my question is whether or not that is something that 
is in the offing, whether or not that is under consideration, 
as far as you know? Will the U.S. use its influence to ensure 
that U.N. organizations and international financial 
institutions limit their activities to activities in Burma, 
that address the needs of the poor and do not assist the 
military or government in Burma, and will they work with the 
National League for Democracy and the National Coalition of 
Government of the Union of Burma, which all of us know ought to 
be the ruling government in that country?
    Mr. Koh. I think we have expressed on many occasions over 
the last 5 to 10 years our unqualified support for Onsunsu Shi 
and her efforts to bring democracy to Burma in the face of what 
is now the SPDC. My own engagement on the issue came from the 
fact that before I was in this position, I knew Onsunsu Shi's 
husband, Mr. Michael Aris, and the outrageous conduct of the 
Burmese government last year as he attempted to be reunited 
with her during the period when he was dying with something, I 
think, again shows the really appalling human rights 
insensibility of the regime.
    I think on this point, our strategy has been one of multi-
lateral sanctions, working closely with our allies. We have 
suspended economic aid, we've ended GSP, and overseas private 
investment, we have blocked lending by international financial 
institutions, we banned new investment by U.S. persons, and 
we've worked to build a broad multi-lateral coalition.
    At the same time, I think we all understand that Burmese 
refugees, and particularly students, are the future of Burma 
and that it's important that when this all ends, that there be 
a cadre of civil society that's capable of supporting 
democracy, and for that reason we have earmarked some six and a 
half million dollars for democracy and humanitarian activities 
for Burmese refugees along the Thai border for scholarships for 
Burmese students and to support democracy-based activities 
inside Burma.
    When I traveled with Secretary Albright last March to 
Bangkok, I met there with a group of Burmese students who have 
been focused on this issue, were deeply supportive of Onsunsu 
Shi.
    Now, I know that there is a continuing concern about the 
question of humanitarian aid. One of my own students from Yale, 
who now works inside of Burma, has been talking to me about 
this question and raised the particular set of concerns that at 
what point should the multi-lateral sanctions regime need to be 
adjusted because of concerns about humanitarian impacts.
    I think this is obviously something that a multi-lateral 
sanctions regime has to adjust to try to make sure that they 
are smart sanctions, that they're not impacting negatively on 
the people, but at the same time, that they're actually 
affecting the regime that's the cause of the problem.
    Mr. Smith. But the specific concern is that the UNDP will 
be ratcheting up its support and there may not be the adequate 
check-offs by the people who care most intimately about what 
happens there. They have not had a stellar record in the past 
and there are concerns by myself and many of us that this will 
be aiding and abetting the military dictatorship.
    Mr. Koh. We have worked closely with them and I met with 
the Director, Mr. Mark Mallick Brown, in September. I think he 
has done an outstanding job with UNDP and is very focused on 
these questions. I can try to find out more about the specifics 
of the program and get back to you on that.
    Mr. Smith. Let me ask you about Indonesia. We have had a 
number of hearings, again, in this Committee. I have gone over 
there. My staff director, Joseph Rees, has also visited, just 
recently got back from East Timor. But one of the issues that 
we focused on was the government or military-to-military 
collaboration in the past and we understand that there may be a 
step in that direction again under the Wahid Administration. 
Could we get your feeling about the Wahid Administration's 
human rights record, whether or not the military to military is 
about to be resumed. We heard from Pius Lustrilanang one of the 
people who was tortured. He believes and we believe, although 
we can't prove it absolutely, he was tortured by the military. 
Under the JCET's Program, we were training members of the 
Kopassus in sniper training and urban guerrilla warfare at a 
time when ultimately there were people being killed in the 
street using those very tactics.
    There are deep concerns about, again, a vetting process and 
whether or not people we may be training again could be human 
rights abusers.
    Is there something that is going to be announced anytime 
soon, do you know, and is your bureau involved in the decision 
with DOD?
    Mr. Koh. Yes. I went to Indonesia actually the day that I 
took office in November 1998. I returned with Secretary 
Albright in March and then I returned again to both Jakarta, 
West Timor and East Timor in early October, both to look into 
the situation in Delhi and also to look into the plight of 
refugees in West Timor, and I know that you and your chief 
counsel Mr. Reese have played an important role in highlighting 
those issues and getting Congressional attention paid to them.
    I think everybody understands and acknowledges the role 
that the TNI had played in paramilitary abuses and the need for 
thorough military reform and for accountability.
    Indeed, our new Ambassador Bob Gelbard has been a leader on 
this issue, as has Assistant Secretary Stanley Roth, and 
Secretary Albright herself has designated Indonesia as one of 
her key priority countries for democracy issues for this year.
    In September 1999, the President suspended mil-mil 
relations or military to military relations, which were already 
restricted, including initiating new training under the 
expanded IMET Program. As was reported in the paper, there were 
some very small number of former IMET students are here, I 
think seven of them. They are allowed to continue and finish 
their training with non-IMET funds.
    Then the Leahy amendment conditions resumption of IMET on 
an important set of conditions which have been the guideposts 
for the executive branch's actions on this.
    I would say the U.S. has not initiated any IMET, EIMET 
Programs in fiscal year 2000, nor have we conducted DOD JSEP 
Programs with Indonesia, since they were frozen in 1998. I 
think the best thing we can say at this point is the 
Administration is going to continue to consult with Congress to 
determine when it would be appropriate to resume any kind of 
training and any plan for reengagement would be developed in 
response to concrete changes. I the government of President 
Wahid has faced huge challenges. This is the fourth largest 
country in the world. They have very little tradition of 
civilian government. They have a new cabinet, many of whom are 
new to government. Nevertheless--and they're facing not just 
East Timor, but also situations in Ochi, Ambonne, the Malucas, 
as well as domestic accountability issues, as now presented by 
both the international commission of inquiry report on East 
Timor and the domestic commission report. So they have their 
hands full.
    Only a few weeks ago, three of the ministers of Indonesia, 
the new attorney general, Marzuki Daruzmon, the new human 
rights minister, Mr. Hasbal Asad, and the minister for 
legislation, came over and we talked to them about how to 
address and deal with these human rights issues.
    In our bureau, we're trying to find ways to support the new 
human rights ministry under Mr. Asad's leadership and we're 
also looking for ways in which we can support the human rights 
monitoring effort of the U.N. transitional authority in East 
Timor, headed by Sergio Veradamela.
    So we are very focused on the challenges both in Indonesia 
and in its regions and our committed to keeping this country in 
the democratic column.
    Mr. Smith. Let me ask you briefly about Egypt. Nina Shea, 
in her testimony, makes a very important point with regard to 
the Coptic Church, and I have myself met with President 
Mubasak, raised the issue of Al Kosheh and we've recently had a 
number of Members who actually went to Egypt and raised the 
issue with high government officials.
    There seems to be a very serious deterioration of respect 
for the Coptic Church. It is a very, very large minority of 
Christians in the Middle East, and yet the violence is growing.
    There is not a prosecution strategy that we can see to get 
the perpetrators of these crimes, and the human rights report, 
as Nina Shea points out, asserts that the government's human 
rights record, we're talking about Egypt, again, improved 
somewhat over the previous year. This assessment carries great 
weight.
    She testifies or will testify, ``to our knowledge, it has 
been cited by asylum officials in two recent cases to deny 
Copts petitions. It is misleading in that it fails to take into 
consideration the fundamental fact that government-sponsored 
intolerance against a religious minority in the context of 
religious extremism.''
    I have met with a number of Copts myself. I spoke to 
Bhoutros-Ghali, who was giving the opposite view, on behalf of 
the government, who made it sound like for the Coptic Church, 
everything was just dandy, and yet the evidence clearly points 
in the other direction in a profound way.
    What is your response to her testimony and those 
assertions, which are shared by this Chairman?
    Mr. Koh. We have concerns about the government of Egypt's 
treatment of Coptic Christians, and that has been a special 
subject for Ambassador Robert Seiple, our Ambassador at Large 
for International Religious Freedom, whose office is in our 
bureau.
    He's given it a lot of attention and has visited Egypt to 
discuss these issues.
    I have myself raised the issue with Ambassador Fami here. I 
know Secretary Albright has raised it with Foreign Minister 
Musa, and the Alkoush case obviously is, in both of its 
manifestations, one in 1998 and the more recent incident, a 
particularly troubling event.
    There is a particular issue with regard to this year's 
report, which is, again, we have to cutoff the report on 
December 1999. Some of the violence which started Alkoush two 
started on New Year's Eve, and it continued into the next year, 
and, therefore, we report on it in our introduction.
    It will be reported at great length, I'm sure, in this 
year's international religious freedom report, which will issue 
in September.
    In the meantime, Ambassador Dan Kirtzer and our embassy in 
Cairo continued to press on the issue and this is something on 
which the Commission for International Religious Freedom, on 
which Nina Shea sits, has done a good job in highlighting. We 
think that that issue will continue to receive a lot of well 
deserved attention.
    Mr. Smith. Can that information also be gotten to asylum 
officers, I'm not sure what your mechanism is, so they're not 
making decisions based on guidance that is either outdated or 
wrong?
    Mr. Koh. As we say, Mr. Chairman, I'm glad you mentioned 
that issue. We have a valiant staff of 12 who do human rights 
reporting. They now do a country report which, as you know, is, 
this year, 6,000 pages. They finished it at the end of 
February. They have to then move quickly to the international 
religious freedom report, which is then due in September.
    We have expanded reporting requirements on a number of 
issues. They also bear the burden of revising asylum profiles 
and, frankly, many of them are so exhausted that it's something 
that we really don't have a chance to update these profiles as 
much as we'd like.
    This is not for lack of commitment on the issue, and we do 
appreciate the enhanced resources that we have this year, but I 
think it's a continuing concern to us as to how we can keep 
handling new Congressionally mandated reports which really tax 
our resources and keep doing the job that we're supposed to do 
in so many different areas.
    Mr. Smith. I do have other questions, but I will yield. 
Congressman Radanovich has asked that his statement be made 
part of the record and he does ask about a constituent. He 
says, just briefly, ``I am primarily concerned with statements 
made by the State Department that 'there are no reports of 
politically motivated disappearance,'' and he's talking about 
Laos.
    ``You may be aware of the case of my constituent, Michael 
Vang, and his co-traveler.'' I wonder--and I raised this in my 
opening comments, Mr. Secretary--if you might touch on that, 
and then I'll yield to Cynthia McKinney.
    Mr. Koh. Yes. The case of the two Americans, Woa Li and 
Michael Vang, has been a great concern to us. When we first 
learned of the disappearances, our embassies in Laos and 
Thailand worked closely with the FBI to try and pursue all 
credible leads. We sent a joint fact-finding team to the border 
area twice, first in November 1999, then in November 1998 and 
July 1999, and were unable to reach conclusions.
    You mentioned this in your opening statement. There were 
conflicting reports and it was difficult to resolve them and 
the inconsistencies between them. We tried to get to the bottom 
of it. Our embassy raised the issue. Ambassador Seiple visited 
Laos and again raised the issue. Assistant Secretary Roth has 
pursued the question here in D.C., and Neil Silver, who is the 
head, the Office Director for our Laotian Affairs Bureau, has 
been pursuing this.
    The lead on this has been taken by our consular affairs 
bureau, which, of course, has responsibility for the 
whereabouts of all American citizens.
    The fact remains that the reported disappearances occurred 
in the Golden Triangle area, which is very rugged terrain. We 
have incomplete reports, which complicate the investigation. 
But it continues to be a very high priority for us in terms of 
resolving the issue. Secretary Albright has met with both the 
Lao Ambassador and also the Lao foreign minister to underscore 
the concern and our charge in Vientiane has repeatedly pressed 
on the question. We know that staff from this Committee and 
also from the Foreign Relations Committee went and have been 
trying to get to the bottom of the question.
    I'm happy to say that we are hoping that the next deputy 
chief of mission in Vientiane will be an alumnus of our own 
office and will, I'm sure, be taking this question on board.
    Mr. Smith. Thank you, Mr. Secretary. Cynthia McKinney.
    Ms. McKinney. Thank you, Mr. Chairman. I just have a few 
questions. First of all, what is the position of the State 
Department with respect to a tribunal to investigate the crimes 
against humanity that have been committed in East Timor?
    Mr. Koh. I think we don't always move first to the question 
of international tribunal, if a credible domestic process can 
function. As you well know, Congresswoman, it was so difficult 
to create both the international tribunal for the former 
Yugoslavia and for Rwanda----
    Ms. McKinney. Are you suggesting that a credible domestic 
opportunity exists to bring the Indonesian military to justice 
for the crimes that they have committed in East Timor?
    Mr. Koh. When the International Commission of Inquiry 
issued their report, which they did on January 31, on the same 
day, KPP Hahm, or so-called Komnisom, the National Human Rights 
Commission issued a report which was in many senses reaffirming 
and confirming the same information. That national report has 
now gone to the Attorney General's office, under Marzuki 
Darizmon, who as I mentioned, was here a few weeks ago.
    He is a former leader of the National Human Rights 
Commission and that office is currently exploring the question 
of whether prosecutions can be brought against some of these 
individuals. As I understand it, there are three issues at 
stake now; one is the extent to which these can be brought 
under existing Indonesian law, a second question about the new 
human rights law, which the Wahid government is attempting to 
enact. My understanding is that that law is in its eighth 
reading at the moment. Then there is the question of how to 
work together closely with the U.N. transitional authority to 
gather evidence and information.
    We have a number of staff people, including my own special 
assistant, who are in Jakarta and East Timor now working on the 
issue, and I think it's too early to say where all this 
evidence will lead.
    What I will say is that the new government is attempting to 
take the National Commission report, and use the information 
from that report to try to move to a credible process of 
prosecution, investigation and conviction. I think we ought to 
support them in that effort.
    Ms. McKinney. I'm interested in the attitude in the 
department as it relates to corporate behavior, U.S. corporate 
behavior. You very well know the activities of Chevron Oil 
Company in the Niger Delta and their complicity in massacres 
and in torture.
    What is the attitude of the department in the inclusion of 
corporate behavior in its human rights report?
    Mr. Koh. Ours is principally a report on the activities of 
governments. Also, we do mention behavior of corporate actors. 
You will see mention of this throughout the reports.
    I will say that our own view is that corporate actors are 
an important transmission belt for human rights values, the 
fact of the matter is that in many countries around the world, 
it is the corporations that have the lead and many corporate 
executives are committed on these issues. This was something 
that Kofi Annan raised in Dovos last year, and what we have 
done at the Department is to try to forge closer ties with 
corporations to try to bring their best practices to bear.
    One thing that was mentioned by Secretary of State Albright 
in Dovos on January 28 is an effort that we're trying to do to 
work with corporations, particularly U.S. corporations, on 
promoting higher standards and highlighting best practices in 
the extractive industries.
    I know my deputy Bennett Freeman came up and briefed you on 
this issue. There are three countries that we have identified, 
Colombia, Indonesia and Nigeria, on which we're going to be 
doing substantial work.
    Obviously, the situation in the Niger Delta is of grave 
concern and we have also met with members of Mosup, the Algoni 
people and particularly Owen Zwila, the brother of the martyr 
Ken Sarowiwa, to discuss those continuing concerns.
    But this is something in which we are trying to get 
corporations to agree to make a commitment on promoting the 
basic principals of the Universal Declaration of Human Rights 
and, in particular, practices in the extractive industries, 
particularly with regard to their security arrangements, to 
make sure that they are part of the solution and not part of 
the problem.
    Mr. Smith. Mr. Delahunt.
    Mr. Delahunt. I mentioned in my opening remarks that I was 
going to ask you about the fact that both of the guerrilla 
groups, the ELN and the FARC, are listed on or named on the 
list of foreign terrorist organizations, and the AUC is not.
    Can you give me a response to that question?
    Mr. Koh. I think we're going to have to get back to you 
with the specifics about the terrorist list. I don't do 
terrorism, I do human rights, so that's really another part of 
the program, of the Department.
    I will say that with regard to paramilitary abuses, I think 
they're chronicled at great length in the report.
    Mr. Delahunt. Yes, and I applaud you on that and it's clear 
that the vast, the majority of human rights abuses are, in 
fact, committed by paramilitaries. They far exceed those 
committed by the insurgent groups and I think in the 1998 
report, I don't know what the statistic is this year, but there 
was 3 percent was claimed that was committed by security 
forces.
    I presume those percentages haven't changed much, Mr. Koh.
    Mr. Koh. This is something in our report. We've looked at 
both reports of the NGO's, particularly the NGO Sinap. We've 
looked at the report of the Ministry of Defense and there are 
some discrepancies in the numbers. Where they all agreed is 
that extra judicial killings by paramilitaries last year were 
in the range of 700 to 850. Both the NGO's and the Ministry of 
Defense agree on those numbers, and those are higher than 
either abuses--extra judicial killings that were committed by 
the guerrillas or by the security forces.
    The number of killings were in the zero to 24 range, 
depending on who you believed.
    Mr. Delahunt. But you haven't incorporated within the 
report a specific percentage, I take it. I haven't had a chance 
to peruse the report.
    Mr. Koh. Again, it's a question of how we----
    Mr. Delahunt. I'm sure these are estimates, also. I mean, I 
understand that.
    Mr. Koh. Sometimes----
    Mr. Delahunt. But what I find disturbing, and I presume 
that there is a sound basis for not listing the AUC, but our 
own General McAfree has indicated that the flow of drugs into 
the United States is a threat to our national security and if 
it comes to the definition of definitions within that language, 
I presume that if, in fact, we consider the flow of cocaine and 
heroin into the United States to be in our national interest, 
that the reality is that the AUC, which has been described by 
DEA, INL and other agencies, as to be more implicated into the 
drug trade than even the guerrillas, that appropriately they 
ought to be listed, with the consequences that ensue by that 
listing.
    So I know that's not within your particular province, but I 
would ask that you take it back to the appropriate official and 
provide us with an answer, and, at the same time, encourage 
them to look at it with a liberal interpretation.
    Mr. Koh. We agree.
    Mr. Delahunt. Of the statutory language.
    Mr. Koh. We agree, Congressman, that both the 
paramilitaries and the guerrillas commit large-scale abuses of 
international human rights and humanitarian law and that they 
ought to be outlawed.
    I think they do have a difference in tactics. 
Paramilitaries more frequently engage in massacres of civilian 
groups, whereas the guerrillas have engaged in a variety of 
tactics, including kidnappings, massacres, extra judicial 
killings, recruitment of child soldiers and other kinds of 
abuses.
    I do think that both engage in profit from the drug trade 
and they're both part of the problem that the Pastrana 
government has to get on top of if they're going to bring this 
country into a new period in terms of human rights.
    Mr. Delahunt. I thank you, Mr. Secretary. I would ask, at 
this point in time, the Chairman, and I applaud him for having 
a hearing next week in terms of the situation in Northern 
Ireland, but I think it's particularly timely if we would 
consider to have--consider having a full hearing on the 
situation as it exists in Colombia.
    This is a--clearly, this package has multiple aspects of 
it, some of which I find very attractive, others concern me.
    But in particular, the area of human rights, I think it 
would be most timely to have a full hearing. I think it's 
important and I think it would assist a lot of Members to have 
the ability to ask some questions, not just from the Secretary, 
but from a variety of groups, both here in the United States 
and from Colombia.
    Mr. Smith. Thank you very much. We will look into that, but 
I understand that the Appropriations Committee is moving fast 
in terms of a markup. So it's something we ought to, as soon as 
we're done here today, talk about.
    There is another issue I'd just like to raise, and you've 
been very, very generous, Mr. Secretary, unlike some people who 
come down and speak before the House and always have to be 
somewhere else, so they're running out the door. You have been 
very generous and we deeply respect and appreciate that.
    Mr. Koh. It's my job and that's why I get the big bucks.
    Mr. Smith. You are a person who cares so much about it, as 
evidenced by your previous work and the fact that you are so 
infatigable in your efforts on behalf of human rights.
    Amnesty International, in their testimony, Carlos Salinas 
will be testifying momentarily, makes the point again. He calls 
you a good friend and has nothing but respect for you, as we 
all do, but the problem, as I said in my opening statement, is 
this idea of a compartmentalized approach--separating policy 
from the issue of reporting. He points out that when you 
scratch beneath the rhetorical surface, you find a complex 
substratum where human rights concerns are compartmentalized 
and rationalized out of key decisions. You might want to 
comment on that again, because I think that's our main problem.
    If you were running the show, I think we'd have very few 
questions about human rights being integrated with our overall 
foreign policy, which brings us to Turkey. I know I wanted to 
join you at the OSCE meeting. We unfortunately had a session of 
Congress and much work on our plate here and I couldn't join 
you. I know you did a good job there.
    But Amnesty points out and many of us have concerns about 
the Administration's apparent gearing up to provide an export 
license for four billion dollars for attack helicopters. We all 
know the incredible carnage that has been committed against the 
Kurdish minority. There were some human rights benchmarks that 
were laid out by the Turkish Prime Minister and our President 
in December 1997, and if you look at those benchmarks, it looks 
like they have not been realized and are not in the process of 
being realized, and maybe you have other information that you 
could provide to us on that.
    But what is the situation in Turkey in general and your 
view on this proposal to sell attack helicopters? Have those 
benchmarks been realized?
    Mr. Koh. As I understand it, the government of Turkey has 
narrowed the field in terms of the manufacturers who are still 
competing on that bid and so we're not at the point yet where 
they've selected an American bidder or an export license is 
actually being requested.
    I think it's pretty clear that if Turkey does choose a U.S. 
manufacturer, our export license decision is going to be based 
on the full range of considerations that are required by law, 
our arms export control policy, as well as a thorough review 
and evaluation of Turkey's progress on improving human rights.
    This has been one of the prime areas in which I have 
devoted my time. In August 1999, I went to Turkey for 10 days. 
I think that's the longest trip I've spent in any single 
country, including a number of days in the southeast. I went to 
Komlerfa, Diarbakur, the whole region in which the set of human 
rights concerns have been raised.
    I returned for the review conference in Istanbul and I 
returned with the President and Secretary Albright at the end 
of November. During that period, I opened up a human rights 
dialogue with the state human rights minister, Mehmet Ali 
Irtemcelik, with the justice minister, Mr. Sami Turk. I visited 
Layla Zana, Akin Birdal, and have continued to focus on these 
questions.
    You had a hearing of the Helsinki Commission on the road to 
Istanbul in which Mark Grossman, the Assistant Secretary for 
European Affairs, and I both testified in which I reviewed the 
human rights situation.
    You are correct that in 1997, in December, President 
Clinton and then President Ilmas did discuss the issue of 
attack helicopters and identified a number of important 
benchmarks with regard to decriminalization of freedom of 
expression, the release of journalists, prevention of future 
prosecution of journalists, addressing of the problem of 
torture and impunity, reopening of human rights NGO's, the 
implementation of the 1995 constitutional amendments regarding 
political participation, meaningfully ending the state of 
emergency in the southeast and allowing refugees of evacuated 
villages to go home.
    Now, I discussed a number of these in March 1999 when I 
testified before the Helsinki Commission and we have tried in 
our country reports to give the basis on which an assessment 
can be made in these areas.
    I think it's fair to say that with regard to torture, the 
government has announced some important polices, a no tolerance 
circular, but that, in fact, on the ground, there are serious 
continuing problems with regard to torture. President Demirel 
said, when President Clinton was there, we do have a torture 
problem, and just last week the parliamentarian in charge of 
the human rights commission there, Mrs. Selma Piskins, reported 
that there were, in a raid on a local police station, torture 
instruments discovered.
    In the area of freedom of expression, this continues to be 
a serious problem. There have been efforts to bring about 
legislative reform, particularly the lifting of Article 8 and 
312, but, in fact, the net result has been two new laws with 
continuing restrictions.
    There have been raids on newspapers, harassment of 
journalists and a number of high profile journalists, 
particularly Andrew Finkel of Time Magazine and Nadira Mater, 
who is the author of a well known book about the plight of the 
southeast, have continued to be subject to continuing 
restrictions.
    With regard to NGO's, there have been a number of NGO's 
that have been reopened, but a number which continues to be 
closed, particularly branches of the human rights association 
in Malatya. The Mersin Migrants Association was, however, 
recently allowed to open. Mr. Birdal, who I met in Istanbul and 
I think we were helpful in securing his release, had been 
released on medical grounds, but he continues to face 
supervision.
    On the political participation question, I think the 
question of whether the government will seize the opportunity 
presented by the arrest of Mr. Ochelon remains very much up for 
grabs. Three of the Kurdish mayors from the Hadab party, 
particularly Mr. Ferdin Chellick, with whom I spent time in 
August, were arrested, and as I mentioned in my oral statement, 
were released, but are still pending trial.
    As I said when we released the country reports, we find 
this to be a very puzzling, very disturbing set of events. 
There are allegations that they were tortured while in 
detention. When there were protests about their detention, 
there were restrictions on freedom of expression.
    I think the general issue of the Kurdish question and the 
conditions in the southeast remain a very serious concern. We 
think that the government needs to move forward on this 
question, to recognize Kurdish language rights and cultural 
rights. The state of emergency has been lifted in the Province 
of Sert, but continues in five other provinces, and although a 
number of people have been evacuated forcibly, only a small 
percentage have been resettled.
    So I think we do have continuing concerns about these 
issues. I will say, as I said in my oral testimony, that the 
Ecevit government has had a number of important statements and 
recognitions of the need to address these questions. Foreign 
Minister Jihm, Ismael Jihm said that he was firmly of the 
belief that the Kurdish issue ought to be addressed. Sami Turk 
and the human rights minister have spoken out aggressively on 
the torture issue.
    I met with Prime Minister Ecevit in August and he is 
himself a former journalist who I think is committed to 
progress on this issue. I think the Helsinki, of which I and 
you are Commissioners, will continue to look into the question 
and make sure that the human rights record remains under 
careful review.
    Mr. Smith. The Chair recognizes Joseph Rees, the Staff 
Director, and Chief Counsel.
    Mr. Rees. I have what I hope will just be a couple of very 
brief questions. Assistant Secretary Koh, you mentioned the 
asylum advisory opinions, the asylum profiles that your office 
produces, and I think we've talked about these before.
    The last I checked--and I hope that things have changed 
since shortly after last year's hearing, when we looked into 
this--some of those profiles contained information that was 
years old.
    The quality of the profiles is not nearly as high as the 
quality of the country reports. Often, there is boilerplate 
that tends to talk about how many fraudulent cases there are. 
They really look, in some cases, like a recipe for denial in 
asylum cases.
    Specifically on the forced abortion cases from China, 
although these comments are not limited to that, there was 
information which has long since been discredited about how 
there aren't many forced abortions and so forth. If you could 
only do one thing in a timely way to eliminate the lag time 
between information that might tend to help asylum applicants 
that your office has--and I know you appreciate with this, with 
your own background--getting it into the hands of asylum 
officers and immigration judges should be a top priority, 
because it's not like nothing is happening while you're waiting 
to eliminate that lag time.
    People are being denied and it is of course, wrong for them 
to be denied on the basis of information which is not correct.
    I know that I speak for the Chairman in asking that you put 
in place, if you haven't already and maybe you already have, a 
system to ensure that outdated information will not be used to 
deny asylum claims if subsequent information in the possession 
of the bureau would tend to support those claims.
    Mr. Koh. Mr. Reese, you and I have both spent most of our 
careers representing asylum seekers, and so I completely share 
your sentiments. I do think that we, in our bureau and 
particularly the office of country reports and asylum, are 
struggling to deal with a massive workload, much of which is 
imposed on us by bills that have been passed by Congress, 
salutary bills, in many respects. But without a full awareness 
of the kinds of burdens that it imposes on us, and there are 
other bills that are pending which would impose new reporting 
requirements and, frankly, which make it difficult for us even 
to spend the enhanced resources that we have to do all the 
things that we need to do.
    On the China asylum profile, your point is something we 
completely accept, it's one that we have discussed in the past. 
We are sending one of our officers from the country reports and 
asylum team to China to make sure that all the information 
there reflects not just the country report, but also the most 
current information. But frankly, to be able to do this, with 
all of our asylum profiles and the tiny staff that we have, is 
extremely difficult.
    So we're really struggling to do everything we have to do. 
I don't exaggerate to say that this is the hardest working 
group of people I've ever worked with, the most committed, upon 
whom new mandates fall every day.
    When this bureau started in 1977, we had two mandates and 
we now have 55 mandates. Without a significant expansion of 
resources, I do think Secretary Albright has really committed 
herself to try to give us more resources, but as you know, the 
entire pie has been restricted and every day there is a fight 
for new resources.
    It's something that I didn't appreciate outside of the 
executive branch and now that I am here, it's, for me, one of 
the greatest challenges as to how to address this question.
    Mr. Rees. You ought to try working in the Legislative 
Branch. We're not trying to gainsay that, but frankly, as 
between sending out a wrong report and not just sending out a 
report at all, it would be better if you didn't send out a 
report at all.
    You mentioned the ratification of CEDAW. One of the 
concerns that the Chairman and other Members, primarily on the 
Republican side, and Senators have had is that some of the 
language in CEDAW might be used to create an international 
right to abortion.
    The Administration, although it supports abortion rights in 
domestic U.S. policy, has said that it does not favor the 
creation of an international human right to abortion. Yet, 
recently, this fear has become more than a fear, it's become a 
growing reality.
    When CEDAW commissions in country after country have been 
recommending, as part of their mandated recommendations, to 
countries, that in order to comply with CEDAW, those countries 
have to legalize abortion.
    Is that one of the reservations that the Administration has 
prepared to make sure, to make clear, that in order to comply 
with CEDAW, a country does not have to provide legal abortion?
    Mr. Koh. As you know, Mr. Rees, this is an issue that's 
addressed under our own constitutional law. I think it's the 
CEDAW issue and the package of reservations, understandings and 
declarations, under which it would be ratified, were really 
settled in 1994, when the Foreign Relations Committee reported 
the convention favorably to the whole Senate. At the time, 
Senator Helms proposed an additional understanding to clarify 
his concerns.
    At that moment, some 68 Senators, which is more than two-
thirds, had written a letter to President Clinton, urging him 
to take the necessary steps to ratify the convention, but then 
later, because of a parliamentary motion, a hold was put on it 
and since 1994, the Senate has taken no additional steps toward 
ratification.
    Indeed, if the concerns that you have are ones that are 
widely shared, the best solution would be to hold hearings and 
let those concerns be vetted. But the fact of the matter is 
that there have been no further hearings on this question 
before the Senate Foreign Relations Committee.
    As I pointed out, 165 countries have ratified or exceeded 
to this convention and it's one I think that the UNICEF has 
issued a report in which they have chronicled all of the 
different countries in which it has been passed and the 
tremendously salutary impact that ratification of CEDAW has 
had.
    Let me put it bluntly. With regard to countries who have 
ratified, we look bad, because frankly we have better records 
on equality of rights, but we don't get the credit. With regard 
to the countries that don't ratify, we look bad because then 
we're put in their company.
    I think it's, something on which the Senate obviously has 
the lead because of its treaty ratification power. But on 
today, International Women's Day, it's a good day to say this 
is a treaty that ought to move, ought to be ratified, that we 
ought to be a part of. Frankly, it's embarrassing for me, as 
the executive branch representative, to go to meetings around 
the world and be asked why we haven't ratified it and to have 
no good explanation, other than the fact that people have 
concerns about it that have not been aired in new hearings in 
the last 6 years.
    I think if the concerns that you raise are legitimate, they 
ought to be aired by having hearings before the end of this 
Senate session and then to try to get this ratified, so we can 
join the vast majority of other countries who have ratified 
this convention and benefited by it.
    Mr. Smith. Mr. Secretary, thank you very much for your 
testimony. You've been here slightly in excess of 3 hours. We 
do appreciate it. I do hope you will join us on Tuesday at the 
Northern Ireland hearing as a Commissioner of the Helsinki 
Commission.
    Mr. Koh. Thank you very much and thanks for staying through 
the whole thing.
    Mr. Smith. I would like to ask our second panel, and I 
thank you in advance for your patience. Elisa Massimino, is the 
Director of the Washington, DC Office of the Lawyers Committee 
for Human Rights. Ms. Massimino, who earned her law degree from 
the University of Michigan, directs the Lawyers Committee's 
National Advocacy Program, with special focus on refugee 
issues.
    Next, we will hear from Carlos Salinas, who is the Advocacy 
Director for Latin America for Amnesty International USA. Mr. 
Salinas who has worked with Amnesty since 1986, earned his 
Master's degree in Latin American studies from Georgetown 
University.
    Next we will hear from Nina Shea, who is a Member of the 
United States Commission on International Religious Freedom, as 
well as the Director of the Center for Religious Freedom at 
Freedom House. A lawyer specializing in international human 
rights issues, for the past 12 years she has focused 
exclusively on the issue of religious persecution.
    Finally, we will also hear from Dr. Alison DesForges, who 
is a consultant to Human Rights Watch, who has undertaken some 
two dozen missions to the Great Lakes Region of Central Africa. 
She has provided expert testimony to the International Criminal 
Tribunal for Rwanda, as well as to judicial authorities in 
Canada, Belgium, and the United States. Trained as an historian 
at Harvard and Yale Universities, Dr. DesForges is the author 
of ``Leave None to Tell the Story,'' the definitive account of 
the Rwanda genocide, published last year by Human Rights Watch.
    Elisa, if you would begin.

   STATEMENTS OF ELISA MASSIMINO, DIRECTOR OF WASHINGTON, DC 
           OFFICE, LAWYERS COMMITTEE FOR HUMAN RIGHTS

    Ms. Massimino. Thank you. Thank you, Chairman Smith and 
Members of the Committee, for convening this hearing and for 
asking us to share our perspective on this year's State 
Department country reports.
    We are deeply appreciative to you, your staff, and all of 
the Members of the Committee for your steadfast concern for 
these issues and your continued efforts to highlight human 
rights in the Congress.
    Mr. Chairman, I have a written statement which I would like 
to summarize for the record.
    Mr. Smith. Without objection, yours and all the other full 
statements will be made a part of the record.
    Ms. Massimino. Thank you. The Lawyers Committee for Human 
Rights works to protect and promote fundamental human rights, 
holding all governments, including our own, accountable to 
standards contained in the universal declaration of human 
rights and related international human rights instruments.
    We focus our work on how best to protect human rights in a 
lasting way, by advancing international law and legal 
institutions, by working to build structural guarantees for 
human rights in national legal systems, and by assisting and 
cooperating with lawyers and other human rights advocates who 
are the front line defenders of human rights at the local 
level.
    As Secretary Koh pointed out, it's especially fitting to 
hold these hearings today, Mr. Chairman, on International 
Women's Rights Day.
    Five years ago, women from around the world gathered 
together to affirm what to many might seem a truism: that 
women's rights are human rights. Yet today, as detailed in many 
of the reports before us, we are witnessing an increase in 
extreme violations of women's human rights--in political life, 
in the workplace, and in the home.
    As documented in the pages of these reports, women are 
beaten by their husbands, raped with impunity, denied the right 
to vote, denied basic health care and education, forcibly 
sterilized, driven, in China, as you pointed out, to suicide at 
an astonishing rate, sold into sexual slavery, and killed by 
their relatives to uphold family honor.
    These abuses are truly horrific. The State Department, 
under Secretary Albright's leadership, is to be commended for 
having given a much higher profile to defending the rights of 
women. But it is disturbing to us that the United States, which 
has exercised such leadership in advocating for the rights of 
women around the world, remains outside international consensus 
by failing to ratify the Convention on the Elimination of All 
Forms of Discrimination Against Women.
    Ratification of CEDAW will strengthen U.S. efforts to 
advance the rights of women throughout the world and will give 
the United States a greater voice in shaping national and 
international policies, as you pointed out, Mr. Rees, that 
affect the lives of women.
    The United States should not let another March 8th go by 
without becoming a party to this important human rights treaty.
    The State Department's reports cover 194 countries, but 
there is one country whose record is not analyzed in that 
document, and it's the United States. A couple of years ago, 
when we held this hearing, Congressman Houghton asked the 
question ``I wonder how other countries view our human rights 
performance?''
    Since that time, the U.S. has conducted its own analysis of 
U.S. performance under the Convention Against Torture, and 
Secretary Koh is to be commended for his role in helping to 
produce that report.
    We have many problems of our own, and I didn't want today 
to go by without us talking a little bit about that. One of the 
pieces of legislation that this body will soon consider is an 
effort to address some of those problems; in particular, the 
problem of torture in this country.
    You see in the reports before us page after page after page 
of serious violations. We are rightly proud in the United 
States of our own human rights record in many, many areas, but 
there are some areas in which we fall short, and, regrettably, 
there are instances of torture in the United States. This 
legislation which is soon to be introduced would make torture, 
per se, a crime and prosecutable as a crime in the United 
States.
    Mr. Chairman, as you know, the quality and accuracy of the 
country reports have been of great concern to the Lawyers 
Committee since the Department of State was first mandated to 
present these reports to Congress almost 25 years ago. 
Beginning in 1979 and until 2 years ago, the Lawyers Committee 
published an extensive annual critique of the reports, and we 
continue to believe that they require and benefit from critical 
input by the nongovernmental human rights community.
    In recent years, we have witnessed a steady improvement in 
the objectivity and comprehensiveness of the reports and we 
commend Secretary Koh and his very able State Department 
colleagues for their professionalism and diligence in the 
production of these reports.
    One of the distinguishing marks of a good country report is 
the degree to which it reflects extensive consultation by U.S. 
embassies with local human rights advocates and NGO's. Today's 
hearing is an important forum in which U.S.-based NGO's can 
critique our own government's reporting and highlight needed 
changes in next year's edition of the country reports. We 
welcome this opportunity.
    I would like to single out three countries for special 
notice in my oral comments today. In doing so, I recognize that 
my very distinguished colleagues with whom I share this panel 
will cover many of the other countries. I am quite humbled 
being on a panel with such distinguished human rights experts 
as we have here before us today.
    China, Turkey and Mexico are the three countries which I 
would like to focus on. In each of these countries, widespread 
and persistent human rights violations continued throughout 
1999. The conduct of each of these three states presents a 
serious challenge to the integrity of the international human 
rights treaty regime and of the institutions that the 
international community has established to enforce compliance 
with human rights norms, and, in each instance, the nature of 
the response by U.S. policy makers will have profound 
bilateral, regional and even global ramifications.
    With respect to China, the report includes an extremely 
thorough and generally accurate description of the downward 
spiral in China's human rights performance during 1999. The 
report properly focuses on the crack down on China democracy 
party leaders and highlights the fact that by year's end, 
``only a handful of dissidents nationwide dared to remain 
publicly active.''
    In addition, the report contains extensive information on 
government repression directed against religious practice. 
Chinese law and practice reveals a deep hostility toward 
``unofficial'' religious belief, and those who seek to exercise 
their right to freedom of religion are frequently punished, in 
some cases severely.
    As China struggles with extraordinary economic, social and 
environmental challenges, nothing is more important to its 
future stability than the expansion of the right to freedom of 
association and the free development of critical voices in the 
nongovernmental sector.
    As such, an area of the State Department's report which 
continues to be disappointing is its discussion of regulations 
on the NGO sector in China. As the report notes, these impose a 
variety of new obligations on those seeking to register as 
nongovernmental organizations. The conclusion of this section 
of the report, ``preexisting groups report little or no 
additional interference by the government since the new 
regulations came into effect,'' is misleading.
    Indeed, in light of the statement later in the China report 
that ``there are no independent domestic NGO's that publicly 
monitor or comment on human rights conditions,'' it is 
astonishing that the discussion of NGO regulations fails to 
reach any opinion on the degree to which these restrictions 
impose unreasonable burdens on civil society in China or 
contravene existing international norms on freedom of 
association.
    Unfortunately, the superficial treatment of freedom of 
association, especially for domestic human rights advocates, 
remains a persistent weakness of many of the country reports.
    This is particularly disappointing in light of the adoption 
by the U.N. General Assembly recently of the Declaration on 
Human Rights Defenders, which breaks new ground in defining an 
international consensus on the content of the right to freedom 
of association. Future reports we hope will rectify this 
weakness.
    The report contains a detailed analysis of China's efforts 
to block the flow of information over the internet. China is 
trying to sustain expansion of the internet and other 
communications infrastructure, while also expanding 
restrictions on its content and use, a balancing act that seems 
destined ultimately to fail.
    Internet expansion may prove to be an arena where the line 
between an opening economy and political liberalization becomes 
blurred, and the United States should be doing all it can to 
promote this trend. In light of the detailed information 
contained in the report about widespread restrictions on 
internet use, the report misses an important opportunity by 
failing to describe how these restrictions, which include 
special internet police units, not only interfere with the 
right to private correspondence, the section in the report 
under which these restrictions are described, but have a 
negative impact on the exercise of many other core rights.
    The report devotes considerably more attention than in past 
reports to an analysis of numerous legal reforms, including the 
criminal law, the criminal procedure law, the administrative 
litigation law, the state compensation law, and the lawyers 
law, and makes an initial assessment of whether these reforms 
are leading to better human rights protections for Chinese 
people.
    Future reports should maintain their focus on the range of 
legal reforms, all of which, to the degree they are 
implemented, have the potential to enhance the rights of 
Chinese citizens vis-a-vis the state.
    This emphasis on systemic legal problems should serve as a 
model for all of the country reports.
    As China grapples with its ongoing legal reform process and 
as Chinese citizens acquire greater consciousness of their 
rights, a central question before the U.S. Government is how 
outsiders can best contribute to moving that process in the 
direction of greater compliance with international human rights 
standards.
    The report notes that China has had human rights dialogues 
with a large number of countries, but admits, frankly, that 
these dialogues ``have not produced significant improvements in 
the government's human rights practices.''
    In light of this failure and in the face of serious 
violations, such as those that took place in 1999, these 
dialogues certainly cannot substitute for the traditional 
measures of external pressure, such as a resolution at the U.N. 
Commission on Human Rights.
    Despite the comprehensive nature of the report on China, it 
is marred in places by language that seems designed to blunt 
criticism of government practices. Particularly disturbing is 
what seems to be an increased use this year of reference to the 
motivations of the government in perpetrating abuses, as if 
somehow to excuse or minimize the violations.
    For example, after stating that ``the government continued 
to commit widespread and well documented human rights abuses in 
violation of internationally accepted norms,'' the report cites 
the government's ``fear of unrest'' as one of the reasons for 
these abuses. When ``communist party leaders moved quickly to 
suppress'' political dissidents, it was because ``they believed 
them to be organized challenges that threatened national 
stability.''
    Finally, in a recitation of the ``positive trends in 
China,'' the report implies that the government suppresses only 
``those perceived to be a threat to the government power or to 
national stability.'' Yet, as the report outlines, who are 
these people that are threats to national stability? They are a 
man who sought, in accordance with tradition, to sweep the 
graves of some students killed in Tiananmen Square, a man who 
seeks to worship as he pleases or a couple who longs for a 
second child.
    In her remarks on the release of the country reports, 
Secretary Albright noted that ``China is perhaps the most 
prominent example of a country with which we have substantial 
and well known differences on human rights, but with which we 
are also engaged on a wide variety of other issues.''
    Now, this may be a simple and straightforward statement of 
fact or policy, but this oft-repeated refrain of the 
Administration reflects, I think, a fundamental and persistent 
error in U.S. policy toward China. The litany of abuses 
detailed in this year's report are not and should not be 
portrayed as merely differences in one aspect of a multi-
faceted bilateral relationship.
    This year's report details profound and widespread 
violations by China of internationally recognized human rights 
norms, and these violations must--and must be seen by China 
to--affect every aspect of its relationship with the United 
States.
    This is not to say that promotion of human rights is 
necessarily served by disengagement with China. Quite the 
contrary. Further engaging China in the web of international 
agreements and norms could hold the potential to catalyze 
change in the long term. Legal reforms have new resonance in 
China in the context of an opening economy, and attempts to 
reform China's commercial legal system could provide a 
foundation for an independent judiciary and other essential 
elements of an accountable justice system. But this must be 
combined with consistent pressure for improvements from outside 
China.
    That is why the pursuit of a resolution condemning China's 
dismal human rights record at the Human Rights Commission is so 
important. We commend the Administration for pursuing this, as 
well as those in Congress who have consistently called for such 
a resolution.
    Although engagement may provide a framework in which to 
foster human rights improvements, engagement must be toward a 
purpose and will not of itself necessarily lead to any changes 
in China's human rights performance.
    Human rights concerns must permeate our interactions with 
China in all of the areas with which we engage the Chinese 
government. China should not be able to cutoff dialogue or 
avoid criticism by the United States about its human rights 
violations simply by refusing to meet with U.S. officials who 
carry a human rights portfolio.
    Human rights violations in China undermine U.S. strategic 
and economic interests there, and that judgment should be 
reflected in every high level meeting between U.S. and Chinese 
officials.
    Human rights should not be portrayed to the Chinese as an 
area where we will agree to disagree.
    The report on Turkey is comprehensive and well informed. 
This extremely thorough analysis reflects a serious commitment 
on the part of U.S. diplomats in Turkey and in the DRL bureau 
to follow human rights developments there. Detailed 
information, such as that found in the extensive section 
regarding torture, is in part available because U.S. 
representatives have been present at many high profile trials 
with a human rights dimension throughout Turkey.
    Torture, unfair trial and restrictions on nonviolent 
freedom of expression remain widespread problems, as the State 
Department report recognizes. These problems must be remedied, 
and this message has been delivered at the highest levels of 
the bilateral relationship, notably during President Clinton's 
visit to Turkey last November, including in his address to the 
Turkish Parliament.
    As the report rightly emphasizes, a climate of impunity for 
human rights abuse in the security forces is an enormous 
obstacle to improving Turkey's human rights record, 
particularly in the area of torture. In the few cases where 
prosecutions and convictions of police officers have occurred, 
such convictions were reversed on appeal. The report makes note 
of the directive issued by Prime Minster Ecevit on June 26, 
1999, authorizing prosecutors to carry out unannounced 
inspections of detention facilities to monitor the well being 
of criminal suspects in detention.
    Although the report outlines the preliminary results of 
these inspections, it fails to note the remaining obstacles to 
resolving this serious problem.
    The June directive alone will not be sufficient to resolve 
the problem of torture in detention. We have looked at this 
problem quite extensively and have recently published a report 
entitled ``Obstacles to Reform,'' which I would like to share 
with you later, which details the steps we think need to be 
taken in order to remedy this situation.
    The report asserts, in its opening paragraph, and I think 
this is probably the most distressing part of the Turkey 
report, that ``the government generally respects the 
constitution's provision for an independent judiciary.''
    Last year, in our testimony, we criticized the report for 
stating that ``the government respects the constitution's 
provisions for an independent judiciary.'' This year the report 
states that ``the government generally respects the 
constitution's provisions for an independent judiciary,'' and, 
again, this assertion is simply not borne out by the facts.
    State security courts try civilians accused of crimes 
against the state, including individuals accused of nonviolent 
actions. Many prosecutions in such courts appear to be 
politically motivated, such as those brought against leaders 
from the political Islamic movement, the mayor of Istanbul, and 
nonviolent political leaders associated with the Kurdish issue. 
Advocates such as Mr. Birdal, who you heard Secretary Koh 
mention he had met with, have been brought to trial before 
state security courts as a result of statements or publications 
criticizing the government's human rights practices.
    After miraculously surviving an assassination attempt, Mr. 
Birdal faces trial yet again this month, in just a couple of 
weeks, for speech the government found offensive. These 
prosecutions are not ``independent.''
    Despite these obvious examples demonstrating the lack of 
independence in the judiciary, the State Department report 
fails to provide a forthright critique of the problem. Instead, 
we get confusing assertions, such as ``the constitution 
provides for an independent judiciary and, in practice, the 
general law courts generally act independently of the executive 
and legislative branches. However, various officials 
acknowledge the need for legislative changes to strengthen the 
judiciary's independence.''
    In commenting on the NSC--that's the Turkish NSC--
directives identifying threats to the state, the report merely 
concludes that such communiques ``could be interpreted'' as 
instructions to the judiciary. As for the dominant role of the 
high judicial council and the appointment of judges, the report 
fails to speak in its own voice or even to take a position, 
reporting only that ``some observers assert'' that this 
arrangement might undermine judicial independence.
    Many sectors of Turkish society are now sending a clear 
message to the government that the mistakes of the past should 
not be repeated. For example, the chairman of the high advisory 
council of the Turkish Industrialists and Businessmen's 
Association, TUSIAD, said, on September 10, 1999, that ``the 
democratic transition can be delayed no more. We are telling 
our politicians to listen to society's voice.'' He noted in 
particular that in Turkey, ``we are way behind in matters of 
freedom of thought and expression, to the extent that it has 
become a threat to our national progress.''
    A strong, clear and unwavering U.S. human rights policy 
toward Turkey is particularly essential now to ensure that the 
Turkish government capitalizes on this current climate of 
potential change.
    The State Department report on Mexico includes an extensive 
section on the prevalence of torture in the context of the 
criminal justice system. This section is quite forceful and 
accurately identifies many of the most serious issues relating 
to this problem, using clear, straightforward language.
    The report notes, ``the police regularly obtain information 
through torture, prosecutors use this evidence in courts and 
the courts continue to admit as evidence confessions extracted 
under torture.'' It doesn't get much clearer than that. We'd 
like to see that kind of language in many of the reports on 
countries where torture is a problem.
    The report also notes that this problem derives in part 
from the fact that police and prosecutors do not have proper 
training and equipment and so often rely on torture as an 
investigative tactic, and in this way the report highlights the 
fact that reliance on torture in criminal investigations not 
only constitutes serious human rights abuse, but is also not an 
effective crime-fighting technique.
    The report notes that ``police officers often attempt to 
solve crimes by rounding up likely suspects and then extracting 
confessions from them by force.''
    In contrast to the section dealing with torture, however, 
in some other areas the report resorts to formulaic statements 
in order to avoid a more profound analysis regarding human 
rights problems in Mexico.
    For example, the report states that the judiciary is 
independent, while noting that it has, on occasion, been 
influenced by the executive branch. Yet the laws regarding 
appointments to the bench, which allow for heavy executive 
branch influence over this process, and the lack of lifetime 
tenure for judges, present real problems for the independence 
of the judiciary in both law and practice.
    The report also states that court hearings are open to the 
public, but this is misleading and does not reflect an 
understanding of the actual practice of hearings in Mexico. 
There are no courtrooms in Mexico. Generally, four or five 
hearings are conducted simultaneously before the same judge at 
several tables in a busy room. There is no opportunity for the 
public or press to actually hear what transpires in any of 
those hearings, nor is the judge generally present.
    In several cases, the report addresses serious human rights 
problems by stating, without taking a position of its own, that 
human rights organizations have criticized certain measures 
adopted by the Mexican government. For example, the report 
notes that the new Federal Preventive Police includes 
approximately 5,000 transferred military personnel. The report 
then notes that the inclusion of former military personnel led 
to criticism from some human rights NGO's. Yet the report makes 
no independent comment on this point.
    The report's reluctance to fully address this issue may 
have to do with the fact that the United States has encouraged 
military involvement in civilian law enforcement activities in 
Mexico as a strategy in the fight against drug trafficking. 
Similarly, the report notes that the military continues to 
handle cases of civil and human rights matters involving 
soldiers.
    The report then notes that calls for reform of the military 
justice system and criticism of it have increased. However, the 
report makes no comment about the need for these reforms.
    Similarly, the report states that the government respects 
the rights of assembly and association and that a wide variety 
of human rights groups operate largely without government 
restriction. This assertion is not borne out by the facts, even 
those set out in the report itself.
    As the report states, the government has been accused of 
harassing NGO's, especially in the state of Chiapas. The report 
also notes that PRODH, a noted human rights reporting and 
action center, members of which recently visited the United 
States, and other organizations are receiving death threats, 
and the investigations into these threats have not yet yielded 
any concrete results.
    Mexican law and practice, in fact, creates a disabling 
environment in which human rights defenders are frequently 
harassed and intimidated.
    The Lawyers Committee has recently published a briefing 
paper analyzing restrictions on Mexican NGO's and laying out a 
detailed plan for improvements by the Mexican government.
    United States policy toward Mexico, which tends to be 
driven largely by concerns about immigration and drug 
trafficking, should focus on pressuring the government of 
Mexico to adopt these reforms.
    In conclusion, these comments represent our initial 
reaction to the country reports, and we look forward eagerly to 
a more substantive discussion of the reports with 
Administration officials and interested Members of Congress 
once we have had the opportunity to carry out a more extensive 
review of their content.
    Nonetheless, even a brief examination of a few key 
countries makes apparent the general accuracy and 
professionalism of the country reports and their enormous 
contribution to our knowledge of human rights conditions around 
the world.
    The challenge remains, as always, to close the sometimes 
striking gap between human rights reporting and the realities 
of foreign policy decision making.
    Thank you. Mr. Smith. Ms. Massimino, thank you very much 
for your testimony. I think so much of what you said bears 
repeating, but the point that you made about ``abuses should 
not be passed off as differences,'' that's a very good spin 
that is used by the Administration and it certainly doesn't 
serve the cause of human rights, to just say that could be put 
over in this compartment.
    So I appreciate you underscoring that in your testimony.
    I'd like to ask Mr. Salinas to begin.

   STATEMENT OF CARLOS SALINAS, ADVOCACY DIRECTOR FOR LATIN 
               AMERICA, AMNESTY INTERNATIONAL USA

    Mr. Salinas. Thank you, Mr. Chairman, Members of the 
Committee. It is our distinct pleasure to accompany you to help 
you assess the State Department's 1999 country reports. I think 
Ms. Massimino has really laid the challenge that we would like 
to address, which is that wide gap, that yawning gap, between 
foreign policy decision making and the information that the 
U.S. Government holds and knows to be true.
    Before I get to that, though, I would like to extend some 
words of thanks to all three of you for specific human rights 
actions you have taken in this past year. It's good to look at 
the reports, but it's also good to look at specific actions 
that have been taken. The information without action is 
essentially a tome that gathers dust on the shelf.
    Mr. Chairman, from your multiple hearings to what we 
consider to be a significant achievement that you deserve a 
great deal of credit for: the increase in the budget for the 
human rights bureau, although we know that we have to monitor 
that very closely to ensure that certain paper games aren't 
played and the budget really is increased, to your fight last 
year to add additional expertise to the Office of the Assistant 
Secretary for Human Rights.
    We disagreed with the voices that opposed that effort. We 
believe that it would have added something very valuable to 
your continued vigilance with these hearings. You provide an 
important forum for the human rights community, but also for 
Congress, to zero in and focus on this important issue.
    So we would like to thank you publicly for that.
    Congresswoman McKinney, you were and are an important 
leader in the issue of arms transfers. We supported the code of 
conduct, your version that you had here in the House of 
Representatives. You not only have been a leader also in the 
systemic issues, but also in the specific country regional 
issues, whether it be the Great Lakes in Africa, to, from what 
I understand from our human rights and the environment program 
folks, even contemplating some important work with the 
indigenous communities in Ecuador, and we thank you for that.
    Congressman Delahunt, you are the proverbial voice crying 
in the drug war wilderness of election year politics. Your 
leadership has been significant and it's particularly important 
as we are on the eve of what could be, in our opinion, a very 
disastrous choice by the U.S. House of Representatives. We 
thank you for being that voice for raising the issues that need 
to be raised and for trying to provide some balance to the 
discussions on Colombia.
    Of course, my own pet project that I would personally like 
to thank all three of you for is for your co-sponsorship of the 
Human Rights Information Act.
    With that, I would like to first introduce you all to our 
legislative priorities. The Human Rights Information Act, H.R. 
1625, a bill to establish an orderly declassification process 
for human rights information, now enjoys 110 Members of the 
House as Co-sponsors and we are hoping for markup in the 
Subcommittee on Government Management, Information and 
Technology fairly soon, from what we understand from Chairman 
Horn and his staff.
    Five of the Members of this Subcommittee, in fact, are co-
sponsors. We will continue to work to make sure that all the 
Members of the Subcommittee become co-sponsors.
    We are also pushing for the ratification of the Convention 
on the Elimination of All Forms of Discrimination Against 
Women. In the House, what we have called for is support for 
House Resolution 107, which tries to express the sense of the 
House that CEDAW is worthy of support, and I think it is an 
important topic for us to engage, for us to try to understand 
where the potential pitfalls may lay, so that we can achieve 
clarity and ratify this important human rights treaty.
    We also would like to achieve a simple majority in the 
House of Representatives for the Congressional Human Rights 
Caucus. We think that this is a no-brainer. We think that 
everyone should be, like you all, very active Members of the 
Congressional Human Rights Caucus.
    Finally, we would like to get continued Congressional work 
on our Special Focus Cases of prisoners of conscience, people 
that we are calling for their immediate and unconditional 
release. These include the Mexican Brigadier General Jose 
Gallardo, whose crime was to call for the creation of a human 
rights ombudsman in the Mexican armed forces.
    We call for the immediate and unconditional release of 
Turkish human rights activist Eber Yagmurdereli, whose crime 
has been to advocate for Kurdish human rights in Turkey.
    We call for the unconditional and immediate release of 
Peruvian student Mirtha Bueno Hidalgo, whose crime was to have 
class notes that the security forces misinterpreted as being 
subversive literature.
    We call for the immediate and unconditional release of the 
Chinese student Chen Yanbin, who was arrested at the age of 23 
for protesting against the crack down that followed Tiananmen 
Square massacre and for being a pro-democracy activist.
    As we look at the specific action agendas, we have to come 
back to the country report, to the information the U.S. 
Government knows to be true, and ask why is there a gap between 
the knowledge and the action.
    As we look at that, we have to focus on some specific 
issues, and I think Ms. Massimino always does an incredible job 
in pointing out very important details that are actually quite 
relevant to the bigger macro picture that at first might seem 
not as important, but are very relevant.
    In general, we would say that one of the persistent, maybe 
even a chronic failure in the State Department's country 
reports is its failure to use its own voice.
    We believe that it's important to engage with NGO's on the 
ground, but we also believe that it's important that the U.S. 
Government make its own determinations about the allegations 
and issue some real determinations.
    I would meet the challenge Mr. Koh laid out in his opening 
remarks. We do believe that human rights is still an island off 
the foreign policy mainland. There is a gap between rhetoric 
and policy reality. Where could it be more clear than where I 
would like to focus: the failed Administration policy toward 
China, the incoherency of the foreign policy toward Colombia 
that's being proposed, and the possible irresponsibility of the 
Turkey policy.
    With regards to China, we welcome the fact that the 
Assistant Secretary announced early on the intention to 
introduce a resolution at the United Nations Commission on 
Human Rights and we believe that the general accuracy of the 
report will give him leverage.
    But not to be necessarily nitpicky, there was one omission 
that we found quite troubling. The report noted that business 
woman Rebiya Kadeer, her son, and her secretary, were detained 
in the Xinjiang region. It went on to state that Kadeer was 
detained on her way to meet a visiting foreign delegation and 
was charged in September for passing state secrets to 
foreigners.
    [Statement of Mr. Salinas appears in the appendix.]
    The report for some reason fails to mention the origin of 
this mysterious visiting foreign delegation. Mr. Chairman, 
Members of the Subcommittee, the foreign delegation was from 
the United States Congressional Research Service! This woman is 
in jail for meeting with Members of the Congressional Research 
Service. We cannot understand why a detail like that would be 
left off this report. One would assume that if U.S. Embassy 
officials would know anything, they would know about who U.S. 
officials are meeting with or failing to meet with.
    I would like to include for the record an Amnesty 
International report on this case and ask you all to ask the 
State Department for an explanation of this omission.
    Talking a little bit more about the gap between the 
information and policy, in about 20 minutes, we understand that 
President Clinton will be giving a speech on his China policy 
at Johns Hopkins University. We have a few questions that we 
would like to put forth.
    Will President Clinton's speech highlight the report's 
information or will this report lie dormant? Will President 
Clinton reflect the report's findings that China's poor human 
rights record deteriorated markedly throughout the year, as the 
government intensified efforts to suppress dissent?
    Will President Clinton demand that Ms. Rebiya Kadeer, who 
was arrested for meeting with Congressional Research Service, 
be released and thus call on Congress to endorse and pass the 
concurrent resolution calling for the same?
    Will President Clinton demand that the Panchan Lama be 
released? Will President Clinton demand that the crackdown on 
underground churches and ongoing religious persecution be 
stopped?
    Will President Clinton demand that forced abortions and 
sterilizations be stopped?
    Will President Clinton announce that he'll re-link human 
rights benchmarks to the normal trade relations debate that 
we'll engage in within Congress?
    These are some questions to consider as we try to 
understand what is the role of this information into policy.
    With Colombia, first, I'd like to say that I urge you all 
to consider the proposal that Mr. Delahunt has just made that a 
hearing be held. We do realize that the House is moving on a 
very fast track and, in fact, on Monday, Amnesty International 
and several other organizations following developments in 
Colombia issued a letter to House and Senate leadership asking 
that given the ramifications of this aid package, given the 
enormity, given the potential for a human rights and 
humanitarian catastrophe, that ample consideration and ample 
time be given to address all the many issues that have been 
raised in the context of this proposal.
    We have been going to the hearings, we have been observing 
the hearings. We've been amazed by the amount of questions that 
are remaining unanswered and these questions are coming from 
all sides, not just those who, like you, have an expressed 
interest in the human rights dimension, but from all different 
sides. We don't see clear answers coming from either the 
Clinton Administration or the Pastrana Administration.
    While the report is very forthright about paramilitary/
military links, there are important omissions. One key omission 
is a July counter-attack in Puerto Lleras by the Colombian army 
and the air force against an attack from the FARC. The counter-
attack had a devastating impact on the civilian population and 
this is not discussed in the country report.
    The civilian population was subjected to what are probably 
violations of international humanitarian law by the Colombian 
security forces. Not only is this troubling, but the human 
rights report does, in fact, refer to this very same attack by 
pointing out the very real problem of child soldier recruits by 
the FARC. So they point out the dead children who were members 
of the FARC, that resulted from this attack, but for some 
reason, there is no mention of the civilian casualties that 
took place during this counter-attack at the hands of the 
government forces.
    Furthermore, there is a very troubling news account that 
U.S. personnel may have participated in the counter-attack in a 
support capacity.
    I would like to ask you all to followup on the report that 
was issued by the Dallas Morning News in August and I'd like to 
offer that for the record. I just talked to the journalist, who 
is a bureau chief for the Dallas Morning News for South 
America, and was formerly foreign correspondent for the 
Washington Post. He is a person with very high standards, 
certainly it's never easy for me to pitch him a story.
    When I spoke with him, he made it very clear that he stood 
by his story 100 percent. So I think this is very troubling and 
needs to be followed up.
    Unfortunately, this is not the only troubling allegation 
involving the U.S. Government in Colombia policy. Just last 
week, Amnesty International called on the Department of Defense 
to explain a 1997 special forces training of Colombian 
personnel that took place at a location very close to a 
massacre cite, and we understand from Defense Department 
records and from Defense Department correspondence that there 
were special forces deployments both right before and right 
after the massacre that took place.
    We also understand from Defense Department correspondence 
that the Colombian unit trained immediately after the massacre 
was, the one whose personnel was implicated in this massacre 
and we would ask you all to please look into this. Senator 
Leahy and Congressman Jesse Jackson, Jr. have been making 
inquiries, but I think they could certainly use more support.
    Among the many issues, it can be raised that the 
correspondence that was sent to Senator Leahy listing the 
special forces deployments doesn't quite correspond to the 
information that was reported to Congress by the Defense 
Department on special forces deployment. So there is a 
discrepancy in what the Defense Department is conveying to 
Congress and somehow we have to get to the bottom of which 
dates are the correct dates and what did take place and what 
did not take place.
    But in the meantime, we continue to document one 
paramilitary massacre after another in Colombia. You may wonder 
what's the connection here and the connection is simply this: 
that you all will be asked to vote on an aid package with many 
unresolved questions, more than likely. We hear a lot about the 
creation of new rapid response mechanisms by the Colombian 
government.
    However, we would just like to see a response. In the San 
Jose de Apartado massacre on February 19, it was a massacre 
that took place over 25 minutes. The Colombian 17th Brigade was 
called within 6 minutes of the first killings or the first 
shots. They took three and a half hours to arrive there.
    What's further disturbing are credible allegations that it 
may have been members of the 17th Brigade itself that committed 
this atrocity.
    On the 29th of February, paramilitary members entered a 
community, finding that all the inhabitants had been wise 
enough and had fled, and proceeded to burn the village to the 
ground. What's telling is that the paramilitary presence had 
been denounced repeatedly to the Colombian authorities and the 
paramilitaries camped out for a full month about two miles from 
the Colombian army detachment, Heroes of Saraguro Battalion.
    So it's very hard to understand how a new layer of 
bureaucracy will help when the basics aren't being met.
    You will more than likely encounter or have probably 
encountered Vice President Bell from Colombia. He is certainly 
a very pleasant and articulate diplomat and he will try to 
convince you that the Pastrana government has the political 
will to tackle effectively the human rights situation.
    I would like to say to you what you would probably hear 
from many other human rights organizations that follow Colombia 
closely. The question of Colombia is not a question of a lack 
of resources, it is not a question of a lack of information, 
it's not even a question of a lack of credible information. 
It's a question of political will.
    I would venture to say that what the Pastrana government 
needs to do is fulfill its unimplemented mandates and its 
promises.
    I will tell you about four of these. For instance, he 
should establish the search block. President Pastrana first 
promised this in October 1998. He decreed the creation of this 
to go after paramilitaries. This search block wasn't an 
invention unique to the Pastrana administration. It was first 
announced by the Barco administration in 1989 and each 
successive administration, has when pressed about the 
paramilitary groups, stated, ``oh, we're going to create the 
search block to go after the paramilitaries.''
    If you ask Vice President Bell about this, you may get an 
involved treatise on the importance of nation building, as we 
did when we met with him on Monday.
    The Pastrana government needs to enforce the close to 400 
outstanding arrest warrants and detention orders issued by the 
attorney general's human rights unit. The majority of these 
arrest orders are on paramilitary members. However, if you ask 
Vice President Bell about this, you may yet vague numbers about 
new detentions, you may get one or two real concrete cases. But 
if you happen to ask for a time table and benchmarks on the 
enforcing of these arrest warrants, you may get, as I did, a 
blank stare.
    The Pastrana government also needs to pass a law for 
``disappearances,'' a law which has been repeatedly vetoed, 
President Pastrana no exception, since the administration of 
President Gaviria when it was first introduced. If you ask Vice 
President Bell about this, you may get contradictory excuses, 
as a large group of human rights organizations did on Monday. 
You may perhaps get fumbled attempts to explain legislative 
failings that did not happen, or principles that were not 
flagged early enough. You may even ask about what the 
government's strategy is to pass the legislation and he may 
tell you that they will be calling the legislators as soon as 
they return to session.
    One could go on. The key is that the problem is one of 
political will. We are now being told that a new layer of 
bureaucracy is being created. A very good example of how 
resources upon resources won't necessarily lead you to 
effective human rights protection is not only this Colombian 
case, which has a very vast and complex and well funded human 
rights bureaucracy, but the Mexican case and its National 
Commission on Human Rights.
    Because of the clear failings of the Colombian 
administration of President Pastrana and of the Clinton 
Administration, we call on you to stop the rush into what will 
probably turn out to be a humanitarian and human rights 
catastrophe, with a not so desired, but clearly visible ``made 
in USA'' label.
    We ask that you please do what you can to make sure that 
these unanswered questions are addressed.
    Finally, on Turkey, I think Mr. Koh was every eloquent when 
he went through the list of the benchmarks. I think it is very 
clear that the benchmarks have not been met and we hope that 
you ensure that the Administration vetoes or rejects the four 
billion dollar export license for further attack helicopters 
for essentially what will be further carnage.
    Thank you all very, very much. Mr. Smith. Thank you, Mr. 
Salinas. Mr. Delahunt has to leave, but asked if he could pose 
a question to you.
    Mr. Delahunt. Thank you, Mr. Salinas, for your generous 
words. In the Human Rights Watch, there is language that--let 
me quote it. It says ``Colombia's civilian investigative 
agencies, in particular the attorney general's office, are 
capable of sophisticated and hard-hitting investigations.''
    That's from their language. Do you agree with that 
statement?
    Mr. Salinas. Absolutely.
    Mr. Delahunt. You have confidence in that.
    Mr. Salinas. Yes. In fact, the problem is not so much their 
investigations. The problem is that when they do issue a 
detention order, they're not enforced. The security forces are 
not enforcing them.
    Mr. Delahunt. I had an opportunity in my last visit to have 
an extended conversation with Hami Bronow. I have yet to have 
had an opportunity to have a conversation with Mr. Gomez. It 
was a very good conversation. He is not a member of the 
president's party. Am I correct in that particular statement?
    Mr. Salinas. I'm not sure, sir.
    Mr. Delahunt. I think he's a liberal as opposed to a 
conservative. He is also, I understand, very much involved in 
the peace process, specifically as it relates to the ELN, and 
has taken a leadership role there.
    I ask these questions because earlier I had asked--
requested a hearing and you alluded to it in your remarks, by 
this Subcommittee, because as we know and as the Chair and my 
friend and colleague and Ranking Member from Georgia know, any 
legislation is a process. It's static at times and it's very 
dynamic at other times.
    I would anticipate that this will be a process that will, 
despite the fact the reality that it is scheduled to be in a 
fast track, hearings still are important to inform and to 
educate. I would think that if we extended an invitation, Mr. 
Chairman, to the attorney general, that he would be a very 
credible witness for us to hear and possibly we could encourage 
him to come to Washington and give us his perspective, because 
I found it very informative.
    Much of what he had to say about the Pastrana 
administration was positive, I think I should note that for the 
record, but the reason that I did specifically seek to have a 
conversation with him was based upon a statement by a Colombian 
General, Mestor Ramirez, in Miami, relative to the attorney 
general and Mr. Gomez being an enemy of the state. That caused 
me great concern, but I think it's best if I yield back my 
time, and since I have another appointment.
    But I would ask you again to consider that request. Thank 
you, Mr. Chairman.
    Mr. Smith. Thank you, Mr. Delahunt. Ms. Shea.

STATEMENT OF NINA SHEA, DIRECTOR, CENTER FOR RELIGIOUS FREEDOM, 
                         FREEDOM HOUSE

    Ms. Shea. Thank you, Mr. Chairman and Members of the 
Committee, for holding these important human rights hearings 
and for inviting me to testify.
    I am appearing today on behalf of Freedom House and I'm 
also a Member of the U.S. Commission on International Religious 
Freedom, an independent panel created by Congress to review 
U.S. Government policies regarding religious persecutors, and 
will be commenting for them, as well as Freedom House, on the 
countries of China, Russia and Sudan. These were the three 
countries that are the primary focus of the Commission during 
its first year. Before beginning, Mr. Chairman, I also want to 
express our deep appreciation for your personal dedication to 
ensuring that human rights concerns remain a force in U.S. 
foreign policy.
    This year's country reports reflect a monumental effort on 
the part of Assistant Secretary Harold Koh and his Bureau for 
Democracy, Human Rights and Labor, they and all the American 
foreign service officers who contributed to the reports deserve 
to be commended.
    As the reports have become comprehensive, they have come to 
be relied on by many policy makers, immigration officials and 
judges, the media and human rights defenders, precisely because 
the reports are viewed by many as authoritative, this exercise 
of providing critiques to continuously fine-tune and improve 
the reports is essential and not a matter of mere quibbling.
    Many of the reports, those on Pakistan, India, Burma, 
Afghanistan and North Korea, for example, provide excellent 
summaries of the status of religious freedom. Others need 
revision.
    As my colleagues who have already spoken have pointed out, 
the biggest problem with the reports is that their findings do 
not always correspond to American policy action.
    While there are various underlying explanations, part of 
the problem is attributable to the reports themselves. The 
reports contain an overwhelming and unselective compilation of 
facts and information, without reaching definitive conclusions 
or conveying a sense of priority.
    Fundamental human rights problems are lost sight of in a 
welter of detail. Severe violators are hidden in an avalanche 
of information. In some cases, this may be an attempt to 
downplay abuses and avoid making embarrassing conclusions about 
the conduct of valued allies and trading partners, reporting 
that might lead to calls for sanctions.
    I regret that Mr. Koh, in his remarks this morning, said 
that they will continue to resist attempts to rank or order 
these country reports. There is a real need to give focus and 
priority designation in a report of this magnitude and type and 
it's the best way of ensuring that appropriate focus and 
concerted attention is given.
    The world should know who is carrying out genocide and who 
are committing crimes against humanity.
    I'm not suggesting that the State Department undertake 
anything as elaborate as Freedom House's own systematic ranking 
of countries in its Freedom in the World Survey and our 
forthcoming Global Survey on Religious Freedom; however, a more 
selective listing of the most egregious human rights violators 
and violations is needed somewhere in this report. A model for 
this might be provided by the International Religious Freedom 
Act, which called for an annual report, as well, and also a 
designation of egregious religious persecutors as ``countries 
of particular concern'' and articulation of policy regarding 
those ``countries of particular concern.''
    The country critiques that I'm going to talk about today 
are examples of where critically important religious freedom 
problems are cited in the reports, but are swamped by a 
bewildering mass of unselective and unprioritized data. In a 
number of country reports, a consequence of obscuring important 
points of focus is that the wrong conclusion is reached about 
the overall status of religious freedom.
    Now, I turn to the reports of the three countries with 
respect to which I speak on behalf of both the Commission and 
Freedom House.
    Regarding China, a crucial point that the report fails to 
emphasize is that control of religion is manifestly a policy of 
the central authorities. Exercise of religion is tolerated only 
insofar as it serves the purposes of the state.
    Since the passage of the State Council regulations in 1994, 
requiring registration of all religious groups, China has shown 
a determination to ``manage'' exercise of religion according to 
law.
    In compliance with that policy, local authorities 
throughout the country have drafted restrictive regulations 
pertaining to the exercise of religion, while the degree of 
zeal with which the policy is implemented varies from province 
to province. The principle that religion must serve the state 
inherent in the Chinese communist party's Marxist ideology is 
promulgated through law and propaganda by the communist party.
    This fundamental fact should be highlighted, not mentioned, 
only--and not only mentioned on passing as one among hundreds 
of other facts in the 67-page China report.
    Similarly, it bears emphasizing in the 77-page report on 
Russia that the largest pending issue there is the status of 
the significant number of religion organizations that were not 
able to re-register before the December 31 deadline.
    Up to half of Russia's religious groups remain unregistered 
and according to the 1997 law, are now subject to liquidation. 
This month, for the first time to our knowledge, a local court 
has used the liquidation procedures to terminate a church and 
is now threatening to liquidate up to 13 others.
    Though this information became available only after the 
State Department report was published, many of the religion 
organizations have been and continue to be in an insecure legal 
situation that probably will not be resolved until after the 
Presidential elections in late April.
    The registration problem is fundamental to understanding 
religion freedom in Russia, for it points to the lack of legal 
and institutional security for religion in Russia.
    In addition, conspicuous in its absence is any discussion 
of the clearest harbinger of future religion persecution, the 
government's use of anti-Muslim language in its propaganda 
campaign to stir up support for its conflict in Chechnya. These 
facts merit priority treatment and analysis in the report.
    Essential facts are lost in the report on Sudan, to such a 
degree that it possibly qualifies as the weakest of the reports 
in the whole compilation, and this is--this country of Sudan is 
probably the worst human rights hell on earth, from my 
perspective.
    While the report mentions that two million people have died 
in the conflict, it fails to give a real sense of the scale and 
intensity of the government's prosecution of the war. At times, 
the report is erratic and unclear, even about the basic fact 
that religious persecution is at the core of the conflict.
    Tucked into the middle of a paragraph about press freedom 
is the critical finding, ``in the context of the Islamization 
and Arabization drive, pressure, including forced 
Islamization--on non-Muslims remained strong. Fears of 
Arabization and Islamization and the imposition of the Shari'a 
fueled support for the civil war throughout the country.''
    I was disappointed to see that Secretary Koh, in his 
remarks this morning, only devoted one sentence in his 
testimony, in his written testimony, to this situation, the 
conflict in southern Sudan. His remarks address extra judicial 
killings and disappearance, but doesn't scratch the surface of 
what is actually happening there and certainly doesn't sound 
any alarms about the scale of what's happening.
    As you know, the House of Representatives passed a 
resolution last June which characterized the Sudanese regime of 
``deliberately and systematically committing genocide.'' The 
Catholic bishops of East Africa made a similar assessment last 
August. The Nobel Laureate and Holocaust survivor Elie Wiesel, 
after reviewing the facts in many human rights reports, wrote 
to President Clinton in a letter, which is published in the 
current issue of the Jewish intellectual journal Sh'ma, that 
``I am haunted by what I know of Sudan,'' also calling it a 
genocide. So Congressman Tancreda was not the only one to call 
it a genocide this morning. He's in very good company.
    The Commission met with the Ambassador at Large for War 
Crimes, Mr. David Scheffer, just last week and he said that 
the--he told them that he has never looked into whether there 
is genocide occurring in Sudan because no one in the State 
Department has ever requested it, which seems to belie 
Secretary's Koh's comments that they were concerned about it 
and had so many meetings about it.
    The Commission on International Religion Freedom is 
apparently the sole genesis for such an overdue inquiry and we 
are at this point eagerly waiting for the state's determination 
or work product on this investigation.
    The report neglects to underscore the significance of the 
government's routine blocking of international, including 
American food aid to south Sudan, though they mention it. In 
what Senator Bill Frist calls ``calculated starvation.'' This 
strategy has killed hundreds of thousands Sudanese civilians in 
1998 alone and is unquestionably the most lethal weapon of war 
in this conflict.
    The report also fails to make the critical connection 
between new oil development by Khartoum and the unfolding human 
rights tragedy. Recent assessments by Secretary of State 
Madeleine Albright, the U.N. Special Rapporteur on Sudan, and 
the Canadian Government have all found an inextricable link 
between the actions of the Khartoum regime and the Greater Nile 
oil project.
    Since the oil pipeline revenues began flowing several 
months ago, the Khartoum regime has escalated its ruthless 
assaults on southern civilian populations. Targeted with 
particular savagery are those areas immediately surrounding the 
pipeline itself, where, as the report finds, the Sudanese 
military is now carrying out a scorched earth devastation.
    The international press, late last year, as well as a 
recent report commissioned by the Canadian Government, have 
reported that the resources of the Greater Nile partners, 
including their roads, airstrips and aircraft, are being used 
directly for military purposes. Helicopter gun ships and 
Antonov bombers, key elements of the Khartoum regime's war on 
civilians, had access to the extraordinarily well positioned 
airstrip of the partners.
    Two days ago, the compound of the Irish aid group, CONCERN, 
was bombed by the Sudanese air force, and on March 1, the 
Khartoum regime bombed the Samaritan's Purse hospital, run by 
the family of Rev. Billy Graham, in Lui, near Juba in southern 
Sudan, where four American doctors have treated over 100,000 
patients since 1998, and at least two patients we know of were 
killed in that attack.
    Then last month, the government had deliberately bombed a 
Catholic primary school in the Nuba mountains, killing 19 
children. Without a doubt these planes, these Antonov bombers, 
are being fueled by oil from the Greater Nile project.
    In addition to facilitating the Khartoum regime's war 
effort through direct enrichment and resources, as Secretary of 
State Albright made clear several months ago, it is the 
prospect of new unimpeded oil revenues that convinces the 
otherwise bankrupt Khartoum regime that it can acquire the 
military means to win the war outright. A war that the Congress 
has declared to be genocidal, will continue unless oil 
development and revenues are removed as the means for the 
regime to insulate itself economically.
    This was precisely Secretary Albright's point in Nairobi 
back in October, when she criticized the involvement of 
Talisman Energy, a 25 percent partner in the Greater Nile oil 
project.
    The Sudanese government's oil joint venture was itself 
especially designated as a sanctioned entity by the U.S. 
Treasury Department on February 16, though the individual 
partners, such as Talisman, the Chinese oil company, were not 
sanctioned.
    The Petro China, a front company for the Chinese oil 
company involved in Greater Nile, which, at 40 percent 
partnership, is the largest shareholder, has already applied to 
enter the U.S. equity markets and is soon expected to be 
approved by the SEC.
    So why doesn't the report draw the link between the oil and 
the escalating conflict--the genocidal conflict? Why is the 
Administration permitting this IPO to go through?
    This concludes my joint statement on behalf of the U.S. 
Commission on International Religion Freedom and the Freedom 
House.
    Now, on behalf of the latter, I wish to briefly comment on 
several other countries.
    As you pointed out earlier today, Mr. Chairman, that lost 
in the Egypt's report myriad of detail is the fact that the 
Coptic Christian minority, the largest Christian minority in 
the Middle East, is relegated to second class status by 
official policy which fosters an atmosphere of intolerance that 
has given way to patterns of violence, both by the militants 
and government security forces.
    This fundamental fact is epitomized in the continuing Al 
Kosheh crisis of the past 2 years, a tragedy that is only given 
sketchy treatment in the report and a tragedy that continued 
throughout 1999 by virtue of the fact that there was a failure 
of justice in the case, no one was ever convicted.
    In fact, a government press report says that those who were 
implicated were exonerated and given cash awards. That the 
NGO's have been restricted across the board and that the head 
of the largest human rights group, the EOHR, was charged, after 
he brought forward facts about the Al Kosheh incident, and is 
now in exile, as far as we know.
    As I point out in my written testimony, this assessment by 
the State Department that somehow the human rights record in 
Egypt has again improved somewhat over the past year, is being 
used by asylum officers to deny Coptic Christians asylum.
    The Vietnam report is also deeply flawed in its assertion 
that in some respects, conditions for religion freedom improved 
during the year. In view of the extensive April 1999 decree on 
religion, which is barely acknowledged in the report, as well 
as other developments, it can be more persuasively argued that 
in important respects, religious freedom saw setbacks in 1999.
    Under this new decree, all religious properties confiscated 
by the communist authorities after 1975 have become the 
permanent property of the state and government agencies are 
empowered to determine which religions are authorized in the 
appointment of religious dignitaries and publication of 
religious matter are subject to the prime minister's approval.
    So the key to understanding the status of religious freedom 
in Vietnam is the fact that the regime claims the right to 
control religion, that a government-created Hoa Hao committee 
directed by the well known communist cadre Mudi Ton was given 
official recognition and was able to hold a festival, is 
consistent with this fundamental fact of government control and 
is not a sign that religious freedom is expanding.
    The independent Unified Buddhist Church of Vietnam remains 
severely persecuted with its organization and legal activities 
banned and top leaders in detention under close police 
surveillance.
    Throughout July and August, police and religious official 
broke into pagodas throughout the country and conducted 
midnight raids. Unlike the government-controlled Hoa Hao, the 
independent Buddhists had to hold their Congress last May 
overseas in California. Christians in the Hmong region and 
tribal areas were the most severely prosecuted of the Christian 
groups, as the report states. This, too, can be explained by 
the fact that government bloc committees and surveillance 
agents can and do more readily intimidate and harass Christians 
in developed regions within the government's reach, whereas 
far-flung rural villages are largely outside the government's 
ability to control on a regular basis.
    Finally, regarding Saudi Arabia, the report gives credence 
to misleading government claims that private non-Muslim worship 
is permitted. Public worship by Christian Jews and other non-
Muslims is, in principle, a capital offense and the religious 
police have in the past year, as in previous years, entered 
private homes searching for evidence of private worship by non-
Muslims.
    In recent years, non-Muslims have been flogged, imprisoned 
and reportedly killed for private worship.
    Last October and again in January of this year, private 
homes have been raided and the Filipino Christians conducting 
worship services inside, including children, were thrown in 
jail for up to 40 days without consular access, some of whom 
were threatened and abused by police before being deported.
    That concludes my statement. Thank you.
    Ms. McKinney [presiding]. Thank you.
    Ms. Shea. Madam Chairman, I'd like to mention that I'm 
going to have to be leaving in 10 minutes to pick up my 
children from school.
    Ms. McKinney. All of us will, as well. So I would really 
like to hear Ms. DesForges.

 STATEMENT OF ALISON DESFORGES, CONSULTANT, HUMAN RIGHTS WATCH/
                             AFRICA

    Ms. DesForges. Thank you, Madam Chairman. I think the 
persistence and endurance of this particular Subcommittee in 
the intensity of its examination of this issue is indeed one of 
the reasons why we have seen such steady improvement in the 
country reports.
    The Congressional oversight and insistence upon the 
importance of human rights has obviously played a large role in 
focusing the attention of the State Department on this central 
issue.
    I would like to address quickly some important points about 
the reports dealing with the Great Lakes Region of Africa, 
before moving on to what is essentially the most important part 
of my testimony, some concrete recommendations about how 
exactly we can move to integrate better those concepts which we 
all honor into an effective foreign policy.
    Several speakers this morning and members of the panel, as 
well as Members of Congress, have indicated important omissions 
in various country reports. Nowhere is this more glaring than 
in the treatment of the Great Lakes of Africa, where, for 
example, the role of Ugandan troops in the DRC is barely 
mentioned.
    There is no discussion whatsoever of possible human rights 
violations by these troops. The conflict between the Hema and 
the Lindu, for example, is examined, but nowhere is there any 
mention of the role of Uganda in politicizing and militarizing 
this conflict.
    This is all the stranger given the underlying context of 
much of U.S. policy in the Great Lakes and, in fact, of much of 
human rights focus in the Great Lakes, which is exactly what 
Mr. Koh described this morning as atrocity prevention. The 
prevention of atrocities is increasingly narrowly defined as 
atrocities which could potentially happen to those people who 
are Tutsi or Tutsi-related. So that in the section dealing with 
the DRC, for example, there is extensive and absolutely 
justified discussion of anti-Tutsi sentiment on the part of the 
Kabila government, but in those scanty sections dealing with 
rebel factions and their backers, there is no mention 
whatsoever of anti-Hutu sentiment.
    So it's important to recognize that the distortions which 
we see here are a result not simply of questions of political 
alliance, which are, of course, important, but of this 
continuing fundamental sentiment of overwhelming guilt which 
results from the failed U.S. policy at the time of the Rwanda 
genocide.
    We're always trying to prevent that horrible past from 
happening again and until we come to terms with that, as 
Congresswoman McKinney has suggested, through an open 
investigation of our own role, we are going to continue chasing 
our tail in an attempt to make not happen what has, in fact, 
already happened.
    In addition to important omissions in dealing with Uganda 
and Rwanda in particular, there is another spin given to the 
material, similar to the spin that other panelists have also 
mentioned in other parts of the world: an attempt to minimize, 
soften in some way the presentation of data. Yes, they put it 
out there, but they then qualify it in one way or another to 
attempt to reduce its impact.
    So that when dealing with reports of killings by Rwandan 
troops in the DRC, for example, it is several times these 
reports are cushioned with statements questioning the 
credibility of these reports?
    Yes, of course, when you're assessing reports of human 
rights abuses, you must look for confirmation, but once you 
have the confirmation, you report what is, in fact, confirmed 
and you let the rest drop. There is no need to keep reminding 
us that many reports are not credible. Of course, that is true 
everywhere. In addition, the killings of Rwandan troops and 
their attacks on civilian populations are put very much in the 
context of self-defense.
    The chapter on the DRC, for example, states that Congolese 
Tutsi, as well as the governments of Burundi, Rwanda and 
Uganda, all relied on the Rwandan military presence for 
protection against hostile armed groups operating out of the 
eastern part of the country. That's putting a tremendous burden 
on the Rwandan military establishment and it does, in fact, 
seem to serve as a justification for whatever abuses it might 
then be accused of committing.
    In a similar vein, whenever Rwandan attacks and massacres 
are mentioned, they are also preceded by the information that 
this was a response to what somebody else did. So here, again, 
the attempt to give it a spin, to make it less awful than it 
really is.
    Let me point out, too, some very interesting comparisons 
between the chapters on Rwanda and the chapters on Burundi, 
where the difference in language clearly reflects the degree of 
closeness to the current government.
    So that when discussing ethnic discrimination in Rwanda, 
the chapter says at the start that yes, there is ethnic 
discrimination, but later in the chapter it softens this by 
saying that some Hutu accuse the government of discrimination, 
again without taking a position. Whereas the chapter on 
Burundi, where you have a very similar situation, but where we 
have not the same closeness to the Burundi government, there is 
a clear statement: state discrimination against Hutu affects 
every facet of society, but most particularly higher education 
and certain branches of government, such as the armed services 
and the judicial system.
    Similarly, in discussing the judicial system, in the 
Rwandan chapter, we're told that there are no reports of 
political prisoners in Rwanda. Human Rights Watch has delivered 
a number of cases directly to the door of the embassy, but here 
we're told there are no cases of political prisoners in Rwanda, 
while in the Burundi chapter, we're told that there are some 
clearly identifiable political prisoners.
    In talking about the Rwandan judicial system, as well, the 
Rwanda report concludes that the ``vast majority of trials met 
international standards,'' yet earlier in the chapter it says 
50 percent or fewer than 50 percent of the accused had access 
to legal counsel. In what way then does this meet international 
standards?
    Similarly, when discussing the proposed reform of the 
judicial system to create popular justice, the popular justice 
system of gacaca, the report says that lawyers will not be 
permitted to ``participate officially.'' That's not so. Lawyers 
will not be permitted to participate in any form whatsoever.
    So these details indicate a spin on the report which is a 
very important one.
    Another case: the mention of villagization is passed over 
very quickly in the context of the report, simply saying that 
some observers believe that residents were compelled to move to 
these government designated villages. This gives no sense of 
the fact that thousands of people have been forced to destroy 
their own homes and to move to government designated sites, 
where they are now living in shelters made out of sticks and 
grass and banana leaves, some of them for 2 years, because the 
government has imposed this policy of forced villagization.
    The reports on the DRC and on Rwanda make the point many 
times that it is difficult to get information, and in fact, 
this is a problem. But if embassy personnel were more open to 
receiving information from local human rights organizations, 
they would find themselves relatively well supplied with what 
they need.
    Of course, this information would need to be critically 
assessed, but the point is the information is there. All we 
need to do is make adequate use of it.
    Let me go on to some concrete recommendations which could 
perhaps help to bridge the gap between that island of human 
rights and the mainland of general policy.
    First of all, as the reports indicate, the allegations of 
massive crimes against humanity in the DRC have never been 
investigated. The U.S. initially supported the idea of a U.N. 
investigation, but backed off when the Kabila government and 
the Rwandan authorities said no.
    In the recent U.N. Security Council resolution establishing 
the peace keeping operation in the Congo, the U.S. has once 
again endorsed the prospect of an investigation of these 
massacres. We would urge the Subcommittee to keep that on its 
agenda and to ensure that the Administration understands the 
vital importance that this time that investigation be done, be 
done well, promptly and thoroughly.
    Uncovering the truth of crimes is not enough. We also have 
to have accountability and----
    Mr. Smith [presiding]. Ms. DesForges, would you mind 
yielding just for a minute? The gentle lady from Georgia had a 
question.
    Ms. McKinney. Yes. I do need to go vote. But, Dr. 
DesForges, I would just like to request that I can call you and 
we can discuss some issues later, since I've got your number 
here.
    But you were about to go into the issue of accountability, 
and you might even answer my question. I will just say that I 
have concerns for all of you about the accountability of the 
United Nations, the accountability of the United States itself, 
and about U.S. corporations and U.S. corporate behavior and 
their accountability.
    So why don't you go ahead and finish on the accountability 
and then I will pose my question, because I want to hear what 
you have to say.
    Ms. DesForges. Just as a side light, let me mention that 
the OAU report on responsibility for external actors during the 
Rwandan genocide will be published shortly and should provide 
an opportunity to call once again for a United States 
investigation into its own behavior.
    If the pattern of impunity is to be broken, these kinds of 
crimes must be dealt with in something other than simply a 
truth-telling kind of mechanism. The international criminal 
tribunal for Rwanda, which is a very, very flawed structure in 
many ways, is perhaps the best we're going to get in the short 
term. We need to exploit it to its maximum, including insisting 
that its mandate be extended, so that it parallels the mandate 
of the tribunal for former Yugoslavia. That is, it becomes an 
open ended mandate, which allows it to deal with events that 
happened after the end of 1994, and which would allow it to 
deal with events that happened also by all parties in the DRC.
    Similarly, the establishment of a separate chamber to deal 
with Burundi would allow it for the first time to deal with the 
unresolved issue of accusations of genocide and crimes against 
humanity in Burundi. Those charges were made by a U.N. Security 
Council commission of investigation and they were let drop 
completely.
    The connections in this region are too complex to permit 
partial justice; that is, justice for one party and not 
another, justice in one country and not another.
    Even with the best possible functioning of international 
justice, we also need to support development of judicial 
systems within these various nations. The United States is now 
well placed to do this, with the Great Lakes justice 
initiative, and I would encourage you to support the efficient 
administration of that fund so that, for example, in Burundi, 
money can be directed to helping to redress the gross ethnic 
imbalance there by providing immediate short-term training to 
Hutu jurists so that they can enter into the court system and 
perhaps to allowing for the temporary recruitment of foreign 
jurists to lend greater credibility to judgments in those 
courts.
    In the Rwandan context, support for the new gacaca process 
is, of course, a valuable idea, but it's one which we should 
permit only if we do not sacrifice our own standards of due 
process, and that means particularly allowing accused to have 
the right to legal defense, particularly if the consequence of 
their condemnation will be a life in prison.
    Local human rights groups have been mentioned several times 
this morning as important sources of information. Supporting 
them financially and politically is of the greatest importance. 
In the Rwanda chapter, there is a mention that local human 
rights groups are weak because they have very few resources. 
Yes, indeed, and USAID has refused to give any money to those 
local human rights groups, up until very recently, when, after 
we made a vigorous protest, they decided to look at local human 
rights organizations as a possible recipient of funds.
    The Members of the Congressional Friends of Human Rights 
Monitors have played in the past a very important role and need 
to continue playing that role, being alert to possibilities of 
persecution and danger for our colleagues on the ground. When 
on missions, we've heard how often you all travel, a great deal 
obviously, on those missions, your being in touch with local 
activists rather than simply with official types gives those 
people a small measure of protection and an enormous amount of 
encouragement.
    Ms. McKinney. Let me thank the Chairman. I think I've just 
about given up my opportunity to go and vote. But for all of 
you--maybe this is just a vent right now--the United Nations 
has apologized three times in Rwanda, Srebreneca, and East 
Timor, for their failings.
    They said I'm sorry. My question is, is I'm sorry enough? 
As I watch the Rwandans, the Srebrenecans and the East Timorese 
try to put their shattered lives back together and in the case 
of Rwanda and East Timor, trying to put countries back 
together, I'm sorry just doesn't seem to be enough.
    Since you represent the legal community, maybe you could 
help with, under the face of the staggering culpability by the 
United Nations, what's out there for victims of U.N. complicity 
in human rights violations.
    But let me continue with the United States and 
accountability on the part of the United States. As we learn 
and continue to learn even today about U.S. military ties to 
other militaries, we see that our own troops, our own people 
are complicit in human rights abuses, and in some cases, even 
worse situations with respect to Rwanda, I believe.
    So what is it that keeps the United States accountable and 
for those people who are victims of U.S. military behavior and 
policy, Mr. Salinas, you talked in your piece about good 
information, but bad policy. To whom do the victims of U.S. bad 
policy turn for redress and holding the United States 
accountable, and then with U.S. corporations? Oil companies and 
our diamond people, we see that oil and diamond are used as 
excuses for fueling wars and the commission of human rights 
abuses.
    How is it that we hold our U.S. corporate community 
accountable for the human rights violations that they 
participate in as well?
    Ms. Massimino. There's a lot there to respond to and all of 
them very, very good points. I'd like to make a couple of 
points in response to that.
    There had to be a lot of ``sorries'' on the part of the 
U.S., on the part of the United Nations, over many, many years, 
and this is a big problem, the U.S. participation in human 
rights abuse, the U.S. standing by watching human rights abuse 
and then deciding to act when it's too late to prevent.
    I guess I would say there are a number of steps that could 
be taken to help make sure we are not in a position of having 
to say only ``sorry.''
    Again, one is--and Mr. Salinas can talk more about this, 
but one is the importance of making sure that people know that 
the conduct of their own government and their participation in 
human rights violations is going to be made public, and that's 
why the Human Rights Information Act is such an important idea 
and such an important vehicle, because if people know, if 
bureaucrats know that their actions, that the basis on which 
they are making their decisions, their involvement in the human 
rights violations of other governments, to the extent that's 
documented, is going to be made public, that's a huge 
deterrent.
    On the issue generally of accountability----
    Mr. Smith. Ms. Massimino, would you mind suspending just 
briefly. Ms. McKinney and I both have a second in a series of 
votes and now they're only 5 minute votes and this is on a 
bill. I have several additional questions, but one with regard 
to North Korea, which has been noticeably absent in much of 
this discussion.
    When Ambassador Seiple was here and appeared before our 
Committee and named the countries of particular concern, he 
left out North Korea. I asked him couldn't we presumptively 
list it, even though we may not have access to detailed 
information? How do you get a delegation on the ground? 
Reporting is minimal, nil to none, and yet we know that there 
is severe repression that ought to presumptively qualify North 
Korea in that list.
    You might want to touch on North Korea.
    Mr. Rees, who is our chief of staff, will keep the hearing 
open, and your answers will be looked at very carefully by all 
of us, and we thank you so much for coming. I hate to leave, 
but there is a whole series of votes coming up.
    Ms. Massimino. Thank you.
    Mr. Rees. Perhaps you could briefly finish the answer to 
the other question and then answer the question about the 
absence of information in North Korea.
    Ms. Massimino. The other point I wanted to make on 
accountability is this. One thing that was striking to me, it 
was in Secretary Koh's introductory remarks, on the release of 
the report. He talks about accountability a lot and one of the 
things he says is that there is no international consensus on 
the need for an international criminal court.
    Happily, that's not true. There is a strong international 
consensus that we need this international criminal court, a 
standing body to address the kinds of abuses that have had to 
be addressed in the various ad hoc tribunals.
    The problem is that the U.S. is standing outside of that 
international consensus and that's terribly distressing and a 
part of U.S. policy that we hope to see changed in the future.
    Mr. Rees. Does anyone have an answer to the North Korea 
question? I think the focus of the Chairman's question on North 
Korea was that--and it's not only North Korea, it's also 
notable in the Laos report, the Burma report--where you can't 
get information, where there are reports, particularly from 
exiles, who say, ``well my relatives in the country or my 
friends tell me that this terrible thing is going on,'' and 
then the report either doesn't mention those things or it says, 
there were reports, but there was no way to confirm it.
    Does the worst government win? In other words, the more 
successful you are at blocking transparency, at keeping human 
rights organizations out, at keeping information from getting 
out, do you get a pass in the human rights report because of 
that? What is the solution?
    Ms. Massimino. That's a difficult problem and we face it 
ourselves. If we were to sit down and talk about countries 
where we don't get access and, therefore, can't publish reports 
and can't--all we can do is hold press conferences or issue 
statements saying that they won't let us in.
    Cuba, North Korea, Syria, there are a number of countries. 
Now, usually those are countries that are not getting a 
``pass'' in terms of U.S. policy toward them, because they are 
denounced as pariah governments and aren't getting aid so 
that----
    Mr. Rees. Laos and certain regions of Vietnam are utterly 
inaccessible. Terrible things are said to happen there, and 
it's arguable that those countries are getting a pass in terms 
of U.S. policy. Maybe other countries, as well.
    Ms. Massimino. Yes. I guess what I would say is that what 
we have to do in countries like that and what we urge the 
country reports to--the approach to take is to state 
specifically all of the allegations about abuses and to make a 
bigger point of not assuming that access will be denied, but 
make--this is what we do--make requests, get denied, press 
again and document the denial of access as prima facie evidence 
of their being something to hide there.
    It's a hard problem and we face it, too.
    Mr. Rees. Anybody else on that question?
    Mr. Salinas. I think part of it is to look at it in terms 
of whether or not you allow the countries that do not permit 
access to get a free pass. In a way, this is kind of answering 
the question of the Ranking Member, ``who holds the U.S. 
Government accountable?'' The answer is you all. It's the role 
of Congress, it's the oversight, it's the checks and balances 
on the executive branch, it's why we're so focused on Congress 
with this Colombia aid package.
    You are the ones that can get the information. You are the 
ones who can pass a bill to set up an orderly process to have 
clarity, and you are also the ones that can help nudge the 
administration to make it clear to countries that do not offer 
access, make it clear to them, so that they understand, that 
there is a price to pay for that.
    So we're not just left with an omission, it's not just a 
gap in the reporting, you make a big deal out of it. You make 
it clear that this is unacceptable and you keep insisting.
    Mr. Rees. Dr. DesForges, this example in the context of 
North Korea, other Asian nations, recalls the situation in 
Eastern Congo, then Zaire, in 1996, when Refugees 
International, UNHCR, and other groups were saying that there 
were over 100,000 missing refugees somewhere who might be being 
killed.
    As far as I know, the international community has--the 
bodies that like to cal themselves the international 
community--have never come to terms with that. They've never 
said ``yes, too bad, they got killed,'' or ``no, they didn't.''
    You might be more familiar with the end game on that 
terrible situation, about the lack of information and how the 
lack of information and perhaps the deliberate failure to 
search for information generated policy.
    Ms. DesForges. Yes. I think that's the important 
distinction, when is lack of information a true lack? It's like 
we're finding increasingly that famine is never really famine, 
it's all politically determined. It's not a lack of food, it's 
a question of policy. I think it's not a lack of information, 
it's a question of policy.
    As in the case you mentioned, the information was there. 
The U.S. had satellite surveillance. The information was there. 
It was that one part of the U.S. Government was not about to 
share that with human rights defenders because of certain 
policy interests.
    I would suppose that even in a case like North Korea, that 
there is a substantial amount of intelligence available if 
there were a human rights culture that infected our 
intelligence service and if they also believed that this was 
something that their information should reflect. My guess is 
there would be a way that that information could be gotten and 
passed to the country reports people.
    It's just that that, as we have bemoaned all day long, has 
not yet happened. We're creeping up on them. But I think there 
is also the question of time. As my colleagues have stressed, 
it's not enough to be refused once. You have to keep trying, 
and things do change. No situation is set in concrete and no 
group of abusers, no abusive government is homogeneous.
    There are always factions within any government and at some 
point, they will start to see that the costs of continuing to 
stonewall on these issues is such that it might be better to 
give in and allow for some closer examination.
    I think it's a question of publicity. For example, the 
Mwenge incident, which has now become so famous that Secretary 
Albright mentioned it at the United Nations, 15 people were 
massacred. How many times have 15 people been massacred in 
Eastern Congo?
    Now, obviously, this was a particularly gruesome incident 
that caught people's imagination, but it was simply the fact 
that that was picked up and talked about over and over and over 
again, that finally led those local authorities to get in touch 
with people like us to say wouldn't you please come and 
investigate, because we would really like to have the world 
know what happened at Mwenge.
    Of course, then you're subject to manipulation once you get 
there and you have to be alert to that. But the point is that 
over time, with sufficient pressure, cracks develop in those 
edifices and then you can scoot on through.
    Mr. Rees. In accordance with the Chairman's order, the 
hearing is now closed.
    [Whereupon, at 2:40 p.m., the Subcommittee was adjourned.
      
=======================================================================




                            A P P E N D I X

                             March 8, 2000

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T5719.001
    
    [GRAPHIC] [TIFF OMITTED] T5719.002
    
    [GRAPHIC] [TIFF OMITTED] T5719.003
    
    [GRAPHIC] [TIFF OMITTED] T5719.004
    
    [GRAPHIC] [TIFF OMITTED] T5719.005
    
    [GRAPHIC] [TIFF OMITTED] T5719.006
    
    [GRAPHIC] [TIFF OMITTED] T5719.007
    
    [GRAPHIC] [TIFF OMITTED] T5719.008
    
    [GRAPHIC] [TIFF OMITTED] T5719.009
    
    [GRAPHIC] [TIFF OMITTED] T5719.010
    
    [GRAPHIC] [TIFF OMITTED] T5719.011
    
    [GRAPHIC] [TIFF OMITTED] T5719.012
    
    [GRAPHIC] [TIFF OMITTED] T5719.013
    
    [GRAPHIC] [TIFF OMITTED] T5719.014
    
    [GRAPHIC] [TIFF OMITTED] T5719.015
    
    [GRAPHIC] [TIFF OMITTED] T5719.016
    
    [GRAPHIC] [TIFF OMITTED] T5719.017
    
    [GRAPHIC] [TIFF OMITTED] T5719.018
    
    [GRAPHIC] [TIFF OMITTED] T5719.019
    
    [GRAPHIC] [TIFF OMITTED] T5719.020
    
    [GRAPHIC] [TIFF OMITTED] T5719.021
    
    [GRAPHIC] [TIFF OMITTED] T5719.022
    
    [GRAPHIC] [TIFF OMITTED] T5719.023
    
    [GRAPHIC] [TIFF OMITTED] T5719.024
    
    [GRAPHIC] [TIFF OMITTED] T5719.025
    
    [GRAPHIC] [TIFF OMITTED] T5719.026
    
    [GRAPHIC] [TIFF OMITTED] T5719.027
    
    [GRAPHIC] [TIFF OMITTED] T5719.028
    
    [GRAPHIC] [TIFF OMITTED] T5719.029
    
    [GRAPHIC] [TIFF OMITTED] T5719.030
    
    [GRAPHIC] [TIFF OMITTED] T5719.031
    
    [GRAPHIC] [TIFF OMITTED] T5719.032
    
    [GRAPHIC] [TIFF OMITTED] T5719.033
    
    [GRAPHIC] [TIFF OMITTED] T5719.034
    
    [GRAPHIC] [TIFF OMITTED] T5719.035
    
    [GRAPHIC] [TIFF OMITTED] T5719.036
    
    [GRAPHIC] [TIFF OMITTED] T5719.037
    
    [GRAPHIC] [TIFF OMITTED] T5719.038
    
    [GRAPHIC] [TIFF OMITTED] T5719.039
    
    [GRAPHIC] [TIFF OMITTED] T5719.040
    
    [GRAPHIC] [TIFF OMITTED] T5719.041
    
    [GRAPHIC] [TIFF OMITTED] T5719.042
    
    [GRAPHIC] [TIFF OMITTED] T5719.043
    
    [GRAPHIC] [TIFF OMITTED] T5719.044
    
    [GRAPHIC] [TIFF OMITTED] T5719.045
    
    [GRAPHIC] [TIFF OMITTED] T5719.046
    
    [GRAPHIC] [TIFF OMITTED] T5719.047
    
    [GRAPHIC] [TIFF OMITTED] T5719.048
    
    [GRAPHIC] [TIFF OMITTED] T5719.049
    
    [GRAPHIC] [TIFF OMITTED] T5719.050
    
    [GRAPHIC] [TIFF OMITTED] T5719.051
    
    [GRAPHIC] [TIFF OMITTED] T5719.052
    
    [GRAPHIC] [TIFF OMITTED] T5719.053
    
    [GRAPHIC] [TIFF OMITTED] T5719.054
    
    [GRAPHIC] [TIFF OMITTED] T5719.055
    
    [GRAPHIC] [TIFF OMITTED] T5719.056
    
    [GRAPHIC] [TIFF OMITTED] T5719.057
    
    [GRAPHIC] [TIFF OMITTED] T5719.058
    
    [GRAPHIC] [TIFF OMITTED] T5719.059
    
    [GRAPHIC] [TIFF OMITTED] T5719.060
    
    [GRAPHIC] [TIFF OMITTED] T5719.061
    
    [GRAPHIC] [TIFF OMITTED] T5719.062
    
    [GRAPHIC] [TIFF OMITTED] T5719.063
    
    [GRAPHIC] [TIFF OMITTED] T5719.064
    
                                  <all>
</pre></body></html>
